NO. 19-__

In the
Supreme Court of the United States
COMCAST CORPORATION, ET AL.,
Petitioners,
V.

INTERNATIONAL TRADE COMMISSION, ET AL.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT

APPENDIX VOLUME III OF III

DAVID J. LISSON
DAVIS POLK & WARDWELL
LLP
1600 El Camino Real
Menlo Park, CA 94025

DONALD B. VERRILLI, JR.
Counsel of Record
GINGER D. ANDERS
MUNGER, TOLLES & OLSON LLP
1155 F Street NW 7th Floor
Washington, D.C. 20004
(202) 220-1100
Donald.Verrilli@MTO.com
BRIAN J. SPRINGER
MUNGER, TOLLES & OLSON LLP
350 S. Grand Ave., 50th Floor
Los Angeles, CA 90071

Counsel for the Comcast petitioners
(Additional counsel listed on inside cover)

PAUL M. BARTKOWSKI
ADDUCI, MASTRIANI &
SCHAUMBERG LLP
1133 Connecticut Ave. NW,
12th Floor
Washington, D.C. 20036
Counsel for the Technicolor
Petitioners

MITCHELL G. STOCKWELL
MICHAEL J. TURTON
JOSHUA H. LEE
KILPATRICK TOWNSEND &
STOCKTON LLP
1100 Peachtree St. NE,
Ste. 2800
Atlanta, GA 30309
JOSHUA B. POND
KILPATRICK TOWNSEND &
STOCKTON LLP
607 14th St NW, Ste. 900
Washington, D.C. 20005
Counsel for the ARRIS
Petitioners

TABLE OF CONTENTS
Volume I
Appendix A: Opinion of the United States
Court of Appeals for the Federal Circuit
(March 2, 2020) ......................................................... 1a
Appendix B: Opinion of the United States
International Trade Commission
(December 6, 2017) ................................................. 18a
Appendix C: Initial Determination of the
United States International Trade
Commission (May 26, 2017) ................................... 75a
Volume II
Appendix C: Initial Determination of the
United States International Trade
Commission (May 26, 2017) (continued).............. 343a
Volume III
Appendix C: Initial Determination of the
United States International Trade
Commission (May 26, 2017) (continued).............. 693a
Appendix D: Relevant Cease and Desist and
Limited Exclusion Orders of the United States
International Trade Commission ........................ 950a
Appendix E: Statutory Provisions...................... 1016a

693a
because a tuner is “unavailable” does not
mean that it has to be “in use”—a tuner
could be unavailable, for example, if it is
disabled or reserved for a purpose other
than “use” to view or record television
programming. Nothing in the intrinsic
record of the patent restricts or limits the
“availability” of a tuner to whether or not
that tuner is “in use.”
In the context of the infringement dispute
whether or not a tuner is (and whether or
not “all tuners” are) “in use” or not is
relevant because—and as will be
explained in more detail below—the
accused products limit the number of
simultaneous recordings not based on the
number of tuners (and whether they are
“all” in use or not) but based on how many
streams of data the cable, card can
decrypt. Thus, and for example, an
accused product may have eight tuners,
but only five of those tuners are available
and capable of presenting television to
the user because the cable card limits
how many tuners can be utilized
simultaneously. Balakrishnan Tr. 36061; RX-0846C (Garcia RWS) at Q/A 2526; Garcia Tr. 627.
Rovi Br. at 139-40 (footnote omitted).
Comcast argues:
The entire concept of the ’512 Patent is to
detect conflicts when all tuners are
occupied in a multi-tuner system. See e.g.
JX-0006 (’512 Patent) at 1:65-2:13; see

694a
also RDX-1218 (JX-0006 at Figs. 4(b) and
4(c) (annotated)) (demonstrating that the
’512 Patent clearly discloses that the user
has the option to cancel a program when
the “second tuner is in use”). A conflict
can only arise when it implicates the
“nth” (last allocated tuner). See supra §
IX.C.2.e. In this condition, consistent
with Respondents’ proposed construction,
all the “tuners capable of performing the
requested operation are in use.”
The ’512 Patent clearly discloses a system
in which a conflict is determined anytime
all of the tuners are occupied - regardless
of the manner in which they are occupied.
See RDX-1240 (JX-0006 at Fig. 3(b)
(annotated)). In Fig. 3(b) the tuner is
occupied if it is displaying a television
program, recording a program, or
providing a secondary function (e.g.,
picture-in-picture or providing program
listings data.) RX-0847C (Bederson RWS)
at Q/A33; See also RX-0053 (‘487 Prov.
App.) at 1 (“In the case of multiple
internal tuners in the settop, . . . If the
viewer is currently using both tuners (for
example, for picture-in-picture) that
activity will need to be interrupted”). In
addition, the claims of the ’512 Patent
themselves indicate that an alert occurs
any time the tuners are occupied,
regardless of the service being delivered.
For example, claims 8 and 9 of the ’512
Patent make clear that a conflict is
determined, and an alert is provided,

695a
when the user is viewing a program using
one tuner and recording a program using
the other viewer. JX-0006 at Cls. 8 and 9;
RX-0847C at Q/A 36. And claims 4 and 16
clearly state a “tuning operation” include
“viewing television programming.” JX0006 at Cls. 4, 8, 9 and 16.
In contrast to Respondent’s proposal,
Rovi’s proposal is inconsistent with the
purpose of the patent, and even Dr.
Balakrishnan’s own testimony, which
agrees that, “determining that neither a
first tuner nor a second tuner are
available to perform the requested tuning
operation” would not be satisfied until
the last tuner (the 100th tuner in a 100
tuner) was occupied. Tr. 329:23-330:15
(confirming deposition testimony); RX0847C at Q/A 37, 26. Rovi’s proposed
construction that “the first and second
tuners cannot perform the requested
tuning operation” conflates lack of
availability due to use (as the patent
describes), with inability. Id. This has the
effect of sweeping into the claims any
scenario where the tuner “cannot
perform” the requested operation,
including cases when the tuner “cannot
perform” the operation due to factors
wholly unrelated to tuner conflicts; an
error in the controller, incoming RF
signal to be selected by the tuner, and
numerous other hardware failures could
leave the tuner so it “cannot perform the
operation.” Those scenarios cannot fairly

696a
be swept into the claims. And, of course,
Rovi’s proposal is redundant of the
second half of the limitation requiring
“wherein the first tuner and the second
tuner are both capable of performing the
tuning
operation,”
which
already
addresses the capability (i.e., whether the
tuner can perform the operation). Id.
Resps. Br. at 178-79.
Rovi replies:
Respondents
proposed
construction
exceeds the plain meaning of the claim
language. Resps. Br. at 178. All that the
language requires is what Rovi
proposes—“the first and second tuners
cannot perform the requested tuning
operation.” Compls. Br. at 139.
Respondents
assert
the
proper
construction of this term requires
reading-in limitations that equates no
first or second tuner being “available”
with “all tuners” needing to be “in use” at
the same time. Resps. Br. at 178. As Rovi
explained,
Respondents’
incorrectly
“equate[] the ‘first’ and ‘second’ tuners
with ‘all tuners’” and further incorrectly
“equate[] ‘unavailable’ with ‘in use.’”
Compls. Br. at 140 (Rovi explaining
further that a tuner can be “unavailable”
for reasons other than it being “in use”);
id. at 161-163 (Rovi explaining how the
Accused
Products
infringe
this
limitation). No intrinsic source of
meaning
compels
reading-in

697a
Respondents’ claim additions, and Rovi’s
plain meaning construction, which
requires that “the first and second tuners
cannot perform the requested tuning
operation”—i.e.
that
they
are
“unavailable” to perform the “requested
tuning operation”—should be adopted.
See id.
Rovi Reply at 51-52.
Comcast replies:
Rovi’s
criticisms
of
Respondents’
constructions are inconsistent with its
own statements, and those of its expert.
Rovi summarizes the purpose of the ’512
Patent as addressing “[a] tuner conflict
[that] occurs when no tuner is
available to perform a user’s request to
perform a tuning operation.” Compl.
PoHB at 133 (emphasis added). This
purpose of the patent described by Rovi—
in which “no tuner is available”—is
logically coincident with “all tuners”
being in use as recited in Respondents’
construction.
In contrast, Rovi’s proposed construction
would lead to the absurd result that in,
e.g., a three tuner system, if two tuners
are busy, and one tuner is free, this
limitation would still be satisfied. See Tr.
299:16-301:1 (testifying that limitation
would still be met when 3 out of 5 tuners
were idle and not in use). If one tuner is
free, how can there be “no tuner
available,” as Rovi contends is the

698a
purpose
of
the
invention?
Dr.
Balarkishnan’s [sic] provides similarly
inconsistent opinions—on one hand
admitting that tuner conflicts occur when
no tuner is available, and on the other
testifying that this limitation would still
be met when there are free/unused
tuners. Compare Tr. 289:16-290:25
(testifying that purpose of the invention
is to provide an alert when both of the
tuners in a two tuner system are in use)
with Tr. 299:16-300:1; see also RX-0847C
at Q/A 37.
Rovi attempts to rehabilitate its
inconsistent positions, as discussed
above, by arguing that just because a
tuner is “not available” (as recited in the
claim) does not require that it be “in use”
(as recited in Respondents’ construction).
Dr. Balakrishnan states that “a tuner
that is ‘in use’ could still be ‘available’
depending on how a system is set up.”
Compl. PoHB at 140. But, he provides no
evidence in the intrinsic or extrinsic
record to support his opinion, and
interestingly, provides no description of
any system in which a tuner “in use”
could be still available. CX-0003C at Q/A
218.
The effect of Rovi’s proposal, and Dr.
Balakrishnan’s opinion, is that the
claims of the ’512 Patent would read on
“rules,” rather than actual tuner
conflicts. For example, if there are ten
tuners capable of displaying up to ten

699a
programs, and a rule is set to allow a
viewer to watch only two premium
channels (e.g, HBO, Showtime) at one
time, this would imply that ten tuners
are available when ten non-premium
channels are watched, and only two
tuners are available when premium
channels are watched. But the patent
does not teach this. Rather, the patent
clearly teaches that a first tuner may be
occupied by, e.g., displaying or recording
a program (RX-0847C at Q/A 26; RDX1237 (JX-0006 at Fig. 3(b) (annotated);
JX-0006 (’512 Patent) at 8:17-32),
subsequently, the “other tuner,” or
“second tuner” in a two tuner system,
becomes occupied by either displaying or
recording a second program, (RX-0847C
at Q/A 26; RDX-1238 (JX-0006 at Fig 3(b)
(annotated)); JX-0006 at 8:33-65, 9:4459), and the IPG only issues an alert
when a third operation is requested (RX0847C at Q/A 26; RDX-1239 (JX-0006 at
Fig 3(b) (annotated)); JX-0006 at 9:9-36,
9:44-59). The alert cannot be issued until
the Nth, or last, tuner is occupied. RX0847C at Q/A 32-38. Yet, through its
construction, Rovi seeks to expand the
claims beyond purpose of the invention—
”tuner conflicts”—and expand it to any
limit imposed on the number of channels
that can be watched or recorded.
Resps. Reply at 54-55.
As an initial matter, the administrative law judge
has determined that this phrase does not need

700a
construction. The words in the claim are used
according to their common, plain meaning.
In the alternative, the administrative law judge
construes the phrases “neither a first tuner nor a
second tuner are available to perform the requested
tuning operation” (claim 1) and “neither the first tuner
nor the second tuner are available to perform the
requested tuning operation” (claim 13) to mean “the
first and second tuners cannot perform the requested
tuning operation.” Rovi’s construction comports with
the plain and ordinary meaning of the words in the
claim.
Comcast’s construction requires that “all tuners
capable of performing the requested operation are in
use[.]” Comcast’s construction does not have support
in the specification. See Acumed LLC v. Stryker Corp.,
483 F.3d 800, 806 (Fed. Cir. 2007) (“a sound claim
construction need not always purge every shred of
ambiguity”); PPG Indus. v. Guardian Indus. Corp.;
156 F.3d 1351, 1355 (Fed. Cir. 1998) (“Claims are often
drafted using terminology that is not as precise or
specific as it might be. . . . That does not mean,
however, that a court, under the rubric of claim
construction, may give a claim whatever additional
precision or specificity is necessary to facilitate a
comparison between the claim and the accused
product. Rather, after the court has defined the claim
with whatever specificity and precision is warranted
by the language of the claim and the evidence bearing
on the proper construction, the task of determining
whether the construed claim reads on the accused
product is for the finder of fact.”).

701a
(8) Resolving a conflict when multiple
operations are performed using
multiple tuners
The phrase “resolving a conflict when multiple
operations are performed using multiple tuners” only
appears in the preambles of claims 1 and 13. 145 The
parties have proposed the following constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

Determining how to
Comcast does not clearly
allocate a tuner to perform present a construction in
a requested operation if no its post-hearing brief.
tuner is available to
perform the requested
tuning operation
See Rovi Br. at 141; Resps. Br. at 184-85.
Rovi’s entire opening argument is:
One of ordinary skill in the art would
have understood the phrase “resolving a
conflict when multiple operations are
performed using multiple tuners” to
mean “determining how to allocate a
tuner to perform a requested operation if
no tuner is available to perform the
requested tuning operation.” CX-0003C
The patent uses the word “conflict” four times—twice in the
claims, once in describing Figure 4(b), and once in describing
Figure 4(c). With regard to Figures 4(b) and 4(c), the patent
proposes providing a screen “which acts to alert the viewer to a
conflict in tuner allocation and usage.” JX-0006 at 10:27-28;
10:48-49.

145

702a
(Balakrishnan WS) at Q/A 219.
Respondents contend that this phrase
means “Determining how to allocate a
tuner to perform a requested operation if
all tuners are in use.” As with the prior
term,
and
for
similar
reasons,
Respondents’ construction improperly
adds the words, “all tuners are in use”
with no basis in the intrinsic record. CX0003C (Balakrishnan WS) at Q/A 220.
Rovi Br. at 141.
Comcast’s argument is:
As discussed above in §§ IX.C.2.a-d, and
detailed in Fig. 3(b), the ’512 Patent is
directed to the goal of resolving conflicts
in a system with multiple tuners (i.e., n
tuners). Such a conflict arises when all of
the tuners, including the last allocated
tuner - i.e., the nth tuner - are occupied
and a new request is received by the IPG.
JX-0006 (the ’512 Patent) at 1:65-2:13
(emphasis added); see also id. at 9:44-59
(“. . .Thus following step 308, both tuners
are in use. . .”); 8:66-9:8 (“. . . Thus
following step 309, both tuners are in use.
. .”). Respondents’ construction, as for the
term “neither a/the first tuner nor the
second tuner are available to perform the
requested
tuning
operation,”
is
consistent with the purpose of the
invention and the intrinsic record.
Resps. Br. at 184-85.
Rovi replies:

703a
Respondents do not separately address
Rovi’s construction for the phrase
“resolving a conflict when multiple
operations are performed using multiple
tuners.” Instead, Respondents repeat the
arguments that they made in support of
their construction of the phrase “neither
a/the first tuner nor the second tuner are
available to perform the requested tuning
operation,” which, as Rovi discussed
supra at Section VII(A)(6), is incorrect.
For the reasons established in Rovi’s
Post-Hearing Brief (Compls. Br. at 141),
the ALJ should adopt Rovi’s proposed
construction.
Rovi Reply at 52.
In a footnote directed toward the “neither a/the first
tuner nor a/the second tuner are available to perform
the requested tuning operation” phrase, Comcast
adds:
The parties’ dispute over “resolving a
conflict when multiple operations are
performed using multiple tuners” is fully
reflected in this claim term. The central
dispute is whether the claim term
extends to the scenario when the tuning
operation “cannot be performed” as
recited in Rovi’s construction for “neither
a/the first tuner nor a/the second tuner . .
.” or Respondents’ construction which
recites that “all the tuners are in use.”
Resps. Reply at 54 n.20.

704a
The parties agree that the construction should
begin with “determining how to allocate a tuner to
perform a requested operation if. . . [,]” but they differ
on whether the subsequent condition should be that
“no tuner is available to perform the requested tuning
operation” (Rovi) or that “all tuners are in use”
(Comcast). There is no substantive difference between
Rovi and Comcast’s constructions. See also CX-0003C
at Q/A 220-22 (conceding similarities and stating
opinions do not change under either party’s
construction).
Accordingly, the administrative law judge construes
the phrase “resolving a conflict when multiple
operations are performed using multiple tuners” to
mean “determining how to allocate a tuner to perform
a requested operation if no tuner is available to
perform the requested tuning operation.”
(9) Interactive television program guide
The term “interactive television program guide”
appears in claims 1, 10, 13, and 22 and throughout the
specification. The parties have proposed the following
constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

software that, among
other things, allows a
user to navigate to and
select program listings

Comcast does not clearly
present a construction in
its post-hearing brief.

See Rovi Br. at 145; Resps. Br. at 181-82.
Rovi’s entire argument for this term follows:

705a
The term “interactive television program
guide” means “software that, among
other things, allows a user to navigate to
and select program listings.” CX-0003C
(Balakrishnan WS) at Q/A 236-237.
Rovi Br. at 145.
Comcast’s entire argument for the terms
“interactive television program guide,” “interactive
television program guide implemented on the system”
and “system” follows:
The ’512 Patent is clearly about the use
of an IPG resident on “user television
equipment” that provides the user the
ability to view television programs and
set recordings using a VCR. RX-0847C
(Bederson RWS) at Q/A 48; JX-0006 (’512
Patent) at 1:55-64, 1:22-34 (“. . .[w]hen
the selected program begins, the program
guide tunes the set-top box to the channel
showing the program and directs a
videocassette recorder (“VCR”) to begin
recording. . . .”), 1:48-51 (“It is therefore
an object of the present invention to
provide an interactive television program
guide system which allows a user to
record one program while simultaneously
watching another program.”). The ’512
Patent also proposes that each user has a
user guide equipment that acts as a
receiver, such as a STB. JX-0006 at 4:545:7 (“Each user has user program guide
equipment that acts as a receiver. The
user program guide equipment is
typically a set-top box such as set-top box

706a
112. . . .”). As is shown clearly in Fig 2(a)
of the ’512 Patent, a POSITA would
understand that the STB hosts the
program guide and provides “program
guide command signals.” RDX-1243 (JX0006
at
Fig
2(b)
(annotated))
(highlighting the STB (112) with two
tuners); RX-0847C at Q/A 49. In addition,
the STB provides further commands, via
the infrared transmitter to other
equipment (e.g. a video cassette
recorder). See JX-0006 at 6:65-7:7 (“The
interactive television program guide
command signals on line 212 that are
provided to IR transmitter 200 allow
channel selection requests and VCR start
and record commands to be sent from the
interactive television program guide in
set-top box 112 to VCR 114. . .”) Fig 2(b)
(element 200).
Resps. Br. at 181-82.
Rovi replies:
Respondents address this term together
with the term “system” and therefore do
not separately address either side’s
construction for “interactive television
program guide.” Resps. Br. at 181-82. For
the same reasons set forth in Compls. Br.
at 144-45, Rovi’s construction is correct.
Rovi Reply at 54-55.
Comcast, with a focus on claim 13 and its meansplus-function argument directed toward another claim
phrase, replies:

707a
Rovi misstates Williamson v. Citrix
Online, LLC, 792 F.3d 1339 (Fed. Cir.
2015). See Compl. PoHB at 182-183. The
lack of the term “means” does not create
a strong presumption that § 112(6) does
not apply, as Rovi contends. Id. at 182, n.
24. Rather Williamson holds exactly the
opposite - that the presumption that §
112(6) does not apply to a patent claim
that does not use the word “means” is not
strong. See Williamson, 792 F.3d at 1349
(“Our consideration of this case has led us
to conclude that such a heightened
burden is unjustified and that we should
abandon characterizing as “strong”
the presumption that a limitation
lacking the word “means” is not subject to
§ 112, para. 6.”) (emphasis added).
And though claim 13 admittedly lacks the
specific term “means,” the entirety of the
claim
limitation—“an
interactive
television program guide implemented on
the system, wherein the interactive
television program guide is operative
to”—recites function, without structure,
which
amounts
to
impermissible
functional claiming. The cure for
functional claims is means-plus-function
treatment. And the only structure for an
“interactive television program guide
implemented on the system . . .”
referenced in the ’512 is set top box 112
with a processor, or other suitable
equipment with similar circuitry, at the
user’s premises. RX-0847C at Q/A 46-50.

708a
Resps. Reply at 58-59.
The administrative law judge construes “interactive
television program guide” to mean “software that,
among other things, allows a user to navigate to and
select program listings.”
As an initial matter, there is little substantive
difference between the parties’ constructions. See also
CX-0003C at Q/A 238 (noting similarity between
constructions). For example, both parties argue that
the interactive television program guide connotes
software. Further, Rovi’s construction does not
foreclose functionality appearing in the dependent
claims, such that functions like cancelling a function,
collecting program guide data, browsing the Internet,
or playing a music channel would not be excluded
under a different construction. See JX-0006 at 18:5459 (claim 3); 18:66-19:3 (claim 5).
(10) Direct the interactive television
program guide
The phrase “direct the interactive television
program guide” appears in claims 1, 9, 13, and 21 and
once in the specification. The parties have proposed
the following constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

“direct the interactive
television program
guide” has its plain
and ordinary
meaning, where the
plain and ordinary
meaning is “control
the operations of the

“cause the interactive [sic] to
command termination of a
function that is already
being performed.”

709a
interactive television
program guide to stop
a-function utilizing a
signal tuned to by a
tuner”
See Rovi Br. at 141; Resps. Br. at 183.
Rovi’s entire opening argument for this term is:
One of ordinary skill in the art would
have understood the phrase “direct the
interactive television program guide” to
have its plain and ordinary meaning—
”control the operations of the interactive
television program guide to stop a
function utilizing a signal tuned to by a
tuner.” CX-0003C (Balakrishnan WS) at
Q/A 225.
Rovi Br. at 141.
Comcast entire argument for this term is:
As discussed above in §§ IX.C.2.e-d, the
’512 Patent details that the program
guide controls the operation of the
tuners. This basic logic supports
Respondents’
construction,
that
“direct[ing] the interactive television
program guide to cancel a function” is to
“cause the interactive to command
termination of a function that is already
being performed.’’’ And as shown by the
claim language, the program guide is
directed to cancel the function after the
user makes a selection to resolve the

710a
conflict. JX-0006 (’512 Patent) at claim 1
(“provides a user with an opportunity to
direct the interactive television
program guide to cancel a function of
the second tuner to permit the second
tuner to perform the requested tuning
operation”) (emphasis added).
Similarly, as shown in Fig. 3(b), the user
can choose to cancel the function of the
second tuner. RDX-1239 (JX-0006 at Fig.
3(b) (e.g., element 316)); see also RDX1218 (JX-0006 at Figs. 4(b) and 4(c)
(annotated)) (showing conflict alert
screens when the second tuner of a two
tuner system is in use). If the user
chooses to cancel the function, the IPG
cancels the function that is currently
supported by the tuner. See id. at Fig 3(b)
(element 320, “program guide sends IR
commands to stop recording process”).
Resps. Br. at 183-84.
Rovi replies:
Respondents do not separately address
this phrase in their Brief, but instead
address its construction as part of the
phrase “cancel the function of the second
tuner” discussed below. For the reasons
established in Rovi’s Post-Hearing Brief
(Compls. Br. at 141), the ALJ should
adopt Rovi’s proposed construction of this
phrase.
Rovi Reply at 52.

711a
The parties have separately requested that the
administrative law judge construe the entire phrase
“direct the interactive television program guide to
cancel a function.” The parties’ proposed constructions
for the sub-phrase “direct the interactive television
program guide” are actually directed toward the entire
phrase. The administrative law judge has determined
it is not necessary to construe the sub-phrase when the
parties have not proposed separate constructions for
the sub-phrase. Cf. Sulzer Textil, O2 Micro, Biotec
Biologische Naturverpackungen, and U.S. Surgical
Corp.
(11) Cancel a function
The phrase “cancel a function” appears throughout
the claims and specification. The parties have
proposed the following constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

stop a function
utilizing a signal
tuned to by a tuner

termination of a function
that is already being
performed

See Rovi Br. at 144; Resps. Br. at 174-78, 183 (“This
basic logic supports Respondents’ construction, that
‘direct[ing] the interactive television program guide to
cancel a function’ is to ‘cause the interactive to
command termination of a function that is
already being performed.” (emphasis added)).
Rovi’s entire argument for this term follows:
The phrase “cancel a function” contains
the same terms addressed above with
respect to the phrase “cancel the function

712a
of the second tuner to permit the second
tuner to perform the requested tuning
operation.” Thus, the understanding of
one of ordinary skill in the art would be
the same as discussed with respect to
that phrase. CX-0003C (Balakrishnan
WS) at Q/A 231.
Rovi Br. at 144.
Comcast presents its arguments for this term along
with the “cancel the function of the second tuner to
permit the second tuner to perform the requested
tuning operation” phrase. See Resps. Br. at 174-78.
Rovi replies:
Respondents to do not separately address
these phrases in their Brief, instead
grouping their discussion with the term
“cancel the function of the second tuner.”
For the reasons established in Rovi’s
Post-Hearing Brief (Compls. Br. at 144145), the ALJ should adopt Rovi’s
proposed construction of these phrases.
Rovi Reply at 54.
Comcast presents its reply for this term along with
the “cancel the function of the second tuner to permit
the second tuner to perform the requested tuning
operation” phrase. See Resps. Reply at 56-58.
The administrative law judge previously construed
the phrase “cancel the function of the second tuner to
permit the second tuner to perform the requested
tuning operation” to mean “stop a function utilizing a
signal tuned to by the second tuner in order to permit

713a
the requested function utilizing a signal tuned to by
the second tuner to be performed.”
Thus, the administrative law judge construes the
phrase “cancel a function” to mean “stop a function
utilizing a signal tuned to by a tuner.”
(12) Direct the interactive television
program guide to cancel a function
The phrase “direct the interactive television
program guide to cancel a function” appears in claims
1, 9, 13, and 21. The parties have proposed the
following constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

“direct the interactive
television program
guide” has its plain
and ordinary
meaning, where the
plain and ordinary
meaning is “control
the operations of the
interactive television
program guide to stop
a function utilizing a
signal tuned to by a
tuner”

“cause the interactive [sic] to
command termination of a
function that is already being
performed.”

See Rovi Br. at 141; Resps. Br. at 183.
Rovi’s entire argument for this term follows:
One of ordinary skill in the art would
have understood the phrase “direct the
interactive television program guide” to

714a
have its plain and ordinary meaning—
”control the operations of the interactive
television program guide to stop a
function utilizing a signal tuned to by a
tuner.” CX-0003C (Balakrishnan WS) at
Q/A 225.
Rovi Br. at 141.
Comcast argues:
As discussed above in §§ IX.C.2.e-d, the
’512 Patent details that the program
guide controls the operation of the
tuners. This basic logic supports
Respondents’
construction,
that
“direct[ing] the interactive television
program guide to cancel a function” is to
“cause the interactive to command
termination of a function that is already
being performed.” And as shown by the
claim language, the program guide is
directed to cancel the function after the
user makes a selection to resolve the
conflict. JX-0006 (’512 Patent) at claim 1
(“provides a user with an opportunity to
direct the interactive television
program guide to cancel a function of
the second tuner to permit the second
tuner to perform the requested tuning
operation”) (emphasis added).
Similarly, as shown in Fig. 3(b), the user
can choose to cancel the function of the
second tuner. RDX-1239 (JX-0006 at Fig.
3(b) (e.g., element 316)); see also RDX1218 (JX-0006 at Figs. 4(b) and 4(c)
(annotated)) (showing conflict alert

715a
screens when the second tuner of a two
tuner system is in use). If the user
chooses to cancel the function, the IPG
cancels the function that is currently
supported by the tuner. See id. at Fig 3(b)
(element 320, “program guide sends IR
commands to stop recording process”).
Resps. Br. at 183-84.
Rovi replies:
Respondents do not separately address
this phrase in their Brief, but instead
address its construction as part of the
phrase, “cancel the function of the second
tuner” discussed below. For the reasons
established in Rovi’s Post-Hearing Brief
(Compls. Br. at 141), the ALJ should
adopt Rovi’s proposed construction of this
phrase.
Rovi Reply at 52.
Comcast’s reply does not address this phrase. See
generally Resps. Reply at 50-59.
The administrative law judge previously construed
the phrase “cancel a function” to mean “stop a function
utilizing a signal tuned to by a tuner.” After excluding
this sub-phrase, the parties’ disagreement reduces to
the meaning of the word “direct.” Rovi proposes that
“direct” means “control” while Comcast proposes that
“direct” means “cause.” There is little substantive
difference between these words, and the parties do not
address them individually. Either “control” or “cause”
are acceptable constructions.

716a
Thus, the administrative law judge construes the
phrase “direct the interactive television program guide
to cancel a function” to mean “control or cause the
operations of the interactive television program guide
to stop a function utilizing a signal timed to by a
tuner.”
(13) Function of the second tuner
The phrase “function of the second tuner” appears
only in the claims. The parties have proposed the
following constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

a function utilizing
the signal tuned to by
the second tuner

Comcast does not clearly
present a construction in its
post-hearing brief.

See Rovi Br. at 145; Resps. Br. at 174-78.
Rovi’s entire argument for this phrase follows:
The phrase “function of the second tuner”
contains the same terms addressed above
with respect to the phrase “cancel the
function of the second tuner to permit the
second tuner to perform the requested
tuning
operation.”
Thus,
the
understanding of one of ordinary skill in
the art would be the same for both
phrases. CX0003C (Balakrishnan WS) at
Q/A 231.
Rovi Br. at 145.
Comcast presents its arguments for this phrase
along with the phrases “cancel a function of the second

717a
tuner to permit the second tuner to perform the
requested tuning operation” and “cancel a function”
phrase. See Resps. Br. at 174-78.
Comcast presents its reply for this term along with
the “cancel the function of the second tuner to permit
the second tuner to perform the requested tuning
operation” phrase. See Resps. Reply at 56-58.
The administrative law judge previously construed
the phrase “cancel the function of the second tuner to
permit the second tuner to perform the requested
tuning operation” to mean “stop a function utilizing a
signal tuned to by the second tuner in order to permit
the requested function utilizing a signal tuned to by
the second tuner to be performed.”
Thus, the administrative law judge construes the
term “function of the second tuner” to mean “a function
utilizing the signal tuned to by the second tuner.”
(14) Interactive television program guide
implemented on the system, wherein
the interactive television program
guide is operative to: receive . . .;
determine . . .; and in response to the
determination, display . . .
The phrase “interactive television program guide
implemented on the system, wherein the interactive
television program guide is operative to: receive . . .;
determine . . .; and in response to the determination,
display . . .” appears only in claim 13.
The full text of the disputed phrase appears in bold,
italicized text:
13. A system for resolving a conflict when
multiple operations are performed using
multiple tuners controlled by an

718a
interactive television program guide, the
system comprising:
a first tuner;
a second tuner; and
an interactive television program
guide implemented on the system,
wherein the interactive television
program guide is operative to:
receive a request to perform a tuning
operation;
determine that neither the first tuner
nor the second tuner are available
to perform the requested tuning
operation, wherein the first tuner
and the second tuner are both
capable of performing the tuning
operation; and
in response to the determination,
display an alert that provides a
user with an opportunity to direct
the interactive television program
guide to cancel a function of the
second tuner to permit the second
tuner to perform the requested
tuning operation.
JX-0006 at 19:41-59.
The parties have proposed the following:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

719a
No construction
This is a means-plus-function
necessary. Individual limitation.
terms construed
elsewhere.
See Rovi Br. at 146; Resps. Br. at 179. Comcast
identifies the following functions:
(1)

“receive a request. . .;

(2)
“determine that neither the first
tuner nor the second tuner are available
. . .;” and
(3)
“in response to the determination,
display an alert. . .”
Resps. Br. at 180. 146 Comcast identifies the following
structure, as follows:
The
only
structure
relevant
to
performing the above identified functions
is a processor on user equipment, such as
a “set top box,” or a “set top box, advanced
television receiver with a microprocessor
146

The full text is:
(1) “receive a request to perform a tuning operation”
(2) “determine that neither the first tuner nor the second
tuner are available to perform the requested tuning
operation, wherein the first tuner and the second tuner
are both capable of performing the tuning operation”
(3) “in response to the determination, display an alert
that in response to the determination, display an alert
that provides a user with an opportunity to direct the
interactive television program guide to cancel a function
of the second tuner to permit the second tuner to perform
the requested tuning operation”

720a
and memory, a personal computer with or
without one or more tuners, a satellite
receiver, a high definition television
(“HDTV”) receiver, or any other suitable
television reception and data processing
device.”
Id.
Rovi’s entire opening argument for this term
follows:
No construction is necessary for this
claim phrase because the term
“interactive television program guide”
and each of the functions that follow are
construed
elsewhere.
CX-0003C
(Balakrishnan WS) at Q/A 239.
Respondents contend that this phrase
should be construed as a means-plusfunction limitation under § 112, para. 6.
Respondents are incorrect for the reasons
established in Section VI(K)(1), infra.
Rovi Br. at 147. In Section VI(K)(1), Rovi argues that
claim 13 is not indefinite, as follows:
Respondents contend that the phrase
“interactive television program guide
implemented on the system, wherein the
interactive television program guide is
operative to: receive . . . ; determine . . . ;
and in response to the determination,
display . . . should be construed as a
means-plus-function limitation under 35
U.S.C. § 112(6). But § 112(6) is
inapplicable to claim 13, because claim 13
does not use the word “means” and

721a
Respondents admit that the claimed
“interactive television program guide” is
a definite structure. Respondents
construe the term “interactive television
program guide,” in claims 1 and 13 to
have a definite structure: “application
that, when executed, causes television
program listings to be presented to the
user and enables the user to navigate
through the program listings, to select an
individual listing, and to select a function
associated with the selected listing.” CX0003C (Balakrishnan WS) at Q/A 238,
240;
CDX-0502
(Proposed
Constructions); RX-0004C (Bederson
WS) at Q/A 49 (opining that Respondents’
constructions are consistent with the
understanding of a person of ordinary
skill).
Respondents also contends that claim 13
is indefinite for reciting both method and
apparatus
limitations.
RX-0004C
(Bederson WS) at Q/A 63. Claim 13, a
system claim, does not recite any method
claim limitations, i.e., there is no
requirement that a method step be
performed in order for claim 13 to be
infringed.
CX-1902C
(Balakrishnan
RWS) at Q/A 93. Instead, the claims only
require that the interactive television
program guide (a structure) be “operative
to” perform certain functions, not that
those functions actually be performed. Id.
In a similar case, the Federal Circuit held
that the term “capable of,” when

722a
describing a processor, was insufficient to
render an apparatus claim indefinite.
Microprocessor Enhancement Corp. v.
Tex. Instruments Inc., 520 F.3d 1367,
1375 (Fed. Cir. 2008).
Rovi Br. at 182-183 (footnote omitted).
Comcast argues:
Claim 13 of the ’512 Patent recites “an
interactive television program guide
implemented on the system, wherein the
interactive program guide is operative to:
. . .” The term “operative to” is a nonce
word and this element of claim 13 should
be treated as a means-plus-function
element and subject to 35 U.S.C. 112(6).
See Verint Systems Inc. v. Red Box
Recorders Ltd., 166 F.Supp.3d 364, 379383 (S.D.N.Y. Jan. 4, 2016) (holding that
claims using “operative” language were
subject to analysis as means-plusfunction elements). Similarly, a POSITA
would understand the term “operative to”
to serve a similar purpose to the term
“means” in a traditional means-plusfunction term. RX-0004C (Bederson WS)
at Q/A63. Here, the limitation recites
three functions: (1) “receive a request . . .
; (2) “determine that neither the first
tuner nor the second tuner are available
. . . ;” and (3) “in response to the
determination, display an alert . . . [.]”
The
only
structure
relevant
to
performing the above identified functions
is a processor on user equipment, such as

723a
a “set top box,” or a “set top box, advanced
television receiver with a microprocessor
and memory, a personal computer with or
without one or more tuners, a satellite
receiver, a high definition television
(“HDTV”) receiver, or any other suitable
television reception and data processing
device.” RX-0004C at Q/A 67-69; JX-0006
at 4:54-5:7 (“[e]ach set-top box 112
preferably contains a processor to handle
tasks associated with implementing a[n]
interactive television program guide
application on the set-top box”); 5:20-44;
); RX-0847C at Q/A 48.
Rovi argues that means-plus-function
treatment should not apply, because the
term “means” is not explicitly recited. But
this is contrary to modem Federal Circuit
Law, which has removed the strong
presumption
against
means-plusfunction treatment, and made clear that
“when a claim term lacks the word
“means,” the presumption can be
overcome and § 112, para. 6 will apply if
the challenger demonstrates that the
claim term fails to ‘recite sufficiently
definite structure’ or else recites
“function without reciting sufficient
structure for performing that function.”
Williamson, 792 F.3d at 1349-50. Claim
13 executes exactly the type of functional
claiming that has been prohibited by the
Federal Circuit; “implemented on the
system,” provides no actual structure.
While Rovi argues that the “interactive

724a
television program guide” addresses this
issue, this sidesteps the issue. This claim
does not recite “an interactive television
program guide” that performs functions;
in that case, it would purely be software,
and would be subject to structural
limitations, because that software must
run on some hardware. Rather, the claim
recites “an interactive television program
guide implemented on the system” to
perform numerous functions; without a
definite structure for “the system,” the
claim engages in the prohibited
functional claiming. Rovi’s proposed
construction - “an integrated assemblage
of hardware and/or software elements
operating together to accomplish a
prescribed end purpose” - underscores
the point, by essentially construing the
term as hardware and software that
performs the function. This is exactly
what the Federal Circuit’s opinion on
functional claiming seeks to avoid, and
why application of § 112(6) is required.
Resps. Br. at 179-181.
Rovi replies:
Respondents contend that, despite
lacking the word “means,” this phrase is
a means-plus-function term that falls
under 35 U.S.C. § 112(6). Resps. Br. at
179-81. Respondents contend that the
ALJ should treat claim 13 as a meansplus-function claim term solely because
claim 13 uses the words “operative to,”

725a
which Respondents contend are “nonce”
words. Resps. Br. at 179 (citing Verint
Systems Inc. v. Red Box Recorders Ltd.
166 F. Supp. 3d 364, 379-83 (S.D.N.Y.
2016)). Respondents misrepresent the
claim language at-issue in the Verint
Systems case, which is materially (and
importantly) different from the operative
claim language at-issue here. In Verint
Systems, the claim required a “computer
application operative to . . . access . . . and
construct . . .” Id. (emphasis added). The
court held that this claim was subject to
means-plus-function
analysis,
not
because it used the term “operative to” or
because “operative to” is a “nonce” word,
but, rather, because the term “computer
application” was generic and did not
recite sufficiently definite structure. Id.
at 379-80.
The Virent Systems case is inapplicable to
claim 13 of the ’512 Patent which recites
“an interactive television program guide
implemented on the system, wherein the
interactive television program guide is
operative to” “receive,” “determine,” and
“display an alert.” JX-0006 at claim 13.
Unlike the “computer application” in
Virent Systems which was entirely
undefined
and
unbounded,
an
“interactive television program guide” is
well-known and well-understood to those
of ordinary skill in the art. Compls. Br. at
145; CX-0003C (Balakrishnan WS) at
Q/A 236-38; RX-0847C (Bederson WS) at

726a
Q/A 48. And, for the means-plus-function
construction rules to apply to claims that
do not use the term “means,”
Respondents must show that “the claim
limitation is so devoid of structure that
the drafter constructively engaged in
means-plus-function claiming.” Inventio
AG v. Thyssentkrupp Elevator Ams.
Corp., 649 F.3d 1350, 1357 (Fed. Cir.
2011).
In an attempt to show that the claimed
“interactive television program guide”
lacks structure, Respondents contend
that it is merely software and the
“system” on which it is implemented is
not a definite structure. Resps. Br. at
180. As a threshold, this is a new
argument that Respondents did not make
in their Pre-Hearing Brief (see Resps.
P.H. Br. at 534-35, 692) and therefore
waived. G.R. 7. Regardless, it is
indisputable
that
an
“interactive
television program guide” (and unlike the
“computer
application”
in
Virent
Systems’) is a specific type of application
program, as defined by each party in
their respective constructions for the ’512
Patent (Compls. Br. at 145) and for other
Asserted Patents that also use the phrase
“interactive television program guide.”
See e.g. id. at 42-47 (parties’ each
proposing
non-means-plus-function
constructions for the term “interactive
television program guide” and variants
thereof in the context of the ’801, ’413,

727a
and ’263 Patents). Indeed, and unlike the
undefined “computer application” in
Virent
Systems,
the
“interactive
television program guide” of the ’512
Patent has a well understood meaning.
JX-0006 (’512 Patent) at col. 1, lns. 22-64.
It is therefore of sufficiently definite
structure to avoid means-plus-function
analysis. Williamson v. Citrix Online,
LLC, 792 F.3d 1339, 1348 (Fed. Cir.
2015); CX-1902C (Balakrishnan RWS) at
Q/A 91.
Rovi Reply at 55-56.
Comcast replies:
Rovi misstates Williamson v. Citrix
Online, LLC, 792 F.3d 1339 (Fed. Cir.
2015). See Compl. PoHB at 182-183. The
lack of the term “means” does not create
a strong presumption that § 112(6) does
not apply, as Rovi contends. Id. at 182, n.
24. Rather Williamson holds exactly the
opposite - that the presumption that §
112(6) does not apply to a patent claim
that does not use the word “means” is not
strong. See Williamson, 792 F.3d at 1349
(“Our consideration of this case has led us
to conclude that such a heightened
burden is unjustified and that we should
abandon characterizing as “strong”
the presumption that a limitation
lacking the word “means” is not subject to
§ 112, para. 6.”) (emphasis added).
And though claim 13 admittedly lacks the
specific term “means,” the entirety of the

728a
claim
limitation—“an
interactive
television program guide implemented on
the system, wherein the interactive
television program guide is operative
to”—recites function, without structure,
which
amounts
to
impermissible
functional claiming. The cure for
functional claims is means-plus-function
treatment. And the only structure for an
“interactive television program guide
implemented on the system . . .
referenced in the ’512 is set top box 112
with a processor, or other suitable
equipment with similar circuitry, at the
user’s premises. RX-0847C at Q/A 46-50.
Resps. Reply at 58-59.
The administrative law judge has determined that
the disputed phrase is not a means-plus-function
limitation. The administrative law judge has also
determined that no construction for this phrase is
necessary, as words within the phrase are construed
elsewhere. Comcast has not offered any alternative
argument apart from its means-plus-function
argument.
As an initial matter, Comcast has been able to
propose constructions for a host of terms and phrases
contained within the claim language it contends
invokes § 112, ¶ 6. In particular, Comcast has argued
that an “interactive television program guide” is an
application. See also CX-0003C (Balakrishnan WS) at
Q/A 240. Additionally, in another section of its posthearing brief, Comcast argued:
The asserted claims of the ’512 patent
consist of “well-understood, routine,

729a
conventional activity,” and contain
nothing to transform them to a patent
eligible application. . . . To persons of
ordinary skill in the art, the asserted
claims
are
nothing
more
than
implementation of the well-known
concept of a “conditional execution’
statement” (i.e., an “if statement”). RX0004C at Q/A 20. And there is little
dispute among the parties’ experts
that the claims were directed to wellknown and standard software and
hardware features (multiple tuners
were known). See Tr. 1175:1-12
(interactive
television
program
guides
and
receiving
turning
requests were known); RX-0004C at
Q/A 21 (alert upon detection of resource
conflict was well-known). And in fact,
recent case law has even found these
types of hardware conventional. See
Tech. Dev. Lic., LLC v. General
Instrument Corp., 2016 WL 7104253, *6
(N.D. Ill., Dec. 6, 2016) (tuner, remote
control, processor).
Resps. Br. at 205 (arguing the asserted claim is patent
ineligible under § 101 (emphasis added)). This
argument, which Comcast supports with expert
testimony and recent case law, shows that words of the
claim would have been “understood by persons of
ordinary skill in the art to have a sufficiently definite
meaning as the name for structure.” See Williamson v.
Citrix Online, LLC, 792 F.3d 1339, 1348-49 (Fed. Cir.
2015). Further, the evidence shows that the patent
discloses known hardware, including set top boxes,

730a
advanced television receivers with microprocessors
and memory, personal computers with or without one
or more tuners, satellite receivers, and high definition
television (“HDTV”) receivers. See JX-0006 at 1:21-34,
4:54-5:7, 5:20-44; RX-0004C (Bederson WS) at Q/A 6769.
(15) Displaying/display
The terms “displaying” and “display” appear in
claims 1, 10, 13, and 22 and in the specification. The
parties have proposed the following constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

“displaying” means
“outputting data that
is capable of being
shown on a display
screen”

Comcast does not clearly
present a construction in its
post-hearing brief.

“display” means “to
output data that is
capable of being
shown on a display
screen”
See Rovi Br. at 147; Resps. Br. at 182-83.
Rovi’s entire argument follows:
One of ordinary skill in the art, when
reading the terms “display” and
“displaying” in light of the claims, the
specification, and the file history of the
’512 Patent, would have understood the
term “display” in claim 1 to mean “to
output data that is capable of being

731a
shown on a display screen” and would
have understood the term “displaying” in
claim 10 to mean “outputting data that is
capable of being shown on a display
screen.” CX-0003C (Balakrishnan WS) at
Q/A 243. When independent claims 1 and
13 are read together with their
dependent claims 10 and 22, respectively,
one of ordinary skill in the art would have
understood that “displaying” in claims 1,
10, and 22 and “display” in claim 13
refers to the output of data that is capable
of being shown on a display screen. CX0003C (Balakrishnan WS) at Q/A 244.
Rovi Br. at 147.
Comcast’s argument follows:
This plain and ordinary meaning of
“presenting/present visually on a screen”
should be adopted. This meaning is
consistent with the use of the term
“display” as it appears in other phrases
which require construction. In contrast,
Rovi’s construction is nothing but a
transparent attempt to allow the
asserted claims to read on devices that,
by themselves, cannot display anything
visually. Tr. 287:16-19 (“Q: The accused
set-top boxes, we’re talking about an
apparatus, a little box, that box does not
actually display anything; correct? It
doesn’t show anything? A: It doesn’t have
a screen.”)[.] In fact, Dr. Balakrishnan’s
own testimony on cross examination
renders Rovi’s claim construction

732a
untenable. When questioned about the
term “display” as it used in claim 1 (and
not in a vacuum), Dr. Balakrishnan
admitted that if the user could not
visually see the alert, there would be no
“opportunity to resolve the conflict,” as
required by each of the asserted claims,
Tr. 286:12-24[:]
Q. Now, for the purposes of claim 1,
why don’t we put up claim 1 in JX-6.
It’s a method for resolving conflict.
And
do
you
see
there’s
a
determination made and in response
to it, you’re displaying an alert that
provides a user with an opportunity to
direct the guide; right?
A. That is correct.
Q. Okay. And that purpose to allow
the user an opportunity to cancel
something is not met unless the user
can actually see; correct?
A. For the opportunity to — to cancel?
Yeah, if I don’t see the alert, then I
wouldn’t have the opportunity to
cancel it.
Resps. Br. at 182-83.
Rovi replies:
The terms displaying/display, as used in
claims 1 and 13, should be construed to
mean “to output/outputting data that is
capable of being shown on a display
screen.” Compls. Br. at 147. Claims 10

733a
and 22 depend from claims 1 and 13,
respectively, and add the requirements of
displaying the alerts on the display
screen. Id.
Rovi Reply at 56-57.
Comcast replies:
Rovi fails to grapple with its expert’s own
testimony, and the plain language of
claims 1 and 13, which require
“display[ing] an alert that provides a user
with an opportunity to direct the
interactive television program guide to
cancel a function of the second tuner.” Tr.
286:12-24. If the user cannot see the
display, no such opportunity exists. Id.
Resps. Reply at 59 (emphasis in original).
The
administrative
law
judge
construes
“displaying” to mean “presenting” and “display” to
mean “present.”
The claims require that the interactive television
program guide is capable of “displaying an alert that
provides a user with an opportunity to direct the
interactive television program guide to cancel a
function of the second tuner to permit the second tuner
to perform the requested tuning operation” (claim 1)
and that it is able to “display an alert that provides a
user with an opportunity to direct the interactive
television program guide to cancel a function of the
second tuner to permit the second tuner to perform the
requested tuning operation” (claim 13).
Rovi’s construction, when substituted into the claim
1, would read:

734a
. . . the method comprising: . . .
[outputting data that is capable of being
shown on a display screen] an alert that
provides a user with an opportunity to
direct the interactive television program
guide to cancel a function of the second
tuner to permit the second tuner to
perform the requested tuning operation.
See JX-0006 at 18:43-47.
In contrast, substituting the “presenting”
construction, into the claim 1, would read:
. . . the method comprising: . . .
[presenting] an alert that provides a user
with an opportunity to direct the
interactive television program guide to
cancel a function of the second tuner to
permit the second tuner to perform the
requested tuning operation.
Id. The “presenting” and “present” constructions
comport with how the terms are used in the context of
the claims. Neither the claims nor the specification
require that a set-top box alone visually display the
alert (as Comcast suggests by arguing that “Rovi’s
construction is nothing but a transparent attempt to
allow the asserted claims to read on devices that, by
themselves, cannot display anything visually.”).
Indeed, the specification explains the display occurs on
the television:
During use of the interactive television
program guide implemented on set-top
box 112, television program listings and
other information may be displayed on
television
116.
Such
interactive

735a
television program guide displays may be
overlaid on top of a television program to
which the user has tuned with set-top box
112 or may be displayed in place of such
a program. Each set-top box 112, VCR
114, and television 116 may be controlled
by one or more remote controls 118 or any
other suitable user input interface such
as a wireless keyboard, mouse, trackball,
dedicated set of buttons, voice recognition
system etc. Remote controls such as
remote control 118 have various buttons
that may be pressed by the user such as
cursor keys (for on-screen movement of a
highlighted region, scrolling functions,
etc.), an enter key (for making a
selection), channel number keys (for
selecting functions related to user
preferences), etc.
...
Screen 410 may be displayed by the
interactive television program guide
on user television 116 when the second
or “other” tuner chosen by the interactive
television program guide to record the
selected program is already in use
performing a secondary function such as
PIP and the first tuner is being used for
viewing television 116.
JX-0006 at 5:20-35, 10:28-34. Thus, one of ordinary
skill in the art would have understood that
“presenting” something on a television screen includes
outputting data necessary for the image.
(16) System

736a
The term “system” appears throughout in claims 1324 and throughout the specification. The parties have
proposed the following constructions:
Rovi’s Proposed
Construction
“system” has its plain
and ordinary meaning,
where the plain and
ordinary meaning is
“an integrated
assemblage of
hardware and/or
software elements
operating together to
accomplish a prescribed
end purpose”

Comcast’s Proposed
Construction
Comcast does not
clearly present a
construction in its
post-hearing brief.

See Rovi Br. at 148; Resps. Br. at 181-82.
Rovi’s entire argument for this term follows:
The term “system” is used only in
asserted claims 13 and 22. One of
ordinary skill in the art would have
understood the term “system” to have its
plain and ordinary meaning of “an
integrated assemblage of hardware
and/or software elements operating
together to accomplish a prescribed end
purpose.” CX-0003C (Balakrishnan WS)
at Q/A 255-56. The specification uses the
term “system” to generally describe,
among other things, the assemblage of
elements in the Figures 1(a) and 2(a) of
the ’512 Patent, which includes both user

737a
equipment and non-user only equipment,
such as head end equipment. JX-0006
(’512 Patent) at col. 2, lns. 27-30 and col.
2, lns. 34-44; CX-0003C (Balakrishnan
WS) at Q/A 256.
Respondents simultaneously contend
that the term “system” needs no
construction and that it should be
construed as “user television equipment
(devices designed for viewing or
recording television programs, such as
set-top boxes, televisions, and VCR’s).”
Respondents’ construction is incorrect
because there is no plain and ordinary
meaning for “system” that is limited
solely to user television equipment. CX0003C (Balakrishnan WS) at Q/A 259.
And, as discussed with respect to the next
term, this dispute is relevant to
infringement
because
Respondents
contend—
incorrectly
and
in
contravention to the embodiments of
Figs. 1(a) and 2(a)—that the “interactive
television program guide” must be
implemented solely on “the system”
which they define as limited solely to
“user television equipment” (which in
turn is located solely in a user’s home).
Rovi Br. at 148-49 (footnote omitted).
Comcast presents its arguments for “system,”
“interactive television program guide,” “interactive
television program guide implemented on the system”
together. The entire combined argument follows:

738a
The ’512 patent is clearly about the use of
an IPG resident on “user television
equipment” that provides the user the
ability to view television programs and
set recordings using a VCR. RX-0847C
(Bederson RWS) at Q/A 48; JX-0006 (’512
patent) at 1:55-64, 1:22-34 (“. . .[w]hen
the selected program begins, the program
guide tunes the set-top box to the channel
showing the program and directs a
videocassette recorder (“VCR”) to begin
recording. . . .”), 1:48-51 (“It is therefore
an object of the present invention to
provide an interactive television program
guide system which allows a user to
record one program while simultaneously
watching another program.”). The ’512
patent also proposes that each user has a
user guide equipment that acts as a
receiver, such as a STB. JX-0006 at 4:545:7 (“Each user has user program guide
equipment that acts as a receiver. The
user program guide equipment is
typically a set-top box such as set-top box
112. . . .”). As is shown clearly in Fig 2(a)
of the ’512 patent, a POSITA would
understand that the STB hosts the
program guide and provides “program
guide command signals.” RDX-1243 (JX0006
at
Fig
2(b)
(annotated))
(highlighting the STB (112) with two
tuners); RX-0847C at Q/A 49. In addition,
the STB provides further commands, via
the infrared transmitter to other
equipment (e.g. a video cassette

739a
recorder). See JX-0006 at 6:65-7:7 (“The
interactive television program guide
command signals on line 212 that are
provided to IR transmitter 200 allow
channel selection requests and VCR start
and record commands to be sent from the
interactive television program guide in
set-top box 112 to VCR 114. . .”), Fig 2(b)
(element 200).
See Resps. Br. at 181-82.
Rovi replies:
Respondents contend that the claim term
“system” requires that the claimed
system be limited to a system existing
entirely on user equipment (which they
further contend must be located solely,
only, and entirely in the user’s home) by
cherry-picking statements from the
specification, while ignoring those which
do not support their construction. Resps.
Br. at 181-82. As Rovi has explained,
there is no basis for reading in
Respondents’ overly-narrow definition of
system, which, were it adopted, would
impermissibly
exclude
disclosed
embodiments of the claimed invention.
Compls. Br. at 148-149 (Rovi explaining
that claimed “system” as shown in Figs.
1(a) and 2(a) is not limited to a system
existing only on user equipment, which is
located inside a user’s home).
Rovi Reply at 56-57.

740a
Comcast presents its reply for this term along with
the
“interactive
television
program
guide
implemented, on the system, wherein the interactive
television program guide is operative to: receive . . .;
determine . . .; and in response to the determination,
display . . .” and “interactive television program guide
on the system” arguments, as follows:
Rovi misstates Williamson v. Citrix
Online, LLC, 792 F.3d 1339 (Fed. Cir.
2015). See Compl. PoHB at 182-183. The
lack of the term “means” does not create
a strong presumption that § 112(6) does
not apply, as Rovi contends. Id. at 182, n.
24. Rather Williamson holds exactly the
opposite - that the presumption that §
112(6) does not apply to a patent claim
that does not use the word “means” is not
strong. See Williamson, 792 F.3d at 1349
(“Our consideration of this case has led us
to conclude that such a heightened
burden is unjustified and that we should
abandon characterizing as “strong”
the presumption that a limitation
lacking the word “means” is not subject to
§ 112, para. 6.”) (emphasis added).
And though claim 13 admittedly lacks the
specific term “means,” the entirety of the
claim
limitation—”an
interactive
television program guide implemented on
the system, wherein the interactive
television program guide is operative
to”—recites function, without structure,
which
amounts
to
impermissible
functional claiming. The cure for

741a
functional claims is means-plus-function
treatment. And the only structure for an
“interactive television program guide
implemented on the system . . .”
referenced in the ’512 is set top box 112
with a processor, or other suitable
equipment with similar circuitry, at the
user’s premises. RX-0847C at Q/A 46-50.
Resps. Reply at 56-58 (emphasis in original).
Comcast has not presented an argument, with
sufficient intrinsic or extrinsic support, to warrant
construing “system” as “user television equipment.”
The patent uses the word “system” in several
different ways. In a broad sense, the patent uses
“system” to describe the entire apparatus that
distributes television:
FIG. 1(a) shows an illustrative
interactive television program guide
system 100 in accordance with the
present invention. Main facility 102
contains a program guide database 104
for storing program guide information
such as television program guide listings
data, pay-per-view ordering information,
television
program
promotional
information, etc. Information from
database 104 may be transmitted to
multiple television distribution facilities
110 via communications link 120. Only
one such facility 110 is shown in FIG. 1 to
avoid over-complicating the drawing.
Communications link 120 may be a
satellite link, a telephone network link, a
cable or fiber optic link, a microwave link,

742a
a combination of such links, or any other
suitable communication path. If it is
desired to transmit video signals over
link 120 in addition to data signals, a
relatively high bandwidth link such as a
satellite link is generally preferable to a
relatively low bandwidth link such as a
telephone line. Television distribution
facility 110 is a facility for distributing
television signals and data to users, such
as a cable system headend, a broadcast
distribution facility, or a satellite
television distribution facility.
JX-0006 at 3:62-4:14.
This is Figure 1(a):

743a

In particular, the figure indicates that “user television
equipment” (106) is a part of system (100).
The patent also discloses the following systems:
•

a “voice recognition system,”

•

a “cable system headend,”

744a
•

“terrestrial wireless communications systems
such as microwave-based communications
systems or the like,”

•

“conventional broadcast television systems,”

•

a “two-tuner set-top box system,”

•

a “single-tuner RF-bypass-switch system,” and

•

an “interactive
system”

television

program

guide

See generally JX-0006. These “systems” indicate that
the patent is using the word “system” to describe a
collection of components that work together.
Accordingly, the administrative law judge construes
“system” to mean “an integrated assemblage of
hardware and/or software elements operating together
to accomplish a prescribed end purpose.”
(17) Interactive television program guide
implemented on the system
The phrase “interactive television program guide
implemented on the system” appears only in claim 13.
The parties have proposed the following constructions:
Rovi’s Proposed
Construction
“implemented on the
system” has its plain
and ordinary meaning,
where the plain and
ordinary meaning is
“put into effect on the
system”

Comcast’s Proposed
Construction
Comcast does not
clearly present a
construction in its
post-hearing brief.

745a
See Rovi Br. at 149; Resps. Br. at 181-82.
Rovi’s argument follows:
“Interactive television program guide
implemented on the system” has its plain
and ordinary meaning-”put into effect on
the system.” CX-0003C (Balakrishnan
WS) at Q/A 260.
Respondents contend that this term does
not need to be construed; however, should
construction be deemed necessary, it
should be construed as—“executing on
the user television equipment.” CDX0502 (Proposed Constructions) at 6-7. As
with the prior term, Respondents
improperly limit the claimed “system” to
“user equipment” and further improperly
require that the “interactive television
program guide” “execute” solely on “user
equipment” (in the user’s home). CX0003C (Balakrishnan WS) at Q/A 261.
The ’512 Patent places no restriction on
where, in the claimed system, the
“interactive television program guide”
must “execute.” JX-0006 (’512 Patent) at
col. 2, lns. 27-30 and col. 2, lns. 34-44
(describing Figs. 1(a) and (b)).
Rovi Br. at 149-50.
Comcast presents its arguments for this phrase
along with the “interactive television program guide” /
“system” terms. See Resps. Br. at 181-82.
Rovi replies:

746a
Respondents address this term together
with the term “system” and therefore do
not separately address either side’s
construction for “implemented on the
system.” Resps. Br. at 181-82. For the
same reasons set forth in Compls. Br. at
149-50 and in Section VII(A)(14), supra,
Rovi’s construction should be adopted.
Rovi Reply at 57.
Comcast presents its reply for this phrase along
with the “interactive television program guide
implemented on the system, wherein the interactive
television program guide is operative to: receive . . .;
determine . . .; and in response to the determination,
display . . .” and “system” reply, as follows:
Rovi misstates Williamson v. Citrix
Online, LLC, 792 F.3d 1339 (Fed. Cir.
2015). See Compl. PoHB at 182-183. The
lack of the term “means” does not create
a strong presumption that § 112(6) does
not apply, as Rovi contends. Id. at 182, n.
24. Rather Williamson holds exactly the
opposite - that the presumption that §
112(6) does not apply to a patent claim
that does not use the word “means” is not
strong. See Williamson, 792 F.3d at 1349
(“Our consideration of this case has led us
to conclude that such a heightened
burden is unjustified and that we should
abandon characterizing as “strong”
the presumption that a limitation
lacking the word “means” is not subject to
§ 112, para. 6.”) (emphasis added).

747a
And though claim 13 admittedly lacks the
specific term “means,” the entirety of the
claim
limitation—”an
interactive
television program guide implemented on
the system, wherein the interactive
television program guide is operative
to”—recites function, without structure,
which
amounts
to
impermissible
functional claiming. The cure for
functional claims is means-plus-function
treatment. And the only structure for an
“interactive television program guide
implemented on the system . . .
referenced in the ’512 is set top box 112
with a processor, or other suitable
equipment with similar circuitry, at the
user’s premises. RX-0847C at Q/A 46-50.
Resps. Reply at 56-58 (emphasis in original).
The administrative law judge has already
separately construed the terms “interactive television
program guide” and “system.” Thus, the parties
disagree on what the word “implemented” means.
As an initial matter, the administrative law judge
agrees with Rovi that it is not necessary to construe
the term. However, in the alternative, the
administrative law judge construes the word
“implemented” to mean “put into effect.” As Rovi
correctly notes, the ’512 Patent places no restriction on
where, in the claimed system, the “interactive
television program guide” must “execute.”
(18) A user

748a
The term “a user” appears throughout the claims
and specification. The parties have proposed the
following constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

“a user” has its plain
and ordinary meaning,
where the plain and
ordinary meaning is
“one that uses”

. . . “users,” are users
of a STB that watch
and record programs.

See Rovi Br. at 150; Resps. Br. at 184.
Rovi’s entire argument for this term follows:
The term “a user” should be interpreted
to have its plain and ordinary meaning “one that uses.” CX-0003C (Balakrishnan
WS) at Q/A 262. As with “system,” there
is nothing in the intrinsic evidence
limiting the meaning of “user” Id.
Rovi Br. at 150.
Comcast argues:
As Rovi’s expert testified, the ’512 Patent
is directed at alerting a user where both
tuners of the set-top box are already in
use. Tr. 290:15-25. Thus, the “users,” are
users of a STB that watch and record
programs. And, of course, the claims
themselves require input from a person
viewing the television, and that the user
is capable of providing responses through
the program guide. Id. at Cl. 1

749a
(“displaying an alert that provides a
user with an opportunity to direct the
interactive television program guide
to cancel a function of the second tuner to
permit the second tuner to perform the
requested tuning operation”) (emphasis
added); Cl. 2 (“receiving a user
selection to not cancel the function of the
second tuner; and in response to the
user selection to not cancel the function
of the second tuner, continuing to
perform the function of the second tuner”)
(emphasis added). It is unclear what
Rovi’s construction is intended to do,
beyond provide greater flexibility for
purposes of alleging infringement.
Resps. Br. at 184 (emphasis in original).
Rovi replies:
Similar to their construction for “system,”
discussed at Section VII(A)(14), supra,
Respondents improperly limit the term
“user” to a person who records or watches
programs on user television equipment.
The term “user” is not so limited and,
consistent with its ordinary meaning,
means “one that uses.” Compls. Br. at
150.
Rovi Reply at 57.
The administrative law judge has determined that
it is not necessary to construe the term “a user.” The
patent uses this term in accordance with its plain and
ordinary meaning.
3. Representative Products

750a
Rovi accuses two guide systems, the X1 and Legacy
systems, of infringing the ’512 Patent. Rovi Br. at 15051.
a) X1 Products
For the X1 products, Rovi argues:
Rovi accuses X1 Guide products of
infringing the ’512 patent. CX-0003C
(Balakrishnan WS) at Q/A 296, 298. The
specific “X1 Accused Products” accused in
this Investigation with respect to the ’512
patent are listed in the Table 1 of the
Joint Outline. The representative X1
Accused Product is the ARRIS XG1v3
AX013ANC, but Rovi’s proof of
infringement applies equally to all
accused X1 Guide Products. CX-0003C
(Balakrishnan WS) at Q/A 303. With
respect to the ’512 Patent, and as
conceded by Respondents’ expert and fact
witnesses, each set-top box that runs the
X1 Guide works in materially the same
way such that minor hardware
differences between the various models of
X1 Accused Products are irrelevant to
whether those products infringe any of
the claims of the ’512 Patent. Each X1
Guide product that supports the X1
Guide [ ] CX-0003C (Balakrishnan WS)
at
Q/A
304-08;
JX-0081C
(Comcast/ARRIS
Master
Supply
Agreement) at § 9.04; see also JX-0096C
(Folk Dep. Tr.) 93:17-98:23. Indeed,
Comcast witness Albert Garcia confirmed
in his testimony at the Hearing that each

751a
X1 Accused Product [ ] is immaterial to
infringement of the ’512 Patent. Garcia
Tr. 614-15.
Rovi Br. at 150-51. Rovi then argues that Comcast’s
argument about “the specific ‘system-on-a-chip’ (SoC)
that each product uses” is disingenuous, because the
“different models of SoCs do not have any bearing on
Rovi’s proof of infringement for the ’512 Patent.” Id. at
151.
Comcast’s expert did not analyze the various X1
products Comcast contends warrant disparate
analysis. Additionally, the exhibit Comcast uses to
identify disparate product groups, RX-0870, was
created by its counsel and does not contain evidentiary
support.
Accordingly, the administrative law judge has
determined that Rovi has presented sufficient
evidence, and that Comcast has not rebutted this
evidence. See Spansion, Inc. v. Int’l Trade Comm’n,
629 F.3d 1331, 1351-52 (Fed. Cir. 2010) (“Appellants
contend that the ALJ improperly shifted the burden to
Appellants to establish that the non-modeled accused
packages would behave differently than those that
were modeled. Rather than improper burden shifting,
the ALJ properly found that Appellants simply failed
to rebut the substantial evidence set forth by
Tessera.”); see also TiVo, Inc. v. EchoStar Commc’ns
Corp., 516 F.3d 1290, 1308 (Fed. Cir. 2008). Thus, the
administrative law judge finds that the ARRIS XG1v3
AX013ANC is representative. See CX-0003C at Q/A
304 (“each product listed in the Corrected Joint ID that
supports the X1 Guide [
] to all users of any X1capable product.”).
b) Legacy Products

752a
Rovi argues:
Rovi’s proof of infringement applies
equally to all accused Legacy Guide
Products listed in the Corrected Joint ID.
CX-0003C (Balakrishnan WS) at Q/A
405. Whatever differences among Legacy
devices may exist, they have no impact on
how a given set-top box implements the
Legacy Guide software, accesses the
relevant servers, or alters the user’s
Legacy Guide experience when using any
set-top box running the Legacy Guide
software. CX-0003C (Balakrishnan WS)
at Q/A 405. This was confirmed by Kirk
Davis, who provided an example of the
operation of the conflict resolution
feature of the Legacy guide (RX-0842C
(Davis RWS) at Q/A 19) and testified that
[
] Davis Tr. 711. The Motorola
DCX3501/M (identical to the ARRISHD/DVR (Legacy) - MOTRNG200BNMR)
is representative of the operation of all
Legacy
Guide
Accused
Products
determined to be at issue in this
Investigation. CX-0003C (Balakrishnan
WS) at Q/A 406-08.
Rovi Br. at 152.
As with the X1 guides, Comcast’s expert did not
analyze the various Legacy products that Comcast
contends warrant disparate analysis. Additionally, the
exhibit Comcast uses to identify disparate product
groups, RX-0870, was created by its counsel and does
not contain evidentiary support.

753a
Accordingly, the administrative law judge has
determined that Rovi has presented sufficient
evidence that the Motorola DCX3501/M is
representative and that Comcast has not rebutted this
evidence. See Spansion, Inc. v. Int’l Trade Comm’n,
629 F.3d 1331, 1351-52 (Fed. Cir. 2010) (“Appellants
contend that the ALJ improperly shifted the burden to
Appellants to establish that the non-modeled accused
packages would behave differently than those that
were modeled. Rather than improper burden shifting,
the ALJ properly found that Appellants simply failed
to rebut the substantial evidence set forth by
Tessera.”); see also TiVo, Inc. v. EchoStar Commc’ns
Corp., 516 F.3d 1290, 1308 (Fed. Cir. 2008). Thus, the
administrative law judge finds that the Motorola
DCX3501/M is representative. See CX-0003C at Q/A
316 (“each product listed in the Corrected Joint ID that
supports the Legacy Guide [
] to all users of any
Legacy Guide-capable product.”).
4. Literal Infringement
Rovi explains that it “asserts claims 1, 10, 13, and
22 of the ’512 Patent. Claim 1 is a method claim and
claim 13 is a system claim that essentially mirrors
claim 1.” Rovi Br. at 134.
a) Claims 1 and 10
Rovi argues that claim 1 and 10 are “directly
infringed when a user performs the claimed method in
the United States while using the X1 Guide.” See Rovi
Br. at 152 (citing CX-0003C (Balakrishnan WS) at Q/A
326).
Claim 1 follows:
1. A method for resolving a conflict
when multiple operations are performed

754a
using multiple tuners controlled by an
interactive television program guide, the
method comprising:
receiving a request to perform a tuning
operation;
determining that neither a first tuner nor
a second tuner are available to
perform
the
requested
tuning
operation, wherein the first tuner and
the second tuner are both capable of
performing the tuning operation; and
in

response to the determination,
displaying an alert that provides a
user with an opportunity to direct the
interactive television program guide
to cancel a function of the second
tuner to permit the second tuner to
perform
the
requested
tuning
operation.

JX-0006 at 18:35-47.
Claim 10 follows:
10. The method of claim 1 wherein the
displaying the alert comprises displaying
a display screen using the interactive
television program guide that provides
the user with a first option to continue to
perform the function of the second tuner,
and with a second option to cancel the
function of the second tuner to perform
the requested tuning operation.
JX-0006 at 19:28-33.
(1) Claim 1: ‘‘First and second tuners”

755a
(a) X1 System
Rovi argues that the X1 system has multiple tuners.
Rovi Br. at 152. Rovi relies upon Dr. Balakrishnan’s
testimony, information from Comcast’s website, and
photos from Mr. Williams’s use of the X1 guide. Id.
(CX-0003C (Balakrishnan WS) at Q/A 330-58; CX1654; CX-1629).
Comcast argues that the X1 system does not have
at least a second tuner because the X1 system has a
Broadcom SoC that that uses “full band capture”
technology. Resps. Br. at 188; RX-0846C (Garcia) at
Q/A 13. Full band capture collects an entire range of
frequencies (0 to 1 GHz) and culls individual channels
from the entire range rather than filtering a single
analog signal from the spectrum and converting it to a
digital signal. RX-0846C at Q/A 14-15; RX-0847C
(Bederson RWS) at Q/A 67-73, 81.
The administrative law judge has determined that
Rovi has not shown that the accused X1 products
literally contain a second tuner.
As an initial matter, Dr. Balakrishnan’s testimony
does not identify any tuner; rather, he infers that
multiple tuners exist because he was “able to
simultaneously record five shows” and because a
Comcast webpage used the word “tuner.” See, e.g., CX0003C at Q/A 332-35; but see RX-0846C (Garcia RWS)
Q/A 20-21; RX-0847C (Bederson RWS) at Q/A 106-109
(the reference to “tuners” is a reference to virtual
tuners).
Further, Dr. Balakrishnan does not point to
schematics or owners manuals for the accused
representative
product,
the
ARRIS
XG1v3
(AX013ANC), to identify a second tuner. Compare id.

756a
with CX-0004C (Delp WS) at Q/A 189 (for the ’871
Patent, Dr. Delp relied upon CX-1305C (Pace-XG1v3
Multi-Tuner Video Gateway), CX-1353C (XGlv3 Main
Board Schematic), and CX-1317C (Comcast-HW
Specification for XG 1 and XG2 STB Products) in
identifying a processor). Although Dr. Balakrishnan
points to a MG1 data sheet, CX-1304, the evidence
shows that those set-top boxes were never sold to
Comcast and that the “multi-tuner” reference is
anachronistic terminology that has been carried
forward to the full band capture era. See RX-0855C
(Folk) at Q/A 4-5 (Mr. Folk also explains that the MG1
does not have multiple physical tuners.).
Additionally, Dr. Balakrishnan discusses the SoC
only when asked about Comcast’s arguments. See, e.g.,
CX-0003C at Q/A 345. Dr. Balakrishnan then
speculates that because the four Q/AM demodulators
depicted in the SoC act like tuners, “there could be
four different circuits within the ‘digital tuning’
rectangle, which happen to not be shown in the
Broadcom figure, but which could exist within that
rectangle.” Id. at Q/A 347 (emphasis added). 147 Dr.
Balakrishnan’s testimony contains too much doubt to
conclude that it is more likely than not that the SoC
literally has first and second tuners.
Thus, Rovi has not shown that the accused X1
products literally contain a second tuner.
(b) Legacy System
Rovi argues:

Rovi’s Brief echoes this uncertainty. Rovi Br. at 158 (“each
“tuner” could comprise . . .” (emphasis added)).

147

757a
The accused Legacy Guides have two
tuners under the parties’ respective
constructions
and
therefore
have
“multiple tuners,” as stated in the
preamble of claim 1; the Legacy Guides
do not use a “full band capture” RF Front
End, like the X1 devices. CX-0003C
(Balakrishnan WS) at Q/A 410 13; Davis
Tr. 701-03; CX-1288C (DCX3501-M Dual
Tuner Datasheet); CX-1600 (Legacy
Screenshots for the ’512 Patent) at 4.
Rovi Br. at 165-66.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(E)(2).
The administrative law judge has determined that
the evidence shows that the accused Legacy products
have first and second tuners. See CX-0003C
(Balakrishnan WS) at Q/A 410 13; Tr. (Davis) 701-703;
CX-1288C (DCX3501-M Dual Tuner Datasheet); CX1600 (Legacy Screenshots for the ’512 Patent) at 4.
(2) Claim 1: “Interactive
program guide “

television

(a) X1 System
Rovi argues:
Claims 1 and 13 further refer to an
“interactive television program guide.”
The accused X1 Guide includes an
interactive television program guide
under both Rovi’s and Respondents’
proposed
constructions,
as
Dr.
Balakrishnan
opined.
CX-0003C
(Balakrishnan WS) at Q/A 356-357.

758a
There is evidence of the interactive guide
in the source code that operates with the
X1 Guide devices. See CX-1698C
(Comcast’s Source Code Range) at
COMC_ITC1001_SC-002193, line 8419
(Guide.java, function manageTuner)
(including code depending on Guide.java
and code on which Guide.java depends);
CX-0003C (Balakrishnan WS) at Q/A
357. There are also a number of
documents
that
demonstrate
the
presence of the interactive television
guide. CX-0003C (Balakrishnan WS) at
Q/A 357. And CX-1629 (X1 Screenshots
for the ’512 Patent), at 1-7, shows
screenshots of the interactive television
program guide running on the X1
Accused Products.
Rovi Br. at 160.
Comcast’s arguments about the “interactive
television program guide” are directed to claim 13, see
Resps. Br. at 199, which are addressed separately.
Comcast does not rebut this argument for claim 1. See
generally Resps. Br., Section IX(E)(1); Resps. Reply,
Section VII(D)(1).
The administrative law judge has determined that
the X1 products satisfy the “interactive television
program guide” limitation of claim 1, as the method is
performed using an interactive television program
guide.
(b) Legacy System
Rovi argues:

759a
The accused Legacy Guides also have an
interactive television program guide
under both side’s constructions. CX0003C (Balakrishnan WS) at Q/A 415,
416; CX-1600 (Legacy Screenshots for the
’512 Patent) at 1.
Rovi Br. at 166.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(E)(2).
The administrative law judge has determined that
the evidence shows that the accused Legacy products
satisfy the “interactive television program guide”
limitation, as the method is performed using an
interactive television program guide. See CX-0003C
(Balakrishnan WS) at Q/A 415, 416; CX-1600 (Legacy
Screenshots for the ’512 Patent) at 1.
(3) Claim 1: “Receiving a request”
(a) X1 System
Rovi argues:
Claim 1 recites a first step of “receiving a
request to perform a tuning operation”
and claim 13 recites an “interactive
television program guide” that is
operative to “receive a request to perform
a tuning operation.” Dr. Balakrishnan
used the X1 Guide device and witnessed
it receive his request to perform a tuning
operation, such as viewing and/or
recording
a
program.
CX-0003C
(Balakrishnan WS) at Q/A 361-62; CX1629 (X1 Screenshots for the ’512 Patent)
at 1 (illustrating how the interactive

760a
television program guide in the X1
Accused Products receives a request to
perform a tuning operation).
Rovi Br. at 160.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(E)(1). The
administrative law judge has determined that the
evidence shows that the accused X1 products satisfy
the “receive a request to perform a tuning” limitation.
See CX-0003C (Balakrishnan WS) at Q/A 361-62; CX1629 (X1 Screenshots for the ’512 Patent) at 1
(illustrating how the interactive television program
guide in the X1 Accused Products receives a request to
perform a tuning operation).
(b) Legacy System
Rovi argues:
The Legacy Guide products, when used,
“receive a request to perform a tuning
operation”
under
both
side’s
constructions for “tuning operation.” CX0003C (Balakrishnan WS) at Q/A 417.
Rovi Br. at 166.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(E)(2).
The administrative law judge has determined that
the evidence shows that the accused Legacy products
satisfy the “receive a request to perform a tuning”
limitation. See CX-0003C (Balakrishnan WS) at Q/A
417.
(4) Claim 1: “Determining neither tuner is
available”

761a
(a) X1 System
Rovi argues that there are two tuners because
“[g]iven that, under either party’s construction, there
are multiple tuners in the X1 Guide device, there must
be a first tuner and a second tuner in the accused X1
Guide devices.” Rovi Br. at 161. Rovi then argues:
The accused X1 Guide devices further
perform the step of “determining that
neither a first tuner nor a second tuner
are available to perform the requested
tuning operation.” Id. at Q/A 372.
Applying both side’s constructions, if all
five tuners in the X1 Guide devices are
currently tuned to five programs which
are also being recorded, then all five
tuners are unavailable, i.e., they cannot
perform the requested tuning operation
(Rovi’s construction) and are “in use”
(Respondents’ construction). Id. at Q/A
372-76. The X1 Guides determine that
neither the first nor the second tuner is
available, as demonstrated by the alert
display which informs the user of this
fact. CX-1629 (X1 Accused for the ’512
Patent) at 2, 3.
Id. With regard to the language requiring that the
tuners “are both capable of performing the requested
tuning operation,” Rovi argues “[b]ecause there are
five tuned-to channels, it follows that there are five
tuners that are capable of performing the user’s
requested tuning operation, i.e., tuning to a requested
channel to view and/or record the program.” Id.

762a
Comcast argues that a cable card imposes a rule on
the SoC that limits the number of programs a user can
watch or record and that:
This rule regarding the maximum
number of programs the cable card can
handle is unrelated to any alleged
“tuners.” Allowing the “determining”
limitation to be satisfied by a rule that is
unrelated to tuners, would eviscerate the
claim language “neither a first tuner nor
a second tuner are available.” And it
would ignore the purpose of the invention
- to avoid tuner conflicts. Under this logic,
any function that resulting in an
appropriate alert, as recited in the next
limitation,
would
satisfy
the
“determining” step.
Resps. Br. at 192 (citing RX-0846C at Q/A 24-26; RX0847C (Bederson RWS) at Q/A 38, 94; Tr. 624-630).
The
administrative
law
judge
previously
determined that Rovi has not shown that the accused
X1 products literally contain a second tuner.
Accordingly, Rovi cannot show that the accused X1
products determine that the second tuner is not
available, and the “determining” limitation is not
satisfied.
However, in the event that it is later determined
that the X1 products satisfy the second tuner
limitation, then the administrative law judge has
determined that the accused X1 products satisfy the
“determining” limitation. In particular, the evidence
shows that the X1 system determines that two tuners
(out of five, due to the limits imposed by the cable card)
are not available to perform a requested operation

763a
(e.g., watching or recording another program). See CX0003C at Q/A 366-68. Claim 1 is not limited one
specific algorithm, process, or structure that dictates
the two tuners’ availability or capability to perform the
requested operation, as Comcast suggests. The
evidence shows that the X1 system determines that
the tuners are not available because the system
displays an alert showing that “All Tuners Are in Use.”
See id. at Q/A 375; CX-1629 at 3.
(b) Legacy System
Rovi argues:
The Legacy Guides meet this limitation
whenever the tuned-to signals of the two
tuners in a Legacy Guide are being used
to record programs and a user tunes to a
different program that is not being
recorded to either view or record the
tuned-to signal. Id. at Q/A 418; Davis Tr.
709; CX-1600 (Legacy Screenshots for the
’512 Patent) at 2, 4.
Rovi Br. at 166.
Comcast argues:
The Accused Legacy STBs do not
determine that “neither a first tuner nor
a second tuner are available” under
either party’s construction. The only
logical
reading
of
both
parties’
constructions, is that the tuners “cannot
perform the requested tuning operation”
(under Rovi’s construction) or are “in use”
(Respondents’ construction) any time the
tuners are occupied, for example, by
either recording or displaying a program.

764a
Otherwise, the limitation is rendered
meaningless, because “available,” is
simply expanded to read on rules, and no
longer addresses the tuner conflicts,
which even Dr. Balakrishnan agrees is
the stated purpose of the invention.
Comcast’s
Legacy
STBs
do
not
“determine that neither a first tuner nor
a second tuner,” because they do not
determine that the tuners “cannot
perform the requested tuning operation,”
or are “in use” in all cases. For example,
if the user is recording a first program on
channel 5, and watching a second
program on channel 6, both tuners are
occupied. But, the user is permitted to
change the channel to watch channel 7.
Rather, the accused alerts only arise
when a user sets two simultaneous
recordings. And the system’s only
determination is that two recordings are
in progress, not that both tuners are not
available.
Resps. Br. at 199-200.
Comcast’s reply follows:
Rovi’s Post Hearing Brief speaks
volumes. According to Rovi, the Legacy
STBs determine a conflict “whenever the
tuned to signals of the two tuners in a
Legacy Guide are being used to record
programs.” Compl. PoHB at 166. The
accused alert does not occur whenever
the tuners are “not available,” for
example when one tuner is used to

765a
record, and the other is used to display a
program. Rather, Rovi attempts to read
the claims of the ’512 patent on the
application of a rule that provides an
alert when two simultaneous recordings
are set. This cannot satisfy either parties’
[sic] construction for the “determining”
limitation. Resp. PoHB at 199-200. And
it, has nothing to do with the purpose of
the invention, as stated by Rovi’s own Dr.
Balakrishnan. Tr. 297:7-13; RX-0847C
(Bederson RWS) at Q/A 93 (discussing
Balakrishnan deposition testimony).
Resps. Reply at 67. Dr. Bederson’s testimony, RX0847C at Q/A 93, is specific to the X1 system. The cited
transcript testimony follows:
Q. All right. So every reference to an alert
occurring in the patent, in the drawings,
in the specification, in the provisional
application, is when all of the tuners are
in use or busy; isn’t that true?
A. “The references we have just gone
through, yes. But I will not make a
statement saying every single reference.
Tr. 297.
The administrative law judge has determined that
the evidence shows that the accused Legacy products
meet this limitation. Rovi supports its argument with
expert testimony and pictures showing the Legacy
guide in operation. See CX-0003C at Q/A 418; Tr.
(Davis) 709; CX-1600 (Legacy Screenshots for the ’512
Patent) at 2, 4. Comcast’s brief does not cite any
evidence, while its reply cites evidence that does not

766a
discuss the any accused products (Tr. 297) and
testimony for the wrong products (RX-0847C
(Bederson RWS) at Q/A 93, discussing the accused X1
products). See Resps. Reply at 64. Accordingly, the
accused Legacy products satisfy this limitation.
(5) Claim 1: “Displaying an alert” and
“opportunity to cancel”
(a) X1 System
Rovi argues that the X1 guides display the required
alert. Rovi Br. at 163-64.
Comcast’s brief reargues the claim constructions
and alleges that Dr. Balakrishnan does not have any
evidence of any customers performing the process he
used to conclude the accused X1 products infringe.
Comcast also argues that the set-top boxes do not
infringe because the “Comcast X1 STBs do not have a
screen on which the user sees an alert to cancel a
function.” Id. at 198.
Rovi’s reply points to evidence that customers used
the accused X1 products in an infringing manner. See
Rovi Reply at 62, n.6 (“RX-0839C (Nush RWS) at Q/A
10-11 (Comcast employee Mr. Nush testifying that [ ]
of Comcast users of the X1 Accused Products have seen
the ‘Accused Screen’—i.e., the conflict alert screen—
which must necessarily have been displayed on a
display device connected to an X1 Accused Product).”).
The administrative law judge has determined that
the X1 system, as used by Comcast customers, satisfies
this limitation. The evidence shows that the X1 system
displays an alert that allows the user to cancel a
function of the second tuner. See CX-0003C
(Balakrishnan WS) at Q/A 379-90; CX-1629 (X1
Screenshots for the ’512 Patent). Comcast’s argument

767a
about the screen misses the point of Rovi’s allegation,
that claim 1 “is directly infringed when a user
performs the claimed method in the United States
while using the X1 Guide.” Rovi Br. at 152.
(b) Legacy System
Rovi argues:
In response to the determination, the
interactive television program guide on
the Legacy Guide set-top box outputs an
alert that provides a user with an
opportunity to direct the interactive
television program guide to stop a
function of the second tuner (and even
the “last allocated” tuner) to permit the
second (or last allocated) tuner to perform
the requested tuning operation. CX0003C (Balakrishnan WS) at Q/A 419;
CX-1600 (Legacy Screenshots for the ’512
Patent) at 4; RX-0842C (Davis RWS) at
Q/A 19; Davis Tr. 711-13.
This alert “provides the user with an
opportunity to direct the interactive
television program guide” to “Swap to
view your other recording,” to “Continue
recording, don’t change channel,” or to
“Stop recording, change channel.” CX0003C (Balakrishnan WS) at Q/A 419.
The first two options, to swap views or to
continue recording and dismiss the alert,
have the expected outcomes. Id. By
choosing the “swap” option, the user can
select the first or last allocated tuner to
cancel (choosing to swap to the last
allocated tuner for canceling would meet

768a
this limitation under
construction). Id.

Respondents’

If selected, the option “Stop recording,
change channel” constitutes a direction to
“cancel a function of the second tuner to
permit the second tuner to perform the
requested tuning operation.” CX0003C
(Balakrishnan WS) at Q/A 419; Davis Tr.
710.
Rovi Br. at 166-67.
Comcast argues that the accused Legacy products
do not provide an alert “in response to the
determination” because in the Legacy guide an “alert
condition is provided in response to a rule (both tuners
used for recording), and not the claimed condition
(both tuners are not available).” Resps. Br. at 200.
Comcast also argues that the set-top boxes do not
infringe because “Comcast Legacy STBs do not include
a screen (e.g., TV) to display an alert.” Id. at 201.
Rovi replies that Comcast’s “scenario is irrelevant
to infringement—Rovi has shown that in the Legacy
Guide Accused Products when both the first and the
second tuner are both unavailable to perform the
requested tuning operation an alert screen is
displayed to the user (just as the claims of the ’512
Patent require).” Rovi Reply at 63.
The administrative law judge has determined that
the accused Legacy products satisfy this limitation.
The evidence shows that the alert is displayed when
the tuners are not available for recording and a user
can cancel a function from the alert. See CX-0003C at
Q/A 419; CX-1600 (Legacy Screenshots for the ’512
Patent) at 4; RX-0842C (Davis RWS) at Q/A 18-19; Tr.

769a
(Davis) 711-713. Comcast’s argument about the screen
misses the point of Rovi’s allegation, that claim 1 “is
directly infringed when a user performs the claimed
method in the United States while using the Comcast
Legacy Guide.” See Rovi Br. at 165.
(6) Claim 10
Claim 10 requires that the alert “provides the user
with a first option to continue to perform the function
of the second tuner, and with a second option to cancel
the function of the second tuner to perform the
requested tuning operation.” JX-0006 at 19:28-33.
(a) X1 System
Rovi argues:
Claim 10 depends from claim 1 and claim
22 depends from claim 13; both add the
requirement that displaying the alert
comprises displaying a display screen
using the interactive television program
guide that provides the user with a first
option to continue to perform the function
of the second tuner, and with a second
option to cancel the function of the second
tuner to perform the requested tuning
operation.
The alert that is shown on the television
screen meets both claims 10 and 22,
because it provides the user with two
options: (1) “Keep Recording,” which, if
selected, would prevent the X1 Guide
from performing the requested tuning
operation and continue to perform the
function of the second tuner; or (2)
“Change Channel” which would cause the

770a
X1 Guide to stop recording the program
currently being tuned to by the second
tuner and instead tune to and view the
requested
program.
CX-1629
(X1
Screenshots for the ’512 Patent) at 3.
Rovi Br. at 165.
Comcast does not directly address or rebut Rovi’s
arguments about claim 10. See generally Resps. Br.,
Section IX(E)(1).
The administrative law judge has determined that
the evidence shows that the accused X1 products
literally infringe claim 10, provided that the accused
X1 products infringe claim 1. See CX-1629 (X1
Screenshots for the ’512 Patent) at 3; see also CX0003C at Q/A 394-95 (discussing infringement of claim
10); Ferring, 764 F.3d at 1411. 148
(b) Legacy System
Rovi argues:
The displayed screen provides the user
with a first option to continue to perform
the function of the second tuner, and with
a second option to cancel the function of
the second tuner to perform the
requested tuning operation. CX-0003C
(Balakrishnan WS) at Q/A 421; RX-

In Ferring, the Federal Circuit found a dependent claim not
infringed because its corresponding independent claim was not
infringed. Ferring B.V. v. Watson Labs., Inc.-Florida, 764 F.3d
1401, 1411 (Fed. Cir. 2014) (“Because we hold that the asserted
independent claims of Ferring’s patents are not infringed, the
asserted dependent claims are likewise not infringed.”)).

148

771a
0842C (Davis RWS) at Q/A19; Davis Tr.
709-10.
Rovi Br. at 167.
Comcast does not directly address or rebut Rovi’s
arguments about claim 10. See generally Resps. Br.,
Section IX(E)(2).
The administrative law judge has determined that
the evidence shows that the accused Legacy products
literally infringe claim 10, provided that the accused
Legacy products infringe claim 1. See CX-0003C
(Balakrishnan WS) at Q/A 421; Ferring, 764 F.3d at
1411.
b) Claims 13 and 22
Rovi argues that “Claim 13 essentially mirrors
claim 1 and, as a system claim, is infringed when the
accused devices are (or were) imported into the United
States, and/or when they are made, used, or sold in the
United States, by Comcast, ARRIS, and/or
Technicolor.” Rovi Br. at 152 (citing CX-0003C
(Balakrishnan WS) at Q/A 397).
Claim 13 follows:
13. A system for resolving a conflict
when multiple operations are performed
using multiple tuners controlled by an
interactive television program guide, the
system comprising:
a first tuner;
a second tuner; and
an interactive television program guide
implemented on the system, wherein

772a
the interactive television program
guide is operative to:
receive a request to perform a tuning
operation;
determine that neither the first tuner
nor the second tuner are available
to perform the requested tuning
operation, wherein the first tuner
and the second tuner are both
capable of performing the tuning
operation; and
in response to the determination,
display an alert that provides a
user with an opportunity to direct
the interactive television program
guide to cancel a function of the
second tuner to permit the second
tuner to perform the requested
tuning operation.
JX-0006 at 19:41-59.
Claim 22 follows:
22. The system of claim 13 wherein the
displaying the alert comprises displaying
a display screen using the interactive
television program guide that provides
the user with a first option to continue to
perform the function of the second tuner,
and with a second option to cancel the
function of the second tuner to perform
the requested tuning operation.
JX-0006 at 20:47-52.

773a
(1) Claim 13: “Interactive television
program guide implemented on the
system”
(a) X1 System
Rovi argues:
Claims 1 and 13 further refer to an
“interactive television program guide.”
The accused X1 Guide includes an
interactive television program guide
under both Rovi’s and Respondents’
proposed
constructions,
as
Dr.
Balakrishnan
opined.
CX-0003C
(Balakrishnan WS) at Q/A 356-357.
There is evidence of the interactive guide
in the source code that operates with the
X1 Guide devices. See CX-1698C
(Comcast’s Source Code Range) at
COMC_ITC1001_SC-002193, line 8419
([
] CX-0003C (Balakrishnan WS) at
Q/A 357. There are also a number of
documents
that
demonstrate
the
presence of the interactive television
guide. CX-0003C (Balakrishnan WS) at
Q/A 357. And CX-1629 (X1 Screenshots
for the ’512 Patent), at 1-7, shows
screenshots of the interactive television
program guide running on the X1
Accused Products.
Rovi Br. at 160.
Comcast argues that the accused X1 set-top boxes
do not [ ] Resps. Br. at 199.

774a
In CX-0003C at Q/A 294 (emphasis added), Dr.
Balakrishnan identified the accused products, as
follows:
Q294. Can you identify the products
accused by Rovi of infringing the
’147 patent and the ’512 patent in this
case?
A294. Yes. On pages 1-2 of the Corrected
Joint ID, there is a description. Based on
what it says here, it is my understanding
that, with respect to the ’512 patent and
the ’147 patent, Rovi is accusing settop boxes made for Comcast, to
Comcast’s design specifications, by Arris
and Technicolor, that run Comcast’s
Legacy Guide, which I will refer to as the
“Legacy Guide” or Comcast’s X1 Guide,
which I will refer to as the “X1 Guide,”
and
otherwise
meet
the
legal
requirements of importation, sale, lease,
etc. to Comcast or Comcast’s customers in
the U.S., which includes. . .
Dr. Balakrishnan then quotes the Corrected Joint ID,
JX-0084C (Amended Joint Identification of Accused
Products), as follows:
all products capable of supporting
Comcast’s X1 or Legacy Guide, that are or
were: (1) products purchased by Comcast
on or after April 1, 2016, regardless of
when they were imported; (2) products
installed by Comcast into its customer
base on or after April 1, 2016, regardless
of when they were purchased by Comcast
or imported; and (3) products that

775a
Comcast now holds in inventory and that
Comcast will, in the normal course of
business, install into Com cast’s customer
base on or after April 1, 2016, regardless
of when they were purchased by Comcast
or imported. The foregoing includes
remote controls and applications that
operate in conjunction with any of the
identified models.
Id. (quoting JX-0084C at 1-2). Neither Rovi nor Dr.
Balakrishnan has explicitly included Comcast’s
servers as an accused product. See id. (even if the
servers were identified, no evidence showing when
they were purchased, installed, imported, or held in
inventory is cited).
Dr. Balakrishnan then provides testimony about
the system in CX-0003C at Q/A 397-400. In Q/A 398400, Dr. Balakrishnan opined, as follows:
Q398. Other than the issue of the
term “system” and the means-plusfunction issue, do you have
infringement opinions regarding the
remaining limitations of claim 13?
A398. Yes, all of my infringement
opinions that I have already discussed
with respect to infringement of claim 1 by
the X1 Guide device are equally
applicable to claim 13.
Q399. Okay. Good. Then we can
discuss the issue over the term
“system”; what is the issue regarding
the term “system”?

776a
A399. Comcast contends that the
interactive television program guide is
implemented [
] which are not part of
any of the user’s television equipment.
Claim 13 requires that the interactive
television program guide is implemented
“on the system.” Rovi contends that the
“system” is an assemblage of elements,
and that assemblage includes the [
]
Therefore the limitation of claim 13 that
the interactive television program guide
is implemented on the system is met in
the X1 guide, regardless of whether the
interactive television program guide is
implemented only on the user’s
equipment, on both the user’s equipment
and the head end servers, or only on the
head end servers, because all are part of
the system, under Rovi’s construction.
Q400. So, what is your opinion on the
infringement of claim 13 by the
accused X1 Guide devices?
A400. Claim 13 is also infringed by the
accused X1 Guide devices, for the reasons
I have already discussed.
Dr. Balakrishnan’s statement that “Rovi contends that
the ‘system’ is an assemblage of elements, and that
assemblage includes the [
] conflicts with the
Corrected Joint Identification of Accused Products
(CX-1702C), which does not identify the [ ]
Dr. Bederson testified that the X1 guide is
implemented on Comcast’s servers, not on the set-top
box. See RX-0847C (Bederson RWS) at Q/A 113:

777a
Q113. Well, why can’t Comcast’s X1
System qualify as an “an interactive
television
program
guide
implemented on the system” under
Respondents’ construction?
A113. Because, the Comcast X1 program
guide is [ ] as I have previously testified
in response to Q51-Q64.
See also id. at Q/A 115. Thus, the evidence shows that
Rovi has not shown that the accused X1 products
literally infringe claim 13.
(b) Legacy Products
Rovi argues:
The interactive television program guide
is [ ] which is user equipment, so there
is no dispute that the claim limitations of
“system” and “implemented on the
system” requirements are met even
under Respondents’ constructions. CX0003C (Balakrishnan WS) at Q/A 424,
403.
Rovi Br. at 167.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(E)(2).
The administrative law judge has determined that
the evidence shows that the accused Legacy products
infringe claim 13 (under either party’s proposed
constructions). See CX-0003C (Balakrishnan WS) at
Q/A 424 (Q/A 403, which is also cited, pertains to the
X1 products).
(2) Claim 22

778a
(a) X1 System
Rovi jointly addresses claims 10 and 22 for the
accused X1 products. See Rovi Br., Section VI(E)(2).
Comcast does not directly address or rebut Rovi’s
arguments about claim 10 or 22. See generally Resps.
Br., Section IX(E)(1). Thus, the administrative finds
claim 22 is infringed for the same reasons claim 10 is
infringed.
(b) Legacy System
Rovi jointly addresses claims 10 and 22 for the
accused Legacy products. See Rovi Br., Section
VI(F)(2). Comcast does not directly address or rebut
Rovi’s arguments about claim 10 or 22. See generally
Resps. Br., Section IX(E)(2). Thus, the administrative
finds claim 22 is infringed for the same reasons claim
10 is infringed.
c) Proposed Alternative Designs
Comcast’s entire argument is:
Comcast has proposed two design
alternatives for the ’512 patent that are
ripe for adjudication by the ALJ. The
software is fixed and was produced before
the close of discovery for inspection (RX0327C; Tr. 734:10-12) and each of the
parties’ experts have been able to assess
whether these alternative designs
infringe. See Flash Memory at 19-25.
Rovi, nor its experts, have expressed any
infringement theory as to either of these
alternative designs.
The first design simply provides an alert
screen when the user has reached their

779a
max set of recorded or viewed programs,
but does not provide the user the ability
to “cancel a function of the second tuner,”
(or cancel any function). RX-0847
(Bederson RWS) at Q/A 121; RDX-1277;
RX-0839C (Nush RWS) at Q/A 5-6. This
design alternative has been confirmed as
suitable by relevant Comcast personnel.
RX-0839C at Q/A 7, 10-11; Tr. 719:20720:6, 734:18-24.
The second alternative design [
] RX0839C at Q/A 8. This is considered an
acceptable alternative, because it is
already used by X1 platform when
customers set more than the allowed
number of recordings. Id. at Q/A 9-11; Tr.
720:25-722:14 (in part, “A That’s correct.
There are situations in the product today
where that behavior is the current
customer experience.”), 734:18-24.
Resps. Br. at 201-02.
Rovi argues that the “proposals are improper,
hypothetical, non-infringing alternatives under the
controlling case law, because Comcast has not actually
implemented either alternative.” Rovi Br. at 168. Rovi
notes that “Comcast has done no testing to determine
whether its users would actually accept either of these
proposed alternatives.” Id.
The administrative law judge has determined that
the first alternative design, which appears to be for the
X1 system only based on its visual appearance, would
not infringe and that the second alternative design is
too hypothetical to adjudicate.

780a
For the first alternative design, Comcast cites the
following screen shot for the first alternative design:

RX-0839C (Nush RWS) at Q/A 6. Mr. Nush testified
that “the options to ‘keep recording’ and ‘change
channel,’ which were shown in the previous design [the
“All Tuners Are in Use” screen] [ ] Id. In this design,
the X1 guide, as used by Comcast’s customers, [
]
Thus, the first alternative design, which is limited to
the X1 guide, does not infringe claims 1 or 13.
For the second alternative design, Mr. Nush
testified that [
] RX-0839C (Nush RWS) at Q/A 8.
This alternative design is too hypothetical to
adjudicate because there is no evidence that the
proposed design is a finalized product or sufficiently
described for consideration by the Commission.
d) Conclusions
In sum, the
determined that:

administrative

law

judge

has

•

the accused X1 products do not infringe claims
1, 10, 13, and 22;

•

Comcast’s first alternative design does not
infringe claims 1, 10, 13, and 22; and

781a
•

the accused Legacy products infringe claims 1,
10, 13, and 22.
5. Indirect Infringement

In the event that the accused X1 or Legacy products
are found to infringe the ’512 Patent, the
administrative law judge has analyzed Rovi’s
inducement
and
contributory
infringement
arguments.
a) Knowledge of the ’512 Patent and
Specific Intent to Infringe
The administrative law judge finds that Comcast
had the requisite knowledge of the ’871 Patent for the
same reasons provided in the discussion of the ’556
Patent above. See Section IV(A)(5)(a). In general, as
with the ’556 Patent, Rovi argues that Comcast
induces its customers to infringe by instructing them
how to use the X1 or Legacy systems and that Comcast
induces ARRIS and Technicolor by having them make
and import set-top boxes into the United States. See
Rovi. Br. at 168-69.
b) Induced Infringement of the ’512
Patent
(1) X1 System
Rovi has shown that a small portion of customers
utilize the accused X1 products in an infringing
manner. See Rovi Reply at 63-64 n.7 (citing RX-0839C
(Nush RWS) at Q/A 10-11 for the fact that [
] of
Comcast’s X1 users “have been presented with the
recording conflict alert screen as part of their ordinary
use of the X1 Accused Products.”). However, Rovi has
not shown that Comcast instructs, directs, or advises
its users on how to carry out direct infringement of the

782a
asserted claims. See Resps. Br. at 202 (“Nothing that
Rovi cites shows any instruction on how to perform the
techniques that allegedly infringe the ’512 patent.”). In
particular, Rovi has not shown that Comcast intends
to instruct its users to schedule enough recordings to
cause a conflict that would trigger infringement. Thus,
Rovi has not shown that it was Comcast’s intent to
‘“bring about the desired result,’ which is
infringement.” See Commil USA, 135 S.Ct. at 1928.
Accordingly, Rovi has not met its burden of showing
that Comcast induces its users to infringe the ’512
Patent.
(2) Legacy System
Rovi has not sufficiently shown that customers
actually utilize the accused Legacy products in an
infringing manner (e.g., there are no corresponding
statistics to the Nush statistics cited for the X1 system
that show tuner conflict resolution, see RX-0839 at Q/A
10-11). See Epcon Gas Sys., Inc. v. Bauer Compressors,
Inc., 279 F.3d 1022, 1033-34 (Fed. Cir. 2002)
(explaining the rule that “[u]pon a failure of proof of
direct infringement, any claim of inducement of
infringement also fails” and then reversing summary
judgment of no infringement based upon evidence that
the defendant demonstrated the product to prospective
buyers).
c) Contributory Infringement of the ’512
Patent
To prevail on a contributory infringement claim, a
complainant must show that, inter alia, the accused
product is “not a staple article or commodity of
commerce suitable for substantial noninfringing
use[.]” See 35 U.S.C. § 271(c); Fujitsu, 620 F.3d at 1326

783a
(“To establish contributory infringement, the patent
owner must show the following elements relevant to
this appeal: 1) that there is direct infringement, 2) that
the accused infringer had knowledge of the patent, 3)
that the component has no substantial noninfringing
uses, and 4) that the component is a material part of
the invention.”). 149
(1) X1 System
The administrative law judge has determined that
Rovi has fallen short of meeting its burden of showing
that the accused products have no substantial noninfringing uses; rather, the evidence shows that the
accused products have many substantial noninfringing uses, such as watching television programs
or recording less than the maximum number of
permitted recordings (e.g., in the accused X1 products,
recording three shows simultaneously does not
infringe the ’871 Patent). See RX-0839C (Nush RWS)
at Q/A 4-11 (explaining [ ] of X1 subscribers ever see
the alert screen relating to tuner limitations).
(2) Legacy System
Rovi does not advance a separate argument for the
accused Legacy products. See generally Rovi Br.,
Section VI(I). Comcast has not cited separate evidence
for the accused Legacy products. See generally Resps.
Br., Section IX(E)(5). Accordingly, the administrative
law judge has determined that Rovi fell short of
meeting its burden of showing that the accused Legacy
products have no substantial non-infringing uses.
See also Section III(C)(2)(b) (general principles of law) and
Section IV(A)(5)(b) (citing In re Bill of Lading Transmission, 681
F.3d at 1338; Vita-Mix Corp. v. Basic Holding, Inc., 581 F.3d at
1327; i4i Ltd. P’ship v. Microsoft Corp., 598 F.3d at 851), supra.

149

784a
6. Domestic Industry-Technical Prong
Rovi identifies the following DI products:
1) Rovi i-Guide,
2) Rovi Passport,
3) Verizon FiOS system, and
4) SuddenLink.
Rovi Br., Section VI(J).
a) Claims 1 and 10
(1) Claim 1: “First and second tuners”
(a) Rovi i-Guide
Rovi argues:
Rovi i-Guide products have two tuners,
under both parties’ constructions. CX0003C (Balakrishnan WS) at Q/A 574-75,
578; CX-1225 (User Guide: DCX3501-M)
at 10; CX-1593 (i-Guide and TotalGuide
Screenshots for the ’512 Patent) at 4.
Rovi Br. at 175.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(G)(1). 150
150

In reply, Comcast argues:
Rovi’s technical DI allegations for the ’512 patent are rife
with deficiencies. Resp. PoHB at 221-226. For the each of
the DI products, Rovi’s allegations fail to satisfy at least
the “Neither a/the First Tuner nor the Second Tuner Are
Available,” and “Cancel[s] a Function of the Second
Tuner . . .” limitations. Resp. PoHB at 221-226. And,
Rovi’s allegation as to Verizon FiOS are incomplete, and
rely on conclusory allegations. For example, Rovi asserts
that the “interactive television program guide is

785a
The administrative law judge has determined that
the evidence shows that the Rovi i-Guide products
practice this limitation. See CX-0003C at Q/A 574-75,
578; CX-1225 (User Guide: DCX3501-M) at 10; CX1593 (i-Guide and TotalGuide Screenshots for the ’512
Patent) at 4.
(b) Rovi Passport
Rovi argues:
According to the DCX3400-M User Guide,
the Rovi Passport products have two tuners
under both side’s constructions. CX-0003C
(Balakrishnan WS) at Q/A 593-95, 597; CX1216 (Motorola - DCX3400 User Guide) at
8; CX-1609 (Passport and TotalGuide xD
Screenshots for the ’512 Patent) at 3.
Rovi Br. at 177.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(G)(2).
The administrative law judge has determined that
the evidence shows that the Rovi Passport products
practice this limitation. See CX-0003C at Q/A 593-95,
597; CX-1216 (Motorola - DCX3400 User Guide) at 8;
CX-1609 (Passport and TotalGuide xD Screenshots for
the ’512 Patent) at 3.
implemented on the set top box.” Compl. PoHB at 180
(citing CX-0003C, QA 662). But Dr. Balakrishnan did not
review any source code, and cites no support to
substantiate this opinion. Id.
Resps. Reply at 70 (Section VII(G)). This argument does not
dislodge Rovi’s evidence for any of the domestic industry
products, nor does it provide a rationale or evidentiary support
for ruling for Comcast.

786a
(c) Verizon, FiOS
Rovi argues:
There are six tuners in the Verizon FiOS
products under both sides’ constructions.
CX-0003C (Balakrishnan WS) at Q/A
650-51. The Verizon FiOS products can
tune to, at most, six programs at the
same time, which indicates that there
are six tuners in the Verizon FiOS
products. CX-0003C (Balakrishnan WS)
at
Q/A
652;
CX-1623
(Verizon
Screenshots for the ’512 Patent) at 5.
Rovi Br. at 179.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(G)(3) (Comcast later
argues about the second tuner in regard to the “cancel
a function of the second tuner” limitation, see Resps.
Br. at 224-25).
The administrative law judge has determined that
the evidence shows that the Verizon products practice
this limitation. See CX-0003C at Q/A 650-52; CX-1623
(Verizon Screenshots for the ’512 Patent) at 5.
(d) SuddenLink
Rovi argues:
There are two tuners in the SuddenLink
products under both side’s constructions.
CX-0003C (Balakrishnan WS) at Q/A
668; CX-1217 (Motorola - DCX3400 User
Manual).
Rovi Br. at 180.

787a
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(G)(4).
The administrative law judge has determined that
the evidence shows that the SuddenLink products
practice this limitation. See CX-0003C at Q/A 667-70.
(2) Claim 1: “Interactive
program guide”

television

(a) Rovi i-Guide
Rovi argues:
Rovi i-Guide products have an
interactive television program guide
under both parties’ constructions. CX0003C (Balakrishnan WS) at Q/A 579-80;
CX-1593 (i-Guide and TotalGuide xD
Screenshots for the ’512 Patent) at 3.
Rovi Br. at 175.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(G)(1).
The administrative law judge has determined that
the evidence shows that the Rovi i-Guide products
practice this limitation. See CX-0003C at Q/A 579-80;
CX-1593 (i-Guide and Total Guide xD Screenshots for
the ’512 Patent) at 3.
(b) Rovi Passport
Rovi argues:
The Rovi Passport products have an
interactive television program guide
under both sides’ constructions. CX-1609
(Passport
and
TotalGuide
xD
Screenshots for the ’512 Patent) at 1; CX0003C (Balakrishnan WS) at Q/A 598.

788a
Rovi Br. at 177.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(G)(2).
The administrative law judge has determined that
the evidence shows that the Rovi Passport products
practice this limitation. See CX-0003C at Q/A 598; CX1609 (Passport and TotalGuide xD Screenshots for the
’512 Patent) at 1.
(c) Verizon FiOS
Rovi argues:
The Verizon FiOS products have an
interactive television program guide
under both sides’ constructions. CX0003C (Balakrishnan WS) at Q/A 653;
CX-1623 (Verizon Screenshots for the
’512 Patent) at 1.
Rovi Br. at 179.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(G)(3) (Comcast later
argues about the second tuner in regard to the “cancel
a function of the second tuner” limitation, see Resps.
Br. at 224-25).
The administrative law judge has determined that
the evidence shows that the Verizon products practice
this limitation. See CX-0003C at Q/A 650-52; CX-1623
(Verizon Screenshots for the ’512 Patent) at 5.
(d) SuddenLink
Rovi argues:
The SuddenLink products also have an
interactive television program guide

789a
under both side’s constructions. CX0003C (Balakrishnan WS) at Q/A 671-72.
Rovi Br. at 181.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(G)(4).
The administrative law judge has determined that
the evidence shows that the SuddenLink products
practice this limitation. See CX-0003C at Q/A 671-72.
(3) Claim 1: “Receiving a request”
(a) Rovi i-Guide
Rovi argues:
Rovi i-Guide products, when used,
“receive a request to perform a tuning
operation”
under
both
side’s
constructions for “tuning operation.” CX0003C (Balakrishnan WS) at Q/A 581.
Rovi Br. at 175.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(G)(1).
The administrative law judge has determined that
the evidence shows that the Rovi i-Guide products
practice this limitation. See CX-0003C at Q/A 581.
(b) Rovi Passport
Rovi argues:
The Rovi Passport products, when used,
“receive a request to perform a tuning
operation”
under
both
sides’
constructions for “tuning operation.” CX0003C (Balakrishnan WS) at Q/A 600.
Rovi Br. at 177.

790a
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(G)(2).
The administrative law judge has determined that
the evidence shows that the Rovi Passport products
practice this limitation. See CX-0003C at Q/A 600.
(c) Verizon FiOS
Rovi argues:
The Verizon FiOS products, when used,
“receive a request to perform a tuning
operation”
under
both
side’s
constructions for “timing operation.” CX0003C (Balakrishnan WS) at Q/A 655.
Rovi Br. at 179.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(G)(3).
The administrative law judge has determined that
the evidence shows that the Verizon products practice
this limitation. See CX-0003C at Q/A 655.
(d) SuddenLink
Rovi argues:
The SuddenLink products, when used,
“receive a request to perform a tuning
operation”
under
both
side’s
constructions for “tuning operation.” CX0003C (Balakrishnan WS) at Q/A 673.
Rovi Br. at 181.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(G)(4).

791a
The administrative law judge has determined that
the evidence shows that the SuddenLink products
practice this limitation. See CX-0003C at Q/A 673.
(4) Claim 1: “Determining neither tuner is
available”
(a) Rovi i-Guide
Rovi argues:
If both tuners are recording shows and
the user attempts to change the channel
to a new show, the determination is
made that neither tuner is available and
an alert is displayed stating that “Two
recordings are in progress.” Id. at Q/A
582; CX-1593 (i-Guide and TotalGuide
xD Screenshots for the ’512 Patent) at 2,
4.
Rovi Br. at 175.
Comcast argues that the Rovi i-Guide products do
not practice this limitation because “Dr. Balakrishnan
has not demonstrated that the Rovi i-Guide
determines that a conflict exists in every scenario
where both tuners are allocated.” RX-0847C (Bederson
RWS) at Q/A 168; Resps. Br. at 222.
The evidence shows that the Rovi i-Guide products
practice this limitation because the system displays an
alert showing that “TWO RECORDINGS ARE IN
PROGRESS.” See CX-0003C at Q/A 582; CX-1593 (iGuide and TotalGuide xD Screenshots for the ’512
Patent) at 2, 4.
(b) Rovi Passport
Rovi argues:

792a
If the tuned-to signals of the two tuners
in the Passport are being used to record
programs and a user were to tune to
different program that is not being
recorded to either view or record the
tuned-to signal, then the Passport would
meet
this
limitation.
CX-0003C
(Balakrishnan WS) at Q/A 601; CX-1609
(Passport
and
TotalGuide
xD
Screenshots for the ’512 Patent) at 1, 3.
Rovi Br. at 177.
Comcast argues that the Rovi Passport products do
not practice this limitation for the same reasons it
argued for the i-Guide. See Resps. Br. at 223 (“Like iGuide, this alert is in response to a rule, and not in
response to the tuners being unavailable.”).
Like the i-Guide products, the evidence shows that
the Rovi Passport products practice this limitation
because the system displays an alert showing that
“Both tuners are currently busy.” See CX-0003C at Q/A
601; CX-1609 (Passport and TotalGuide xD
Screenshots for the ’512 Patent) at 1, 3.
(c) Verizon FiOS
Rovi argues:
The Verizon FiOS products meet this
limitation whenever the tuned-to signals
of the six tuners in a Verizon FiOS are
being used to record programs and a user
tunes to a different program that is not
being recorded to either view or record
the
tuned-to
signal.
CX-0003C
(Balakrishnan WS) at Q/A 656; CX-1623
(Verizon Screenshots for the ’512 Patent)

793a
at 4. Upon attempting to change the
channel, an alert is displayed stating
that there is a “DVR Conflict.” CX-1623
(Verizon Screenshots for the ’512 Patent)
at 5.
Rovi Br. at 179.
Comcast argues that the Verizon products do not
practice this limitation for the same reasons as the iGuide, because “an alert is not provided ‘in response’
to the tuner unavailability, but when all six tuners are
used to record. . . . Like i-Guide this alert is in response
to a rule, and not in response to the tuners being
unavailable.” Resps. Br. at 223.
Like the i-Guide and Passport products, the
evidence shows that the Verizon products practice this
limitation because the system displays an alert
showing a “DVR Conflict.” See CX-0003C at Q/A 656;
CX-1623 (Verizon Screenshots for the ’512 Patent) at
4.
(d) SuddenLink
Rovi argues:
The SuddenLink products meet this
limitation whenever the tuned-to signals
of the two tuners in a SuddenLink are
being used to record programs and a user
tunes to a different program that is not
being recorded to either view or record
the
tuned-to
signal.
CX-0003C
(Balakrishnan WS) at Q/A 674. Upon
attempting to change the channel to a
new show, an alert is displayed stating
that “Two Recordings Are in Progress.”

794a
CX-0003C (Balakrishnan WS) at Q/A
674.
Rovi Br. at 181.
Comcast argues that the SuddenLink products do
not practice this limitation because “the alert is
provided when both tuners are set to record. . . . This
is a response to a rule [(two tuners recording),] not the
first tuner and second tuner being unavailable.”
Resps. Br. at 226.
As in the case of the i-Guide, Passport, and Verizon
products, the evidence shows that the SuddenLink
products practice this limitation because the system
displays an alert showing that “TWO RECORDINGS
ARE IN PROGRESS.” See CX-0003C at Q/A 674.
(5) Claim 1: “Displaying an alert” and
“opportunity to cancel”
(a) Rovi i-Guide
Rovi argues:
In response to the determination, the
interactive television program guide on
the Rovi i-Guide set-top box outputs an
alert that provides a user with an
opportunity to direct the interactive
television program guide to stop a
function of the second tuner (and even
the “last allocated” tuner) to permit the
second (or last allocated) tuner to
perform the requested tuning operation.
CX-0003C (Balakrishnan WS) at Q/A
583; CX-1593 (i-Guide and TotalGuide
xD Screenshots for the ’512 Patent) at 4.
This alert “provides the user with an

795a
opportunity to direct the interactive
television program guide” to “Swap to
view your other recording,” to “Continue
recording, don’t change channel,” or to
“Stop recording, change channel” (i.e.,
cancel a function of the second (or lastallocated)
tuner)
CX-0003C
(Balakrishnan WS) at Q/A 583. By
choosing the “swap” option, the user can
select the first or last allocated tuner to
cancel (choosing to swap to the last
allocated tuner for canceling would meet
this limitation under [Comcast’s]
construction). Id.
Rovi Br. at 175-76.
Comcast argues that the i-Guide products do not
satisfy this limitation because the i-Guide “only
cancels the function of the foreground tuner, which is
an altogether different algorithm than claimed in the
’512 claims.” Resps. Br. at 222.
The evidence shows that the Rovi i-Guide products
practice this limitation because the system displays an
alert that allows the user to cancel either recording.
See CX-0003C at Q/A 583; CX-1593 (i-Guide and
TotalGuide xD Screenshots for the ’512 Patent) at 4.
(b) Rovi Passport
Rovi argues:
In response to the determination, the
interactive television program guide on
the Rovi Passport set-top box outputs an
alert that provides a user with an
opportunity to direct the interactive
television program guide to stop a

796a
function of the second timer (and even
the “last allocated” tuner) to permit the
second (or last allocated) tuner to
perform the requested tuning operation.
CX-0003C (Balakrishnan WS) at Q/A
602; CX-1609 (Passport and TotalGuide
xD Screenshots for the ’512 Patent) at 3.
This alert “provides the user with an
opportunity to direct the interactive
television program guide” to stop one of
the two recordings or to continue
recording and dismiss the alert by
selecting “Don’t change channels.” CX0003C (Balakrishnan WS) at Q/A 602.
Rovi Br. at 177-78.
Comcast argues that the Passport products do not
practice this limitation because “Rovi has not
demonstrated that Passport implements the algorithm
claimed by the ’512 patent.” Resps. Br. at 223.
The evidence shows that the Rovi i-Guide products
practice this limitation because the system displays an
alert that allows the user to cancel either recording.
See CX-0003C at Q/A 602; CX-1609 (Passport and
TotalGuide xD Screenshots for the ’512 Patent) at 3.
(c) Verizon FiOS
Rovi argues:
In response to the determination, the
interactive television program guide on
the Verizon FiOS set-top box outputs an
alert that provides a user with an
opportunity to direct the interactive
television program guide to stop a
function of the second timer (and even

797a
the “last allocated” tuner) to permit the
second (or last allocated) tuner to
perform the requested tuning operation.
CX-0003C (Balakrishnan WS) at Q/A
657; CX-1623 (Verizon Screenshots for
the ’512 Patent) at 5. This alert “provides
the user with an opportunity to direct the
interactive television program guide” to
stop one of the six recordings or to
continue recording and dismiss the alert
by
selecting
“Exit.”
CX-0003C
(Balakrishnan WS) at Q/A 657.
Rovi Br. at 179-80.
Comcast argues that the Verizon products do not
practice this limitation because Rovi has not identified
the second tuner in this limitation’s analysis. See
Resps. Br. at 225-25.
This is Dr. Balakrishnan’s testimony:
Q657. Moving on to the next
limitation of claim 1 is the step of “in
response to the determination,
displaying an alert that provides a
user with an opportunity to direct
the interactive television program
guide to cancel a function of the
second tuner to permit the second
tuner to perform the requested
tuning operation.” Do you have an
opinion as to whether, when used,
the Verizon FiOS products meet this
limitation?
A657. Yes, the Verizon FiOS products
meet this limitation under both side’s

798a
claim constructions. I also discussed this
step previously with respect to the X1
Guide infringement and I adopt that
discussion here. Consistent with my
testimony
regarding
X1
Guide
infringement, in response to the
determination, the interactive television
program guide on the Verizon FiOS set
top box outputs an alert that is capable
of being shown on a display screen of a
television and which is presented
visually on a display screen that provides
a user with an opportunity to direct the
interactive television program guide to
stop a function of the second tuner (and
even the “last allocated” tuner) to permit
the second (or last allocated) tuner to
perform the requested tuning operation.
“In response to the determination” of the
previous limitation, the Verizon FiOS
displays an alert, as shown in exhibit
CX-1623.005
This alert “provides the user with an
opportunity to direct the interactive
television program guide” to stop one of
the six recordings or to continue
recording and dismiss the alert by
selecting “Exit,” have the expected
outcomes when received by the Verizon
FiOS.
CX-0003C at Q/A 657. These are the screen shots from
CX-1623 at 5-6:

799a

The administrative law judge has determined that
Rovi has not shown the Verizon products practice this
limitation. As Comcast points out, neither Rovi nor Dr.
Balakrishnan have sufficiently identified a second
tuner.
(d) SuddenLink
Rovi argues:
In response to the determination, the
interactive television program guide on
the SuddenLink set-top box outputs an
alert that provides a user with an
opportunity to direct the interactive
television program guide to stop a
function of the second tuner (by
swapping, which includes the “last
allocated” tuner) to permit the second (or
last allocated) tuner to perform the
requested tuning operation. CX-0003C
(Balakrishnan WS) at Q/A 675. This
alert “provides the user with an
opportunity to direct the interactive
television program guide” to stop one of
the six recordings or to continue
recording and dismiss the alert by

800a
selecting “Continue recording.” CX0003C (Balakrishnan WS) at Q/A 675.
Rovi Br. at 181.
Comcast argues that Rovi has not shown that the
SuddenLink products practice this limitation because
the testimony is directed to the Verizon products and
because the SuddenLink products use “an altogether
different algorithm than is used in the ’512 patent . . .
[that] cannot satisfy Respondents’ construction for this
term.” Resps. Br. at 226.
Rovi’s reply does not clarify Dr. Balakrishnan’s
testimony. See Rovi Reply at 64-65.
The evidence shows that the SuddenLink products
practice this limitation because the system displays an
alert that allows the user to cancel either recording.
See CX-0003C at Q/A 674-75. Although Q/A 675
contains obvious errors (the multiple references to the
Verizon products), the screen shots in Q/A 675 are for
the SuddenLink guide, and the SuddenLink guide is
described in the immediately surrounding testimony
(e.g., Q/A 673-74, 76-77). It is more likely than not that
the SuddenLink guides practice this limitation.
(6) Claim 10
(a) Rovi i-Guide
Rovi argues:
In Rovi i-Guide products, the interactive
television program guide is implemented
on the set-top box, which is user
equipment, so there is no dispute that
the “system” and “implemented on the
system” requirements are met even

801a
under Respondents’ constructions. CX0003C (Balakrishnan WS) at Q/A 588.
Rovi Br. at 176.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(G)(1).
The administrative law judge has determined that
the evidence shows that the Rovi i-Guide products
practice this limitation. See CX-0003C at Q/A 588.
(b) Rovi Passport
Rovi argues:
The displayed screen in the Passport
provides the user with a first option to
continue to perform the function of the
second tuner, and with a second option to
cancel the function of the second tuner to
perform the requested tuning operation.
CX-0003C (Balakrishnan WS) at Q/A
604; CX-1609 (Passport and TotalGuide
xD Screenshots for the ’512 Patent) at 3.
Rovi Br. at 178.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(G)(2).
The administrative law judge has determined that
the evidence shows that the Rovi Passport products
practice this limitation. See CX-0003C at Q/A 604; CX1609 (Passport and TotalGuide xD Screenshots for the
’512 Patent) at 3.
(c) Verizon FiOS
Rovi argues:

802a
The displayed screen provides the user
with a first option to continue to perform
the function of the second tuner, and
with a second option to cancel the
function of the second tuner to perform
the requested tuning operation. CX0003C (Balakrishnan WS) at Q/A 659.
Rovi Br. at 180.
Comcast does not rebut this argument specifically.
See generally Resps. Br., Section IX(G)(3) (however,
Comcast’s “second tuner” argument, see Resps. Br. at
224-25, applies here too).
This is Dr. Balakrishnan’s testimony:
Q659. You earlier discussed claim 10
of the ’512 patent with respect to
infringement by X1 Guides. Do you
have an opinion as to whether the
Verizon FiOS products meet the
limitations of claim 10 of the ’512
patent?
A659. Yes. The Verizon FiOS products
meet all of the limitations of claim 10 of
the ’512 patent. As I showed in the screen
shots that I discussed with respect to the
last limitation of claim 1 regarding
canceling a function, the displayed
screen provides the user with a first
option to continue to perform the
function of the second tuner, and with a
second option to cancel the function of
the second tuner to perform the
requested tuning operation.

803a
Dr. Balakrishnan has not sufficiently explained how
the guide allows a user to cancel the function of the
second tuner. Accordingly, the administrative law
judge has determined that Rovi has not shown the
Verizon products practice claim 10.
(d) SuddenLink
Rovi argues:
The displayed screen provides the user
with a first option to continue to perform
the function of the second tuner, and
with a second option to cancel the
function of the second tuner to perform
the requested tuning operation. CX0003C (Balakrishnan WS) at Q/A 677.
Rovi Br. at 181.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(G)(4).
The administrative law judge has determined that
the evidence shows that the SuddenLink products
practice claim 10. See CX-0003C at Q/A 677.
b) Claim 13
Claim 13 requires the guide to be “implemented on
a system.” See JX-0006 at 19:41-59.
(a) Rovi i-Guide
Rovi argues:
In Rovi i-Guide products, the interactive
television program guide is implemented
on the set-top box, which is user
equipment, so there is no dispute that
the “system” and “implemented on the
system” requirements are met even

804a
under Respondents’ constructions. CX0003C (Balakrishnan WS) at Q/A 588.
Rovi Br. at 176.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(G)(1).
The administrative law judge has determined that
the evidence shows that the Rovi i-Guide products
practice this limitation. See CX-0003C at Q/A 588.
(b) Rovi Passport
Rovi argues:
In the Rovi Passport products, the
interactive television program guide is
implemented on the set-top box, which is
user equipment, so there is no dispute
that the “system” and “implemented on
the system” requirements are met even
under Respondents’ constructions. CX0003C (Balakrishnan WS) at Q/A 607.
Rovi Br. at 177.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(G)(2).
The administrative law judge has determined that
the evidence shows that the Rovi Passport products
practice this limitation. See CX-0003C at Q/A 607.
(c) Verizon FiOS
Rovi argues:
In the Verizon FiOS products, the
interactive television program guide is
implemented on the set-top box, which is
user equipment, so there is no dispute

805a
that the “system” and “implemented on
the system” requirements are met even
under Respondents’ constructions. [CX0003C] at Q/A 662.
Rovi Br. at 180.
Comcast argues that Rovi has not shown that the
guides are “implemented on the system.” Resps. Br. at
225.
Rovi replies: “This is not true—Rovi has presented
this evidence. See Compls. Br. at 178-80.” Rovi Reply
at 65.
This is Dr. Balakrishnan’s testimony:
Q662. Do you have an opinion
regarding the “system” limitation
for the Verizon FiOS products?
A662. [

]

CX-0003C at Q/A 662.
Dr. Balakrishnan has not sufficiently explained
how the guide is implemented on the system/set-top
box. Accordingly, the administrative law judge has
determined that Rovi has not shown the Verizon
products practice this limitation.
(d) SuddenLink
Rovi argues:
In the SuddenLink products, the
interactive television program guide is
implemented on the set-top box, which is
user equipment, so there is no dispute
that the “system” and “implemented on
the system” requirements are met even

806a
under [Comcast’s] constructions. CX0003C (Balakrishnan WS) at Q/A 680.
Rovi Br. at 181-82.
Comcast does not rebut this argument. See
generally Resps. Br., Section IX(G)(4).
The administrative law judge has determined that
the evidence shows that the SuddenLink products
practice this limitation. See CX-0003C at Q/A 680-81.
c) Claim 22
Rovi jointly addresses claims 10 and 22 for the
alleged domestic industry products. See Rovi Br.,
Section VI(J)(1). Comcast does not directly rebut Rovi’s
arguments about claim 22. See generally Resps. Br.,
Section IX(G); Resps. Reply, Section VII(G). Thus, the
administrative law judge finds claim 22 is practiced by
the i-Guide, Passport, and SuddenLink products for
the same reasons claim 10 is practiced. The
administrative law judge finds that Rovi has not
shown the Verizon products practice claim 22 for the
same reasons provided for claim 10.
7. Validity
a) Obviousness
Comcast’s expert analyzes the
alphanumeric references, as follows:

claims

[1a] 1. A method for resolving a conflict
when multiple operations are
performed using multiple tuners
controlled
by
an
interactive
television program guide, the
method comprising:

with

807a
[1b] receiving a request to perform a
tuning operation;
[1c] determining that neither a first
tuner nor a second tuner are
available to perform the requested
tuning operation, wherein the first
tuner and the second tuner are both
capable of performing the tuning
operation; and
[1d] in response to the determination,
displaying an alert that provides a
user with an opportunity to direct
the interactive television program
guide to cancel a function of the
second tuner to permit the second
tuner to perform the requested
tuning operation.
See RX-0004C (Bederson WS) at Q/A 116; JX-0006 at
18:35-47.
Claim 13 follows:
[13a] 13. A system for resolving a conflict when
multiple operations are performed using
multiple tuners controlled by an
interactive television program guide, the
system comprising:
[13b] a first tuner;
[13c] a second tuner; and
[13d] an interactive television program guide
implemented on the system, wherein the
interactive television program guide is
operative to:

808a
[13e] receive a request to perform a tuning
operation;
[13f] determine that neither the first tuner nor
the second tuner are available to perform
the requested tuning operation, wherein
the first tuner and the second tuner are
both capable of performing the tuning
operation; and
[13g] in response to the determination, display
an alert that provides a user with an
opportunity to direct the interactive
television program guide to cancel a
function of the second tuner to permit the
second tuner to perform the requested
tuning operation.
See RX-0004C (Bederson WS) at Q/A 116; JX-0006 at
19:41-59. Given the similarities between the claims
(neither Rovi nor Comcast has pointed to material
evidence that is specific to the system claim or the
method claim), and because an analysis of claim 13
will cover all of the limitations of claim 1, the
administrative law judge has discussed claim 13 only.
(1) Sano (RX-0152) in combination with
the general knowledge of a POSITA,
and/or LaJoie (RX-0063), Prevue
Guide (RX-0073), Alexander (RX0155), Nagano (RX-0153), or Marsh
(RX-0064)
(a) Limitations 13a-d
Comcast argues, for limitations 13a-d, that
Sano teaches the use of a STB consisting
of multiple tuners (“M tuners”), which is
controlled by an IPG. RX-0004C

809a
(Bederson WS) at Q/A 123, 70-76. In
particular, figures 4 and 5 of Sano shows
the multiple tuners, which can be a “first
tuner” and “second tuner.” Id. at 74-75.
And, the STB is controlled by an
electronic program guide. Id. at 73. This
electronic program is located on the STB,
as was conventional at the time of Sano,
and therefore was located on user
equipment
as
required
under
Respondents’ construction of “an IPG on
the system . . .”
Resps. Br. at 210.
Rovi does not rebut this argument. See generally
Rovi Br., Section VI(K)(3)(b)(i).
The administrative law judge has determined that
the evidence shows that Sano teaches these
limitations. See RX-0004C (Bederson WS) at Q/A 7076, 119-124.
(b) Limitation 13e
Comcast’s entire argument is “Sano teaches
receiving a request for a tuning operation, such as
watching a program or setting a recording. RX-0004C
at Q/A 73.” Resps. Br. at 210. Rovi does not rebut this
argument. See generally Rovi Br., Section
VI(K)(3)(b)(i).
The administrative law judge has determined that
the evidence shows that Sano teaches this limitation.
See RX-0004C (Bederson WS) at Q/A 73 (citing RX0152 at 11:42-51).
(c) Limitation
13f:
“determining
neither tuner is available”

810a
Comcast argues:
Sano teaches “determining that neither
a first tuner nor a second tuner are
available to perform the requested
tuning operation.” In particular, Sano
teaches that in the event the user
attempts to set more recordings than
there are tuners, a conflict results. As
discussed below (next limitation), Sano
further teaches providing an alert in the
case of the conflict.
In addition, Sano teaches that all of the
M tuners in the STB are capable of
tuning to television program in the
broadcast stream for recording. RX0004C (Bederson WS) at Q/A 74-75. This
satisfies
the
limitation
requiring
“wherein the first tuner and the second
tuner are both capable of performing the
tuning operation.”
Resps. Br. at 210.
Rovi argues that “Sano only discloses timer conflicts
and therefore does not” teach “determining that
neither” tuner is available. Rovi Br. at 188.
RX-0004C (Bederson WS) at Q/A 76 points to Sano
at 12:53-63, which discusses determining that
multiple tuners are unavailable. Sano teaches:
In the case of the digital broadcast
recording and reproducing apparatus of
FIG. 5, the number of channels that can
be
arbitrarily
selected
and
simultaneously recorded is three.
Therefore, if the number of channels

811a
more than three is set in the same
time period in the timer recording
setting, it is impossible to record all
the
set
channels.
Such
a
misoperation can be prevented by
preparing so as to provide an alarm
such as a beep tone or a warning
display when the number of set
channels exceed the maximum
number of channels that can be
simultaneously recorded in the timer
recording setting. This alarm can be
used also as a warning provided when
the sum total of the times of all the set
programs exceed the remaining time of
the magnetic tape.
RX-0004C (Bederson WS) at Q/A 76 (emphasis
provided by Dr. Bederson). The administrative law
judge has determined that this evidence shows that
Sano teaches this limitation. See id.
(d) Limitation 13g: “displaying an
alert” and “opportunity to cancel”
Comcast argues:
Sano teaches that “in response to the
determination, displaying an alert.” RX0004C (Bederson WS) at Q/A 76. In
particular, in the event that a user
attempts to record more programs than
tuner, an alert such as a warning display
is provided. Id. Sano does not explicitly
teach an alert that “provides a user with
an opportunity to direct the interactive
television program guide to cancel a

812a
function of the second tuner to permit
the second tuner to perform the
requested tuning operation.” But this
limitation is satisfied by each of the
LaJoie, Alexander, Prevue Guide, and
Nagano references, each of which
teaches such as an alert. Id. at Q/A 44,
135, 303-304, 309.
In particular, the LaJoie reference
teaches an alert screen that allows the
user to cancel the function of a tuner,
such as canceling’ a recording. Id. at Q/A
33, 43 (e.g., annotated Fig. 12); RX-0063
at Fig. 12. Similarly, Alexander teaches,
in the case of a tuner conflict, an alert
that allows the user to cancel a
recording, or adjust the length of
recording, to resolve the conflict. RX0004C at Q/A 98; RX-0155 at 12:5313:25. The Prevue Guide also teaches an
alert upon detection of a conflict between
two recordings; the alert asks the user
“[w]ould you like to replace the prior
recording with this new recording,”
allowing the user to cancel one of the
tuner operations to accommodate the
new request. RX-0004C at Q/A 86; RX0073C.0190. Nagano also detects a
conflict between recordings (RX-0004C
at Q/A 109), and provides an alert with a
cursor that allows the user to adjust the
recordings to resolve the conflict, and a
“clear” key to cancel one of the recordings
to resolve the conflict (Id. at Q/A 110111); see also RX-0153 at 16a-c; 10:6-18.

813a
Resps. Br. at 210-11.
Rovi argues that LaJoie, the Prevue Guide,
Alexander, and Nagano teach “timer conflicts” rather
than “tuner conflicts.” See Rovi Br. at 189-92.
The administrative law judge has determined that
LaJoie, the Prevue Guide, Alexander, and Nagano
each teach displaying an alert that provides the user
with an opportunity to cancel a tuner function.
LaJoie teaches an alert (272, in Fig. 12) that allows
the user to decide between new and old selections. See
RX-0004C (Bederson WS) at Q/A 43; RX-0063 at Fig.
12. Dr. Bederson provided the following annotated
figure:

Id.
Alexander also teaches an alert that allows the user
to decide between two selections. See RX-0004C
(Bederson WS) at Q/A 98; RX-0115 at 12:53-13:25. In
particular, in a section entitled, “Record Instruction
Conflict Resolution,” Alexander describes:

814a
The EPG’s Record Function recognizes
conflicts in viewer record instructions. In
one embodiment, the EPG’s Record
Function prompts the viewer to resolve
the conflict. For instance, in the Record
Function, the EPG would accept viewer
instructions to record a particular
program. The EPG compares the newly
received record instruction to as-yet
incompletely executed, or as yet
unexecuted, record instructions in
the Record List. If the EPG detects an
overlap in date, time and duration
between the newly received instruction
on the one hand and one or more of the
remaining record instructions in the
Record List, the EPG formats a message
to the viewer describing the conflict. The
message describes to the user the newly
received instruction to record a
particular program and the conflicting
record instructions in the Record List. In
Record Function, the EPG will prevent
entry of conflicting instructions into the
Record List. The EPG will require that
the viewer revise the record
instructions
to
eliminate
the
conflict.
See id. (emphasis added).
The Prevue Guide also teaches an alert upon
detection of a conflict between two recordings; the alert
asks the user “[w]ould you like to replace the prior
recording with this new recording,” allowing the user
to cancel one of the tuner operations to accommodate

815a
the new request. See RX-0004C (Bederson WS) at Q/A
86; RX-0073C.0190. This is an annotated figure from
Dr. Bederson:

816a

Id.
Nagano also detects a conflict between recordings,
and displays an alert about that conflict, as shown by
the flowchart in Fig. 13A. See RX-0004C (Bederson
WS) at Q/A 109. Nagano, Figs. 15B 16A-C, and 17E,
shows that the conflicted request can be cancelled. Id.
at Q/A 110-11; RX-0153 at 10:6-18 (the “Clear Key”
allows the user “to erase the picture recording
reservation of the channel B.”).
The Marsh reference, RX-0064, is not discussed in
the text of Comcast’s brief. See generally Resps. Br.,
Section IX(F)(2)(f) (the heading lists Marsh, but the
reference is not discussed).
Comcast’s brief, however, does not contain any
explanation of why a person of ordinary skill in the art
would combine these references with Sano. See
generally Resps. Br., Section IX(F)(2)(f). Its Reply—for
all of its obviousness combinations—provides three
sentences:

817a
Rovi never addresses the most basic
point. No matter how many tuners you
have (i.e., n tuners), a conflict will arise
when you have one more request than
the number of tuners (i.e., n+1 requests).
RX-0004C (Bederson WS) at Q/A 303.
This basic principal would lead any
POSITA to combine Sano or Chun with
each of the other conflict detection
references (LaJoie, Prevue, Alexander,
Nagano, Marsh). Id.
Resps. Reply at 76. This is the cited testimony:
Q303. Are there examples of these
standard engineering techniques in
the prior art?
A303.
Yes.
For
example,
the
determination of a conflict and provision
of an alert message (i.e., display), was a
well-known technique. This was a wellknown technique not only with respect to
electronic program guides, as disclosed
in the LaJoie, Nagano, Alexander, and
Prevue Guide references, but also with
respect to electronics and systems with
displays, such as the Windows 95
operating system. Combining these
techniques with the teaching of multiple
tuners would yield predictable results.
As discussed above, “determining a
conflict” and “providing an alert” do not ‘
change in any material way as the
number of tuners increases. Each tuner
still has a conflict between two existing
requests, and the provision of an alert

818a
requires the display of a picture to the
screen in either the single or multiple
tuner scenario. And although the claims
as recited only require an alert, even the
additional unrecited step of an actual
resolution of the conflict (i.e., allocation
of the timers), the solution is well
understood, and will provide predictable
results, because it is a basic math
problem known to persons of ordinary
skill in the art.
RX-0004C (Bederson WS) at Q/A 303. This testimony
does not explain why a person of ordinary skill in the
art would modify the primary reference, Sano, in the
first place. See Plantronics, 724 F.3d at 1354 (“Where,
as here, the necessary reasoning is absent, we cannot
simply assume that ‘an ordinary artisan would be
awakened to modify prior art in such a way as to lead
to an obviousness rejection.’”). 151
Accordingly, the administrative law judge has
determined that Comcast has not met its burden of
showing that claim 13, as a whole, would have been
obvious in view of the above references, because it has
not provided a sufficient rationale for combining the
references.
(e) Claims 10 and 22
Comcast argues:
Sano teaches “wherein the displaying the
alert comprises displaying a display
screen using the interactive television
program guide.” RX-0004C (Bederson
151

See n.92, supra.

819a
WS) at Q/A 76. In particular, in the event
that a user attempts to record more
programs than tuners, an alert such as a
warning display is provided. Id. Sano
does not explicitly teach an alert that
“provides the user with a first option to
continue to perform the function of the
second tuner, and with a second option to
cancel the function of the second tuner to
perform the requested tuning operation.”
But this limitation is satisfied by each of
the LaJoie, Alexander, Prevue Guide,
and Nagano references, each of which
teaches such as an alert. Id. at Q/A 44,
135, 303-304, 309; supra § IX.F.2.f.iv
(describing teachings of the combination
references with respect to Element D of
Claim 1 and Element G of Claim 13).
Resps. Br. at 211-12.
Rovi does not rebut this argument. See generally
Rovi Br., Section VI(K)(3)(b)(i).
The administrative law judge has determined that
the evidence shows that Sano teaches the subject
matter of claims 10 and 22. See RX-0004C (Bederson
WS) at Q/A 76, 135, 303-04, 309.
(2) Prevue
Guide
(RX-0073)
in
combination
with
the
general
knowledge of a POSITA, and/or Sano
(RX-0152) or Chun (RX-0158)
For the Prevue Guide, Comcast argues:
The Prevue Guide was known before,
and offered for sale more than one year
before the priority date of the ’512

820a
patent, and qualifies as prior art under
§§ 102(a) or 102(b). RX-0073C; RX-0004C
at Q/A 87. In addition, the Prevue Guide
was developed before the earliest priority
date of the ’512 patent and is prior art
under § 102(g)(2). Id.
Resps. Br. at 209.
Rovi argues:
Respondents have not demonstrated by
clear and convincing evidence that the
Prevue Guide is prior art to the ’512
Patent. Respondents rely on two pieces
of evidence to attempt to demonstrate
that the Prevue Guide is prior art to the
’512 Patent:
(1) Mr. Lemmons’s deposition testimony
from April 7, 1995 (RX-0646C (Lemmons
Dep. Trans.) at 90:7-14); and (2) the
alleged
Prevue
Guide
product
documentation, RX-0073C (TV Guide
Prevue
Networks
Requirements
Specification), which has a 1996
copyright date. RX-0004C (Bederson
WS) at Q/A 88-89. Neither provides clear
and convincing evidence that the Prevue
Guide is prior art to the ’512 patent. Mr.
Lemmons’s 1995 testimony does not
establish what features the Prevue
Guide had in 1995 and the 1996
documentation
was
explicitly
a
“confidential”
document
that
Respondents have not proven was
publicly known or available or published.
Furthermore, it merely contains a set of

821a
requirements that Respondents have not
demonstrated was used in any public
implementation.
CX-1902C
(Balakrishnan RWS) at Q/A 108.
Rovi Br. at 190.
Comcast replies:
Rovi inexplicably argues that the 1995
testimony of Mr. Lemmons regarding the
Prevue Guide in 1995, fails to establish
the features of the Prevue Guide. Such
contemporaneous testimony is highly
probative. CEATS, Inc. v. Continental
Airlines, Inc., 526 Fed. App’x 966, 971
(“[d]ocumentary or physical evidence
that is made contemporaneously with
the inventive process provides the most
reliable proof that the inventor’s
testimony has been corroborated”)
(citation
omitted).
Mr.
Lemmons
testimony from 1995, when the salient
features of Prevue were implemented in
the Full Service Network in Orlando
establishes the Prevue Guide as prior
art. RX-0004C (Bederson WS) at Q/A 82.
The 1996 documentation, which was
authored in part by the lead named
inventor of the ’512 patent, details
functionality fully consistent with Mr.
Lemmons’ testimony and is fully
corroborative. Id. at Q/A 80-86.
Resps. Reply at 75.
Rovi replies that “Respondents’ citation to Dr.
Bederson’s conclusion is irrelevant; Dr. Bederson’s

822a
unsupported conclusion regarding the legal issue of
whether a reference or use constitutes prior art is not
based on his expert opinion and is not based on any
personal knowledge.” Rovi Reply at 70.
The administrative law judge has determined that
Comcast has not shown, through clear and convincing
evidence, that the Prevue Guide (as represented in RX0073) is prior art.
This is the portion of Dr. Bederson’s testimony that
Comcast cites:
Q87. Is the Prevue Guide prior art to
the ’512 patent?
A87. Yes. I understand that the Prevue
Guide qualifies as prior art to the ’512
patent at least under 35 U.S.C. §
102(g)(2). The Prevue Guide, along with
its salient features, as documented, was
also offered for sale, and should be prior
art under 35 U.S.C. § 102(a) or (b). This
all occurred in the 1995 to 1996
timeframe, before June 16, 1998, which
is the earliest effective filing date Rovi
has claimed for any asserted claim of the
’512 patent.
RX-0004C (Bederson WS) at Q/A 87. This testimony is
conclusory, is not based on personal knowledge, and
does not implicate the specialized knowledge that
qualified Dr. Bederson as an expert. See, e.g., RX0004C (Bederson WS) at Q/A 10-15 (discussing expert
qualifications). Further, Comcast does not explain how
Mr. Lemmons’s 1995 testimony (from a different legal
matter) supports its claim that a document from 1996
was publically available, particularly where the

823a
document is labeled “Confidential” in the footer and
indicates it was created in May 1996 (thus post-dating
the 1995 testimony). See RX-0073C at 11 (the earliest
date associated with the document is May 27, 1996).
Further, Comcast has not cited evidence such as sales
receipts or purchase orders of the Prevue Guide.
Accordingly, Comcast has not shown that the
Prevue Guide is prior art. However, in the event that
it is determined the Prevue Guide is prior art, the
administrative law judge has analyzed Comcast’s
argument below.
(a) Limitations 13a-d
Comcast argues that the Prevue Guide teaches
limitations 13a, 13b, and 13d; it relies on Sano or Chun
to teach multiple tuners, limitation 13c. Resps. Br. at
212.
Rovi does not rebut this argument. See generally
Rovi Br., Section VI(K)(3)(b)(ii) (arguing that Prevue
does not teach multiple tuners), Section VI(K)(3)(b)(i)
(arguing that Sano does not teach tuner conflicts and
the required alert); Rovi Reply, Section I(2)(c)(ii) (Rovi
disputes the motivation to combine).
The administrative law judge has determined that
the evidence shows that Prevue and Sano teach these
limitations. See RX-0004C (Bederson WS) at Q/A 7475 (Sano), 78-79, 81-82, 86, 168.
(b) Limitation 13e
Comcast argues:
The Prevue Guide teaches “receiving a
request for a tuning operation,” such as
watching a program or setting a

824a
recording. RX-0004C (Bederson WS) at
Q/A 81.
Resps. Br. at 213.
Rovi does not rebut this argument. See generally
Rovi Br., Section VI(K)(3)(b)(ii).
The administrative law judge has determined that
the evidence shows that Prevue Guide teaches this
limitation. See RX-0004C (Bederson WS) at Q/A 81.
(c) Limitation 13f
Comcast argues:
The Prevue Guide recognized conflicts
between the channels currently being
used by the user, and previously set
viewings or recordings, determining
when a tuner conflict occurs. RX-0004C
(Bederson WS) at Q/A 82. The conflict
detection system of the Prevue Guide
could have easily been modified by a
POSITA to operate in a STB with “a first
tuner” and “a second tuner,” or multiple
tuners. Id. at Q/A 83-85; supra §
IX.F.2.g.i (discussing modification to
multi-tuner system with respect to
Element A). Even if this were not the
case, it would have been obvious to a
POSITA to combine the teachings of
Preyue Guide with the teachings of Sano
or Chun, each which teach the use of
multiple tuners within a STB, including
a “first tuner” and a “second tuner.” RX0004C at Q/A 74-75 (Sano), 114 (Chun),
302, 307, 309 (motivations to combine).
In addition, Sano teaches that all of the

825a
M tuners in the STB are capable of
tuning to television program in the
broadcast stream for recording. Id. at
Q/A 74-75. This satisfies the limitation
requiring “wherein the first tuner and
the second tuner are both capable of
performing the tuning operation.”
Resps. Br. at 213.
Rovi argues that Prevue does not teach a second
tuner and that it discloses timer conflicts, not tuner
conflicts. Rovi Br. at 189 (citing CX-1902C
(Balakrishnan RWS) at Q/A 117); see also Rovi Reply
at 71. This is Dr. Balakrishnan’s testimony:
Q117. What limitation or limitations
of the asserted claims of the ’512
patent are missing in the Prevue
Guide?
A117. The Prevue Guide is missing all of
the limitations of the asserted claims of
the ’512 patent.
The claims require multiple tuners,
which the Prevue Guide lacks. Thus, the
Prevue Guide cannot meet the
requirement of “determining that
neither a first tuner nor a second tuner
are available to perform the requested
tuning operation,” cannot meet the
requirement of displaying an alert “in
response to the determination,” and
cannot meet the requirement of
“displaying an alert that provides the
user with the opportunity to direct the
interactive television program guide to

826a
cancel a function of the second tuner to
permit the second tuner to perform the
requested tuning operation.”
Further, the Prevue Guide did not detect
“tuning conflicts” based on requests for a
tuning operation. Instead, the Prevue
Guide detects conflicts based on prior
timer settings.
By disclosing only a single tuner capable
of performing a tuning operation, the
Prevue Guide is similar to LaJoie, which
also disclosed only a single tuner capable
of performing a tuning operation and
which did not detect tuning operation
conflicts. The examiner found the claims
of the ’512 patent to be patentable over
LaJoie in view of Kim and Lee, which did
disclose two tuners.
CX-1902C (Balakrishnan RWS) at Q/A 117.
Dr. Bederson testified that the Prevue Guide
recognized tuner conflicts and that a person of
ordinary skill knew of multiple tuners, would have
been able to modify Prevue to accommodate multiple
tuners, and that the modification would not have been
complicated. See RX-0004C (Bederson WS) at Q/A 8286, 135, 302, 307, and 309. Indeed, one of ordinary skill
in the art would have needed to modify Prevue when
porting it on a set-top box with multiple tuners.
The administrative law judge has determined that
the evidence shows that a person of ordinary skill
would have been able to modify Prevue for a two-tuner
set-top box, such that Prevue and Sano teach and

827a
satisfy this limitation. See RX-0004C (Bederson WS)
at Q/A 82-86, 135, 302, 307, and 309.
(d) Limitation 13g
Comcast argues, in pertinent part, that “[t]he
conflict resolution system of the Prevue Guide could
have easily been modified by a POSITA to operate in a
STB with ‘a second tuner,’ or multiple tuners.” Resps.
Br. at 214. Comcast then cites its earlier arguments
about Prevue and multi-tuner systems. See id.
Comcast relies upon the same evidence it relied upon
for limitation 13f.
Rovi has argued that Prevue do not teach cancelling
“a function of the second tuner” as part of its omnibus
argument for Comcast’s arguments involving Prevue
as a primary reference. Rovi Br. at 190. Rovi has not
cited any evidence beyond CX-1902C (Balakrishnan
RWS) at Q/A 117, which is copied above.
The administrative law judge has determined that
the evidence shows that a person of ordinary skill
would have been able to modify Prevue for a two-tuner
set-top box, and that the person of ordinary skill would
have needed to make the modification when porting
Prevue to a two-tuner set-top box, such that Prevue
and Sano teach and satisfy this limitation. See RX0004C (Bederson WS) at Q/A 82-86, 135, 302, 307, and
309. It particular, the administrative law judge finds
that it would have taken only ordinary skill to modify
Prevue’s alert to cancel a function of the second tuner.
Id. at Q/A 85.
Accordingly, if Prevue is found to be prior art—
which the administrative law judge previously
determined it was not—then the administrative law
judge has determined that claim 13 would have been

828a
obvious over Prevue in light of Sano. Further,
inasmuch as the parties did not present separate
arguments for claim 1, the administrative law judge
has also determined that claim 1 would have been
obvious over Prevue in light of Sano.
(e) Claims 10 and 22
Comcast argues, in pertinent part, that:
When a conflict has been detected, the
Prevue Guide teaches “displaying a
display screen using the interactive
program guide that provides the user
with a first option to continue to perform
the function of the [] tuner, and with a
second option to cancel the function of
the [] tuner to perform the requested
tuning operation.” In order to resolve a
potential conflict, the Prevue Guide
displays to the user the option of either
continuing to watch the present program
or maintaining the previously set
viewing/recording.
Id.
RX-0004C
(Bederson WS) at Q/A 82. The
commercial documentation of the Prevue
Guide made clear that such conflict
resolution was performed through a user
screen and in response to user inputs.
RX-0004C (Bederson WS) at Q/A 82; RX0073C (Prevue Guide Documentation) at
.0190 (screen stated “[w]ould you like to
replace the prior recording with this new
recording,” allowing the user to cancel
one of the tuner operations to
accommodate the new request).

829a
The conflict resolution system of the
Prevue Guide could have easily been
modified by a POSITA to operate in a
STB with “a second tuner,” or multiple
tuners. Id. at Q/A 83-85; supra §
IX.F.2.g.i (discussing modification to
multi-tuner system with respect to
Element A). Even if this were not the
case, it would have been obvious to a
POSITA to combine the teachings of the
Prevue Guide with the teachings of Sano
or Chun, each which teach the use of
multiple tuners within a STB, including
a “second tuner.” RX-0004C (Bederson
WS) at Q/A 74-75 (Sano), 114 (Chun),
302, 307, 309 (motivations to combine).
Resps. Br. at 211-12.
The testimony that Comcast cites does not clearly
address claim 10 or 22. Accordingly, the
administrative law judge has determined that
Comcast has not met its burden of showing claims 10
and 22 would have been obvious to a person having
ordinary skill in the art.
(3) Alexander (RX-0155) in combination
with the general knowledge of a
POSITA, or in combination with Sano
(RX-0152) or Chun (RX-0158), or in
further combination with the Prevue
Guide (RX-0073) or Nagano (RX0153)
(a) Limitations 13a-d
Comcast argues:

830a
Alexander teaches the use of an IPG
used on STBs, which can be used to
control the scheduling and recording of
programs. RX-0004C (Bederson WS) at
Q/A 95-97, 102. Using the IPG,
Alexander teaches that tuner conflicts
can be detected, displayed to the user,
and then resolved through instructions
from the user to, e.g., revise the record
instructions to eliminate the conflict. Id.
at Q/A 98. In addition, Alexander taught
the use of a first tuner and a second
tuner within the STB. Id. at Q/A 99-102.
However, to the extent that the second
tuner of Alexander is only used for
picture-in-picture viewing, it would have
been obvious to combine the teachings of
Alexander with the teachings of Sano or
Chun, each which teach the use of
multiple tuners within a STB, including
a “second tuner.” Id. at Q/A 74-75 (Sano),
114 (Chun), 302, 307, 309 (motivations to
combine). In addition, Alexander could
further be combined with the conflict
resolution systems of the Prevue Guide
or Nagano, each of which teach conflict
resolution system. Id. at Q/A 77-89 (the
Prevue Guide); 103-111 (Nagano); 303304, 309 (motivations to combine).
Resps. Br. at 215.
Rovi argues that Alexander lacks multiple tuners
and tuner conflicts. Rovi Br. at 190. Rovi notes that
one of the two timers in Alexander was for picture-inpicture service. Id. Rovi further challenges Comcast’s
contention that one of ordinary skill in the art would

831a
have been motivated to combine the references. Id. at
193-94.
The administrative law judge has determined that
Alexander does not teach two tuners, as described and
claimed in the ’512 Patent. It is not clear that the
second timer described in Alexander was capable of
“performing [a] tuning operation,” such as recording a
show. Further, Comcast has not shown, through clear
and convincing evidence, that one of ordinary skill in
the art would have combined the references as
Comcast now asserts. As an initial matter, the
testimony that Comcast cites, e.g., RX-0004C
(Bederson WS) at Q/A 95-102, 303-304, 309 does not
clearly address combinations involving Alexander. For
instance, Q/A 95-102 reproduce excerpts from
Alexander, Q/A 74-74 and 114 are background
questions on Sano and Chun (Alexander is never
mentioned), and Q/A 302, 307, and 309 are generic
answers to questions about combining all of “the
various references discussed” (see Q/A 298). A
combination involving Alexander is not discussed in
this testimony. Accordingly, the testimony does not
explain why a person of ordinary skill in the art would
modify the primary reference, Alexander, in the first
place. See Plantronics, 724 F.3d at 1354 (“Where, as
here, the necessary reasoning is absent, we cannot
simply assume that ‘an ordinary artisan would be
awakened to modify prior art in such a way as to lead
to an obviousness rejection.’”). 152
Consequently, the administrative law judge has
determined that Comcast has not met its burden of
showing that claim 13, as a whole, would have been
152

See n.92, supra.

832a
obvious in view of the above references, because it has
not provided a sufficient rationale for combining the
references.
(b) Limitation 13e
Comcast argues:
Alexander teaches an IPG on a STB to
receiving a request for a tuning
operation, such as displaying or
recording a programming. RX-0004C
(Bederson WS) at Q/A 95-97.
Resps. Br. at 216.
Rovi does not rebut this argument. See generally
Rovi Br., Section VI(K)(3)(b)(iii).
The administrative law judge has determined that
the evidence shows that Alexander teaches this
limitation. See RX-0004C (Bederson WS) at Q/A 95-97.
(c) Limitation 13f
Comcast argues:
Alexander teaches the determination of
timer conflicts through its electronic
program guide, which recognizes
conflicts between recordings set by the
user. RX-0004C (Bederson WS) at Q/A
98. While Alexander does not specifically
teach “determining that neither a first
tuner or a second timer are available. . .”
it would have been obvious to a POSITA
to modify the conflict detection system of
Alexander to a STB with “a first tuner”
and “a second tuner,” or multiple tuners,
all capable of “perform[ing] the
requested tuning operation.” Id. at Q/A

833a
219. Even if this were not the case, it
would have been obvious to a POSITA to
combine the teachings of Alexander with
the teachings of Sano or Chun, each
which teach the use of multiple tuners
within a STB, including a “first tuner”
and a “second tuner.” RX-0004C at Q/A
74-75 (Sano), 114 (Chun), 302, 307, 309
(motivations to combine). In addition,
Sano teaches that all of the M tuners in
the STB are capable of tuning to
television program in the broadcast
stream for recording. RX-0004C at Q/A
74-75. This satisfies the limitation
requiring “wherein the first tuner and
the second tuner are both capable of
performing the tuning operation.”
Resps. Br. at 216. Dr. Bederson’s testimony at Q/A 219
follows:
Q218. Let me direct your attention
to the element [c] of claim 1. Did
you form an opinion as to whether
the “determining that neither a first
tuner nor second tuner are
available” where “both tuners are
capable of performing the function”
limitation is met by Alexander?
A218. Yes.
Q219. What is your opinion in this
regard?
A219. It is my opinion that Alexander
renders obvious the requirements of this
limitation.

834a
As I have previously testified in response
to QUESTIONS 90-102, Alexander
teaches a multi-tuner system that
performs tuning operations in a system
for receiving and recording broadcast
programs. Alexander teaches two tuners
to receive and display a first video and a
picture-in-picture video. Alexander also
incorporates by reference WO 96/07270
which states that two tuners are
required to provide the disclosed picturein-picture feature. To the extent that the
PIP tuner is not a “second tuner,” it
would have been obvious to one of
ordinary skill in the art to modify the
teachings of Alexander to incorporate a
“first tuner” and a “second tuner.” One
of ordinary skill in the art would
have also know that the system of
Alexander could be combined with a
system that used multiple tuners,
such as Sano or Chun. In addition,
Alexander teaches an interactive
program guide which recognizes conflicts
and provides an alert to the user.
RX-0004C (Bederson WS) at Q/A 218-19 (emphasis
added on relevant portion). This testimony is
conclusory and does not explain why a person of
ordinary skill in the art would modify the primary
reference, Alexander, in the first place. See
Plantronics, 724 F.3d at 1354 (“Where, as here, the
necessary reasoning is absent, we cannot simply
assume that ‘an ordinary artisan would be awakened

835a
to modify prior art in such a way as to lead to an
obviousness rejection.’”).153
Accordingly, the administrative law judge has
determined that Comcast has not met its burden of
showing that claim 13, as a whole, would have been
obvious in view of the above references, because it has
not provided a sufficient rationale for combining the
references.
(d) Limitation 13g
Comcast argues that this limitation is met based
upon the evidence cited for limitations 13a-f. See
Resps. Br. at 216-17 (citing RX-0004C (Bederson WS)
at Q/A 97-98, 219, 74-75, 114, 302, 307, 309). Comcast
then argues that it would have been obvious for a
person of ordinary skill to further combine the Prevue
Guide or Nagano to satisfy this limitation. Id. at 217
(citing RX-0004C (Bederson WS) at Q/A 222). Dr.
Bederson testified:
Q221. Let me direct your attention
to element [d] of claim 1. Did you
form an opinion as to whether the
“displaying an alert” that “provides
an opportunity to direct the
interactive television program to
cancel a function of the second
tuner”
limitation
is
met
by
Alexander?
A221. Yes.
Q222. What is your opinion in this
regard?
153

See n.92, supra.

836a
A222. It is my opinion that Alexander
renders obvious element [d] of the ’512
patent. Alexander teaches that when a
conflict is detected, the system will
provide a warning to the user and
provides the ability to resolve the
conflict. Additionally, one of ordinary
skill in the art would understand that
the teachings of Alexander could be
combined with either the teachings of
the Prevue Guide or Nagano, which
disclose the resolution of tuner conflicts.
Dr. Bederson’s testimony that the references “could
be” combined does not explain why one of ordinary
skill in the art would combine them.
Accordingly, the administrative law judge has
determined that Comcast has not met its burden of
showing that claim 13, as a whole, would have been
obvious in view of the above references, because it has
not provided a sufficient rationale for combining the
references.
(e) Claims 10 and 22
Comcast argues:
When a conflict has been detected,
Alexander teaches “displaying a display
screen using the interactive program
guide that provides the user with a first
option to continue to perform the
function of the [] tuner, and with a
second option to cancel the function of
the [] tuner to perform the requested
tuning operation.” RX-0004C (Bederson
WS) at 97-98; supra IX.F.2.h.iv. The

837a
conflict resolution system of Alexander
could have easily been modified by a
POSITA to operate in a STB with “a
second tuner,” or multiple tuners. Id. at
Q/A 219. Even if this were not the case,
it would have been obvious to a POSITA
to combine the teachings of Alexander
with the teachings of Sano or Chun, each
which teach the use of multiple tuners
within a STB, including a “second tuner”.
RX-0004C at Q/A 74-75 (Sano), 114
(Chun), 302, 307, 309 (motivations to
combine). Further, if Alexander’s
teachings of resolving recording conflicts
are insufficient to meet the conflict
resolution aspect of this limitation, it
would have been obvious to a POSITA to
further combine the teachings of
Alexander with the teachings of the
Prevue Guide or Nagano, thereby
satisfying this limitation. Id. at 222;
supra IX.F.2.h.iv.
Resps. Br. at 217-18.
The administrative law judge has determined that
Comcast has not met its burden of showing claims 10
and 22 would have been obvious through clear and
convincing evidence. The cited testimony does not
address either claim.
(4) Nagano (RX-0153) in combination
with the general knowledge of a
POSITA, and/or Sano (RX-0152) or
Chun (RX-0158)
(a) Limitations 13a-d

838a
Comcast argues:
Nagano teaches the use of an IPG
running on an STB and conflict
resolution when overlapping recordings
are set, offering an alert to the user that
allows canceling one of recordings to
resolve the conflict. RX-0004C at Q/A
258; 106-111. In particular, Nagano
taught the detection of conflicts between
set recordings (id. at Q/A 109), and when
a conflict or recording was detected,
Nagano would provide a cancel option to
cancel a recording, and a cursor to
change the ending times of overlapping
programs, either of which would resolve
the conflict. Id. at Q/A 110-111.
Nagano does not explicitly disclose or
teach the use of multiple tuners within
the STB. However, it would have been
obvious to a POSITA to utilize the IPG of
Nagano in a STB with multiple tuners.
Id. at Q/A 107, 83-85. Also, it would have
been obvious to a POSITA to combine the
teachings of the Prevue Guide with the
teachings of Sano or Chun, each which
teach the use of multiple tuners within a
STB, including a “first tuner” and a
“second tuner.” RX-0004C at Q/A 74-75
(Sano), 114 (Chun), 302, 307, 309
(motivations to combine).
Resps. Br. at 218.
Rovi argues:

839a
. . . (1) Nagano has only a single tuner
and therefore does not meet the
requirement of a “first tuner” and a
“second
tuner”
(and
all
other
requirements that refer to the second
tuner); and (2) Nagano only discloses
timer conflicts and therefore, does not
meet the limitation of “determining that
neither a first tuner nor a second tuner
are available to perform the requested
tuning operation” or “cancel a function of
the
second
tuner.”
CX-1902C
(Balakrishnan RWS) at Q/A 130-34;
Section VI(K)(3)(a), supra.
In Nagano, if a user “reserves” the tuner
to record two programs being broadcast
at the same time, then Nagano teaches
methods for resolving that conflict
involving a single tuner using cursors to
change start and end times of recordings
to eliminate overlaps and therefore
eliminate timing conflicts. CX-1902C
(Balakrishnan RWS) at Q/A 130.
Like LaJoie, Nagano thus discloses only
a single tuner capable of performing a
tuning operation. Id. at Q/A 134. The
examiner found the claims of the ’512
Patent patentable over LaJoie in view of
Kim and Lee, which disclosed two
tuners. Id. Again, the claims of the ’512
Patent are similarly patentable over
Nagano.
Rovi Br. at 192.

840a
The administrative law judge finds that Nagano
and Sano (or Chun) teach limitations 13a-d. Nagano
teaches an interactive guide, while Sano (or Chun)
teaches a set-top box with two tuners. See RX-0004C
(Bederson WS) at Q/A 258, 103-11, 83, 114.
Nagano teaches an interactive guide in the abstract,
specification, and figures. In the abstract, Nagano
discloses a guide that allows a user to set recordings:
An apparatus and a method for
controlling the recording of television
programs are disclosed. The apparatus
displays electronic program guide
information superposed on a television
signal. The apparatus allows a
plurality of desired programs to be
reserved for recording based on the
electronic
program
guide
information. If any of the reserved
programs overlap, the apparatus allows
the starting time and/or ending time of
any of the overlapped programs to be
changed. The apparatus may permit a
program to be reserved for recording by
inputting recording time and recording
channel. If a program reserved for
recording based on the electronic
program guide information overlaps a
program reserved for recording by
inputting recording time and recording
channel, a preferential setting enables
one of the overlapped programs to be
recorded. The apparatus advantageously
causes an icon to be continuously
displayed on a television screen in

841a
connection with the television picture
signal when a program is reserved for
recording. A corresponding method is
described.
RX-0153 at Abstract (emphasis added); id. at 1:55-2”9
(“When the program to be recorded is displayed on the
screen, a cursor is moved to the row of the program to
be recorded by operating the cursor moving key. . . by
pushing the program reservation button (Rec key) in
this condition, the recording of this program is
reserved.”); RX-0004C (Bederson WS) at Q/A 105, 108.
Nagano refers to Figures 8, 9A, and 9B to depict a
program guide and steps for using that guide. Figures
8, 9A, and 9B follow:

The specification explains that:
FIG. 8 is a diagram for illustrating a
menu picture of the electronic program
guide.
FIG. 9 is a set of diagram for illustrating
a picture display of a method for program

842a
reservation using the electronic program
guide.
RX-0153 at 5:54-58 (Figs. 15-17 provide additional
guide-screen examples).
Further, Figure 13A is a flowchart for interacting
with the guide:

843a
RX-0153 at 12. The specification explains that “FIG.
13 is a flowchart for illustrating the processing when
program reservation by the first reservation means in
accordance with the embodiment of the present
invention overlaps.” Id. at 6:5-8. Accordingly, Nagano
teaches the interactive guide that satisfies limitations
13a-d.
Sano teaches a set-top box with two tuners. Dr.
Bederson explained:
A74 Sano teaches the use of multiple
tuners, which can simultaneously
receive and record multiple broadcast
channels.
Fig. 4 of Sano show one example of this
utilizing three tuners to receive and
record broadcast signals:

[Sano at Fig. 4 (annotations added)]

844a
Col. 10:21-29: “To solve such a problem,
in the embodiment shown in FIG. 4, by
providing a plurality of tuner sections 22
and recording channel selection sections
41, it was enabled to record a plurality of
programs arbitrarily selected from
multi-channel multiplex broadcasts by a
plurality of transponders. FIG. 4 is a
view showing a system configuration
including a digital broadcast recording
and reproducing apparatus 50 according
to the third embodiment of the present
invention.”
In fact, Dr. Balakrishnan agrees that
Sano teaches multiple tuners. See
Balakrishnan 10/29/16 Dep. Tr. 257:1114.
RX-0004C (Bederson WS) at Q/A 74. As Figure 4
shows, Sano teaches three tuners, which satisfies the
first and second tuner requirements of limitations 13ad.
Chun also teaches two tuners. Dr. Bederson
explained:
Chun generally discloses the use of two
tuners, both of which were capable of
tuning broadcast television for display.
One tuner could be used for primary
video, and a second tuner could be used
for picture-in-picture, and each tuner
could be used for either of these
purposes.
Abstract: “A menu type multi-channel
display system utilizing picture-in-

845a
picture (PIP) function and a page
up/down mode. The present invention
first comprises a first and second tuner
to receive broadcasting signals and to
output each of the broadcasting signals
on a channel. . . .”
Further, Chun provided for two tuners
for use in tuning television signals for
display.

[Chun at Fig. 6 (annotations added)]
1:32-57: “The invention provides a menutype multi-channel video display system
with page up/down mode comprising . . .
a television tuner circuit, a VCR signal
processing circuit, a switching circuit, a
PIP processing circuit, an input selector
for the main screen, an output selector

846a
for the sub-screen, a microcomputer, an
on-screen display integrated circuit
(OSDIC), a mixer, an audio circuit, two
tuners, and a multiplexer.”
As Figure 6 shows, Chun teaches two tuners, which
satisfies the first and second tuner requirements of
limitations 13a-d. Given the overlap between the
teachings of Sano and Chun, as presented by Comcast,
the administrative law judge finds that Chun is
cumulative of Sano’s disclosure.
(b) Limitation 13e
Comcast argues:
Nagano teaches “receiving a request for
a tuning operation,” such as using a
tuner to display and record broadcast
programs. RX-0004C (Bederson WS) at
Q/A 105-107.
Resps. Br. at 218-19.
Rovi does not rebut this argument. See generally
Rovi Br., Section VI(K)(3)(b)(iv).
The administrative law judge has determined that
the evidence shows that Nagano teaches this
limitation. See RX-0004C (Bederson WS) at Q/A 10507, 260.
(c) Limitation 13f
Comcast argues:
Nagano detects conflicts between
recordings and also determines if there
are overlaps between recordings. RX0004C (Bederson WS) at Q/A 109-110.
The conflict detection system of the

847a
Nagano could have easily been modified
by a POSITA to operate in a STB with “a
first tuner” and “a second tuner,” or
multiple tuners. Id. at Q/A 107, 83-85. It
also would have been obvious to a
POSITA to combine the teachings of the
Nagano with the teachings of Sano or
Chun, each which teach the use of
multiple tuners within a STB, including
a “first tuner” and a “second tuner.” RX0004C at Q/A 74-75 (Sano), 114 (Chun),
302, 307, 309 (motivations to combine).
In addition, Sano teaches that all of the
M tuners in the STB are capable of
tuning to television program in the
broadcast stream for recording. RX0004C at Q/A 74-75. This satisfies the
limitation requiring “wherein the first
tuner and the second tuner are both
capable of performing the tuning
operation” which the examiner found
missing during prosecution.
Resps. Br. at 219.
Rovi does not address Comcast’s argument that
Sano teaches the second tuner. See generally Rovi Br.,
Section VI(K)(3)(b).
Dr. Bederson testified that Nagano (and the Prevue
Guide) recognized tuner conflicts, and that a person of
ordinary skill knew of multiple tuners, would have
been able to modify Nagano (and Prevue) to
accommodate multiple tuners, and that the
modification would not have been complicated. See RX0004C (Bederson WS) at Q/A 107, 82-86, 302, 307, and
309. Indeed, one of ordinary skill in the art would have

848a
needed to modify Nagano when porting it on a set-top
box with multiple tuners.
The administrative law judge has determined that
the evidence shows that a person of ordinary skill
would have been able to modify Nagano for a two-tuner
set-top box, such that Nagano and Sano teach and
satisfy this limitation. See RX-0004C (Bederson WS)
at Q/A 107, 82-86, 302, 307, and 309.
(d) Limitation 13g
Comcast argues:
When a conflict is detected, Nagano,
“display[s] an alert that provides a user
with an opportunity to direct the
interactive television program guide to
cancel a function of the [] tuner to permit
the [] tuner to perform the requested
tuning operation.” In order to resolve a
potential conflict, Nagano uses the IPG
to display the overlapped display picture,
and provides the ability to cancel a
recording. R-0004C at Q/A 110-111.
Nagano teaches that the user can cancel
a function of the tuner (i.e., cancel a
portion of the recording) of either the
first overlapping program (e.g., change
the ending time of the first recorded
program) or second overlapping program
(e.g., change the starting time of the
second recorded program). Id. at Q/A
111.
Nagano could have easily been modified
by a POSITA to operate in a STB with
multiple tuners. Id. at Q/A 107, 83-85. It

849a
would have also been obvious to a
POSITA to combine the teachings of the
Nagano with the teachings of Sano or
Chun, which teach multiple tuners
within a STB. RX-0004C at Q/A 74-75
(Sano), 114 (Chun), 302, 307, 309
(motivations to combine).
Resps. Br. at
Rovi argues this combination does not satisfy the
limitation, as combining Nagano and Sano would
eliminate “the very problem that Nagano sought to
solve
with
his
invention.”
See
CX-1902C
(Balakrishnan RWS) at Q/A 131; see also Rovi Br. at
192.
The administrative law judge has determined that
the evidence shows that a person of ordinary skill
would have been able to modify Nagano for a two-tuner
set-top box, such that Nagano and Sano teach and
satisfy this limitation. See RX-0004C (Bederson WS)
at Q/A 107, 110-11, 82-86, 135, 74-75, 302, 307, and
309. It particular, the administrative law judge finds
that it would have taken only ordinary skill to modify
Nagano’s alert to cancel a function of the second tuner.
Id. The combination would not eliminate Nagano’s
solution to managing limited tuner resources, as the
combination would still have a finite number of tuners.
Accordingly, the administrative law judge finds that
the combination would not eliminate “the very
problem that Nagano sought to solve” and the
combination of Nagano and Sato teaches limitation
13g.
(e) Claims 10 and 22
Comcast argues:

850a
When a conflict has been detected,
Nagano teaches “displaying a display
screen using the IPG that provides the
user with a first option to continue to
perform the function of the [] tuner, and
with a second option to cancel the
function of the [] tuner to perform the
requested tuning operation.” To resolve a
conflict, Nagano uses the IPG to display
the overlapped recording events, and
provides a cursor to cancel a portion of
either recording, and a cancel key to
cancel a recording request. RX-0004C
(Bederson WS) at Q/A 110-111; supra
IX.F.2.i.iv. As discussed above, the
conflict resolution system of Nagano
could have easily been modified by a
POSITA to operate in a STB with “a
second tuner,” or multiple tuners. Id. at
Q/A 107, 83-85. In the alternative, it
would have been obvious to a POSITA to
combine the teachings of Nagano with
the teachings of Sano or Chun, each
which teach the use of multiple tuners
within a STB, including a “second tuner.”
RX-0004C at Q/A 74-75 (Sano), 114
(Chun), 302, 307, 309 (motivations to
combine).
Resps. Br. at 211-12.
Rovi does not rebut this argument. See generally
Rovi Br., Section VI(K)(3)(b)(iv).
The administrative law judge has determined that
the evidence shows that Sano teaches the subject
matter of claims 10 and 22. See RX-0004C (Bederson

851a
WS) at Q/A 107, 110-11, 82-86, 135, 74-75, 302, 307,
and 309.
(5) Secondary Considerations
Comcast argues:
Rovi has not demonstrated any
secondary
considerations
of
nonobviousness with a nexus to the ’512
patent. RX-0004C at Q/A 310-311. There
is no particular indication of commercial
success or long felt need, and in fact Rovi
declined to expand the Prevue Guide to
multi-tuner STBs because such STBs
were not widely distributed due to cost.
Id. at Q/A 17. The simultaneous creation
by many others of systems to resolve
conflicts, including in multi-tuner STBs,
further underscores the obviousness of
the ’512 claims. Id. at Q/A 315. There is
no praise by others or skepticism
identified by Rovi specific to the ’512
patent. Id. at Q/A 316-317. Rovi cannot
identify any teaching away, recognition
of a unique problem, or unexpected
results either; the claims of the ’512
simply call for use of well-known
concepts to address a well-understood
problem to achieve an obvious result. Id.
at Q/A 318-320.
Resps. Br. at 220.
Rovi argues that the ’512 Patent was a commercial
success, due to Rovi’s licensing program, and that the
’512 Patent satisfied a long-felt need. Rovi Br. at 19496. Rovi’s arguments are addressed below.

852a
(a) Licensing Success
Rovi argues:
. . . As discussed in Section V(H)(3),
supra, Rovi’s licensing program has been
tremendously successful. [ ]
CX-0001C (Armaly WS) at Q/A 58.
. . . The importance of the ’512 Patent to
Rovi’s licensing program is illustrated by
the number of negotiations in which it
was presented, and importantly, the
particular licensees to whom it was
presented. CX-1905C (Putnam RWS) at
Q/A 156. [ ]
Rovi Br. at 194-95 (introductory headings omitted).
The
Federal
Circuit
specifically
requires
“affirmative evidence of nexus where the evidence of
commercial success presented is a license, because it is
often cheaper to take licenses than to defend
infringement suits.” In re Cree, 818 F.3d at 703
(quotations omitted). The Federal Circuit explained
that
When the specific licenses are not in the
record, it is difficult for the court to
determine if “the licensing program was
successful either because of the merits of
the claimed invention or because they
were entered into as business decisions
to avoid litigation, because of prior
business relationships, or for other
economic reasons.”

853a
Id. (citing In re Antor Media Corp., 689 F.3d 1282,
1294 (Fed. Cir. 2012)).154 In general, the existence of a
license alone is insufficient to show that the licensed
patent was a commercial success. See Iron Grip
Barbell Co. v. USA Sports, Inc., 392 F.3d 1317, 1324
(Fed. Cir. 2004) (“Without a showing of nexus, “the
mere existence of . . . licenses is insufficient to
overcome the conclusion of obviousness” when there is
a strong prima facie case of obviousness.”); see also
Amazon.com, 2016 WL 1170773 at *17 (“Mr.
Holtzman’s testimony lists patent family licenses and
revenue, but does not discuss the merits of the
challenged claim as they relate to any particular
license for the ’956 patent in the portfolio of licenses. .
. . [this] does not establish whether a specific license
(or licensing clause, etc.) for the ’956 patent occurred
because of the merits of the challenged claim, the
merits of unchallenged claims, for other patented
inventions, or for other economic reasons related to the
whole ’956 patent family.”).

In Antor Media, 689 F.3d at 1294, the Federal Circuit criticized
evidentiary support that is similar to the present investigation:
154

Antor merely lists the licensees and their respective sales
revenue. The licenses themselves are not even part of the
record. Antor provides no evidence showing that the
licensing program was successful either because of the
merits of the claimed invention or because they were
entered into as business decisions to avoid litigation,
because of prior business relationships, or for other
economic reasons. The Board was thus correct in holding
that the existence of those licenses is, on its own,
insufficient to overcome the prima facie case of
obviousness.

854a
[

] 155

The evidence does not show, however, that these
licenses are based on the merits of the patents as
opposed to a business decision to avoid litigation, a
prior business relationship, or other economic reason.
See In re Cree, 818 F.3d at 703; In re Antor Media, 689
F.3d at 1294. Further, neither Rovi nor Dr. Putnam
point to a license distinctly identifying the ’512 Patent,
which is asserted and at issue in this case.
Accordingly, the administrative law judge has
determined that Rovi has not shown that licensing of
the ’512 Patent—apart from the portfolio— has been a
success.
(b) Long-Felt Need
Rovi’s entire argument is:
The inventions of the ’512 Patent
fulfilled the long-felt need for a
sophisticated program guide that can
perform an allocation of functions
amongst multiple tuners. The claimed
inventions met a need for more flexibility
and interruption-free use of the multituner system. CX-1904C (Williams
RWS) at Q/A 93-96. At the time of the
invention, some persons of ordinary skill
in the art would have expressed
skepticism of such solutions. Id.
Rovi Br. at 196.

It is not readily apparent whether the licenses are in the record
or if Dr. Putnam read them. See generally CX-1905C (Putnam
RWS) at Q/A 75-79.

155

855a
Long-felt need “is analyzed as of the date of an
articulated identified problem and evidence of efforts
to solve that problem.” Texas Instruments Inc. v. U.S.
Int’l Trade Comm’n, 988 F.2d 1165, 1178 (Fed. Cir.
1993).
Rovi’s evidence consists of conclusory expert
testimony. See, e.g., CX-1904C (Williams RWS) at Q/A
93-96. Mr. Williams did not identify the date when the
long-felt need first began (i.e., Mr. Williams did not
analyze the need “as of the date of an articulated
identified problem and evidence of efforts to solve that
problem,” per Texas Instruments)).156 Id. Further, Mr.
Williams’s
testimony
simply
parrots
Rovi’s
contentions and concludes by agreeing with them; no
outside evidence is cited to support Rovi’s contentions
or Mr. Williams’s opinion. Id.
Accordingly, the administrative law judge has
determined that this testimony is insufficient to find a
long-felt need, and that this factor does not support
non-obviousness.
(c) Weighing
the
Secondary
Consideration Factors
On the whole, Rovi’s commercial success evidence
and long-felt need arguments are of negligible
probative value and fail to support a finding that the
’512 Patent is not obvious. Thus, the evidence does not
have a perceptible impact on the obviousness calculus.
b) Indefiniteness
While Mr. Williams discussed the 1992, 1998, and 1999
timeframes, those discussions were not cited by Rovi, and the
discussions relate to the priority dates of the patents, not the
dates when the alleged need arose.

156

856a
Comcast’s entire argument is:
Claim 13 recites an “an interactive
television program guide implemented
on the system . . . operative to.” As
discussed above, this term should be
properly construed as a means-plusfunction term. But, the only structure
provided is a general purpose processor.
JX-0006 at 4:66-5:2 (“Each set-top box
112 preferably contains a processor to
handle
tasks
associated
with
implementing a interactive television
program guide application on the set-top
box 112.”) But, in cases involving a
special purpose computer-implemented
means-plus-function limitation, as we
have here, the Federal Circuit has
consistently required that the structure
be more than simply a general purpose
computer or microprocessor and that the
specification must disclose an algorithm
for performing the claimed function. See,
e.g., Noah Systems Inc. v. Intuit Inc., 675
F.3d 1302, 1312 (Fed. Cir. 2012). There
is no such algorithm identified here, and
in particular, no algorithm for the steps
of (1) receiving a request, (2) determining
a conflict, or (3) displaying an alert. RX0004C (Bederson WS) at Q/A 66-69.
Accordingly, claim 13 should be held
invalid as indefinite under §112(6).
Resps. Br. at 221.
The full text of the disputed phrase appears in bold,
italicized text:

857a
13. A system for resolving a conflict when
multiple operations are performed using
multiple tuners controlled by an interactive
television
program guide,
the
system
comprising:
a first tuner;
a second tuner; and
an interactive television program guide
implemented on the system, wherein
the interactive television program
guide is operative to:
receive a request to perform a tuning
operation;
determine that neither the first tuner
nor the second tuner are available
to perform the requested tuning
operation, wherein the first tuner
and the second tuner are both
capable of performing the tuning
operation; and
in response to the determination,
display an alert that provides a
user with an opportunity to direct
the interactive television program
guide to cancel a function of the
second tuner to permit the second
tuner to perform the requested
tuning operation.
JX-0006 at 19:41-59.
The administrative law judge construed the
contested phrase “interactive television program guide
implemented on the system, wherein the interactive

858a
television program guide is operative to: receive . . .;
determine . . .; and in response to the determination,
display . . .” and addressed Comcast’s indefiniteness
argument in Section VI(F)(2)(b)(14), above. Claim 13
is not found to be indefinite.
8. Patent Eligibility
Comcast argues that the asserted claims are
directed to the abstract idea of providing an alert
“receiving a request to perform a tuning operation,
determining that a tuner is not able to perform that
operation, and then displaying an alert to the user.”
Resps. Br. at 203. Comcast relies upon Comcast IP
Holdings I, LLC v. Sprint Commc’ns Co. L.P., 55 F.
Supp. 3d 544, 548-549 (D. Del. 2014), which found a
claim directed toward a telephone network
optimization method ineligible. Id. Comcast provides
the following comparison between claim 1 of the ’512
Patent and claim 21 from Comcast IP Holdings:

859a

Comcast then argues that claim 1 does not contain
an inventive concept. This is Comcast’s inventiveconcept argument:

860a
The asserted claims of the ’512 patent
consist of “well-understood, routine,
conventional activity,” and contain
nothing to transform them to a patent
eligible application. See Mayo, 132 S.Ct.
at 1297. To persons of ordinary skill in
the art, the asserted claims are nothing
more than implementation of the wellknown concept of a ’’conditional
execution’ statement” (i.e., an “if
statement”). RX-0004C at Q/A 20. And
there is little dispute among the parties’
experts that the claims were directed to
well-known and standard software and
hardware features (multiple tuners were
known). See Tr. 1175:1-12 (interactive
television program guides and receiving
turning requests were known); RX0004C at Q/A 21 (alert upon detection of
resource conflict was well-known). And
in fact, recent case law has even found
these types of hardware conventional.
See Tech. Dev. Lic., LLC v. General
Instrument Corp., 2016 WL 7104253, *6
(N.D. Ill., Dec. 6, 2016) (tuner, remote
control, processor).
Rovi contends that because tuner
conflicts could be resolved in other ways
not covered by the ’512 claims - e.g., by
prioritizing program types of one kind
over another or selections of one user
over another – but this provides no
evidence that the claims of the ’512
patent are inventive. The concept of
allowing the user select the operation

861a
(e.g., recording or displayed program) to
be canceled was well known. RX-0004C
Q/A 24-26, 43-44, 52-53, 81, 86. And Rovi
cannot expect to rely on the examiner’s
notice of allowance as indication of
novelty sufficient to preserve patent
eligibility. The notice of allowance in the
’512 prosecution contained a generic
statement that the prior art did not teach
all the elements of the claims. But, by
that measure, no patent claim would
ever be found ineligible. Every issued
patent claim has been subject to
examiner review and found to contain
elements not present in the prior art.
Resps. Br. at 205-06.
Rovi argues that the claims are not directed toward
an abstract idea and that even if they are, the claims
contain an inventive concept. Rovi Br. at 196-201.
a) Alice Step One: Abstract Idea
The administrative law judge finds that the
asserted claims are not directed toward an abstract
idea.157 Here, in summary, claim 1 pertains to a cable
system (e.g., a set-top box) having multiple tuners
that:
1) Receives a request to record or watch a show;
2) Determines whether a tuner is or is not
available to record or watch the show;

The administrative law judge finds Comcast has not met its
burden under both the preponderance-of-the-evidence and clearand-convincing standards.

157

862a
3) Displays a prompt allowing the user to record or
watch the requested show or to cancel the
request.
The claim language indicates that the predominant
concept of claim 1 is confined to a concrete, tangible
application in set-top boxes.158 As Rovi notes, “these
claims expressly recite a solution to a problem that
necessarily arises only ‘when multiple operations are
performed using multiple tuners controlled by an
interactive television program guide.’” Rovi Br. at 19697 (quoting JX-0006 (’512 Patent) at 18:35-47). Indeed,
the administrative law judge found that the accused
X1 products did not infringe claims 1 and 13 at least
because the Rovi had not shown that the X1 set-top
boxes have a second tuner. See generally Section
IV(F)(4)(b)(1)(a). Likewise, Comcast’s obviousness
combinations acknowledge that various prior art
references contain tuners and various prompts and
alerts. See generally Section IV(F)(7)(a). Accordingly,
Comcast has not met its burden of showing that claims
1 or 13 are directed toward an abstract idea.
b) Alice Step Two: Inventive Concept
The administrative law judge has determined that
Comcast fails to demonstrate that the ’512 Patent does
not contain an inventive concept.159
For inventive concept, “the key question is whether
the claims add something to the abstract idea so that
the patent covers a specific application of the abstract
Claim 13 is also confined to a concrete, tangible application in
set-top boxes.

158

The administrative law judge finds Comcast has not met its
burden under both the preponderance-of-the-evidence and clearand-convincing standards.

159

863a
idea, rather than the idea itself.” Netflix v. Rovi, 114
F. Supp. 3d at 937.160 Here, the inventive concept is the
application of a single-tuner-conflict-management
system to systems with multiple tuners. While that
concept may not satisfy §§ 102 and 103, the concept is
clearly new and useful, and is confined to a set-top box
having two tuners (e.g., an article of manufacture),
such that it passes § 101’s eligibility filter. See 35
U.S.C.§ 101 (“Whoever invents or discovers any new
and useful process, machine, manufacture, or
composition of matter, or any new and useful
improvement thereof, may obtain a patent therefor,
subject to the conditions and requirements of this
title.”); Enfish, LLC v. Microsoft Corp., 822 F.3d 1327,
1327 (Fed. Cir. 2016) (the inventive concept is not
focused on “economic or other tasks for which a
computer is used in its ordinary capacity.”).
Accordingly, the administrative law judge has
determined that Comcast has not met its burden of
demonstrating that the ’512 Patent lacks an inventive
concept.
V. ADDITIONAL DEFENSES
A. Comcast’s Express and Implied Licensing
Defenses
“An express or implied license is a defense to
infringement.” Radar Indus., Inc. v. Cleveland Die &
Mfg. Co., 424 F. App’x 931, 933 (Fed. Cir. 2011). “The
burden of proving that an implied license exists is on
the party asserting an implied license as a defense to

Netflix, Inc. v. Rovi Corp., 114 F. Supp. 3d 927, 937 (N.D. Cal.
2015), aff’d, No. 2015-1917, 2016 WL 6575091 (Fed. Cir. Nov. 7,
2016) (Fed. Cir. R. 36).

160

864a
infringement.” Augustine Med., Inc. v. Progressive
Dynamics, Inc., 194 F.3d 1367, 1370 (Fed. Cir. 1999).
1. Overview of Agreements
Rovi and Comcast entered into several commercial
and licensing agreements in 2004 and 2010. The 2010
agreements amend and restate the 2004 agreements.
a) 2004 Agreements (JX-0046C)
On March 31, 2004, Comcast and a Rovi predecessor
formed a joint venture, which became known as
Guideworks, for the purpose of owning and developing
IPGs for use by Comcast, among others. See Resps. Br.
at 17. The formative document, JX-0046C, is entitled
“FORMATION
OF
CABLE
IPG
JOINT
DEVELOPMENT GROUP and ENTRY INTO
LICENSE AND DISTRIBUTION AGREEMENT AND
PROGRAMMING AGREEMENTS.” JX-0046C at 1.
JX-0046C includes patent and software licenses.
Comcast points to JX-0046C at 15 (and 23-24), §
2.04, as the clause that granted Comcast a license to
software the joint venture created. Resps. Br. at 17.
For background, section 2.04 follows:
4. [

]

JX-0046C at 15 (underlining in original); see also RX0001C at Q/A 15.
Additionally, JX-0046C contains a “LICESE A ND
DISTRIBUTION AGEEMENT” that includes a patent
licensing clause, § 1(b). For background, § 1(b) follows:
(b) [

]

JX-0046C at 393-94 (underlining in original). Comcast
refers to the license and distribution agreement as the
“LDA,” while Rovi refers to this agreement as the

865a
“Patent License.” Compare Resps. Br. at 17 (referring
to JX-0046C at 393-94 as the “2004 LDA”) with Rovi
Br. at 4 (referring to JX-0047C, Ex. A (Patent
License)).
b) 2010 Agreements (JX-0050C,
0052C, and JX-0053C)

JX-

In February 2010, Comcast and Rovi ended the
Guideworks joint,venture, with Comcast acquiring
Guideworks. RX-0001C (Marcus WS) at Q/A 19-21
(identifying JX-0053C as the 2010 Master Agreement);
see also Rovi Br. at 381.
At the same time, the parties also entered into an
amended license and distribution agreement, JX0050C, which is titled “AMENDED AND RESTATED
LICENSE AND DISTRIBUTION AGREEMENT.”
Comcast refers to JX-0050C as the “ALDA,” while Rovi
refers to it as the “Patent License” or the “2010
Amended Patent License.” Compare Rovi Br. at 4 with
Resps. Br. at 18. JX-0050C provides a patent license,
in § 1(b), as follows:
(b) [

]

JX-0050C at 5 (emphasis added; underlining in
original). Section 8 of the agreement lays out fees and
rebates. Id. at 17. Section 17 explains the license
expires on March 31, 2016. Id. at 34 ( “The term (the
‘TERM’) of this AGREEMENT shall commence on
March 31, 2004 and shall end on March 31, 2016.”).
At the same time, the parties also entered a cross
license concerning software, JX-0052C, which is titled
“CROSS LICENSE AGREEMENT.” Comcast refers to
JX-0052C as the “ALDA,” while Rovi refers to it as the
“Software License” or the “2010 Software License.”

866a
Compare Rovi Br. at 4 with Resps. Br. at 18. Comcast
points to § 2.01, which follows:
[

]

Resps. Br. at 18 (citing JX-0052C at 8; emphasis in
original). Rovi points to § 2.03, which follows:
[

]

Rovi Br. at 382 (citing JX-0052C at 9 (§ 2.03)).
2. Express License
Rovi frames its allegations, as follows:
Rovi accuses all digital video receivers
and hardware and software components
thereof, including all products capable of
supporting Comcast’s X1 or Legacy
Guide, that are or were: (1) products
purchased by Comcast on or after April
1, 2016, regardless of when they were
imported; (2) products installed by
Comcast into its customer base on or
after April 1, 2016, regardless of when
they were purchased by Comcast or
imported; and (3) products that Comcast
now holds in inventory and that Comcast
will, in the normal course of business,
install into Comcast’s customer base on
or after April 1, 2016, regardless of when
they were purchased by Comcast or
imported. Rovi also accuses all
Technicolor and ARRIS products capable
of supporting Comcast’s X1 or Legacy
Guide, that are or were: (1) products
imported on or after April 1, 2016 and
sold to Comcast; (2) products sold to

867a
Comcast on or after April 1, 2016,
regardless of when they were imported;
and (3) products that Technicolor or
ARRIS hold in inventory for sale to
Comcast, regardless of when they were
imported.
Rovi Br. at 10-11.
Comcast argues:
Under the ALDA, Comcast had an
express patent license to Rovi’s entire
patent portfolio covering all of Comcast’s
products and services, including both
Legacy and X1 STBs, for the period prior
to March 31, 2016. All of the Legacy
STBs at issue in this Investigation, and
[[ ]] units of the accused X1 STBs, were
imported and sold to Comcast before
Comcast’s license to Rovi’s patent
portfolio expired. RX-0386C [(Q2 2016
Leased [
] Strategy)] at .0011; RX0838C (Shank Rebuttal WS) at QA 2829, 34, 36-37.
...
Because all Legacy STBs and certain X1
STBs were covered by an express patent
license at the time of importation and
sale to Comcast, there is no violation as
to those STBs.
Resps. Br. at 19-20. Comcast adds that “Rovi’s
theory—that direct or indirect infringement may be
found based on purely domestic conduct after a fully
licensed importation—is contrary to Section 337 itself,

868a
which underscores that any violation must be founded
on unlawful acts related to importation.” Id. at 21.
Rovi presents relevant
jurisdictional analysis:

argument

in

Congress designed Section 337 to provide
for, inter alia, cease-and-desist orders
that bar an infringer’s distribution of
imported products in inventory—exactly
the remedy that Rovi seeks here with
respect to the products imported prior to
the expiration of the Patent License.
Nonetheless, Respondents argue that
products imported prior to April 1, 2016
(i.e., during the term of the License) do
not provide a basis for a violation of
Section 337, because in their view only
articles that “infringe at the time of
importation” may violate Section 337. . .
.
Congress has explained that Section 337
is designed to vest the Commission with
enforcement authority “broad enough to
prevent every type and form of unfair
practice.” Suprema, Inc., 796 F.3d at
1350. Comcast’s sale or lease of imported
products in
its inventory
after
importation is exactly the type of unfair
practice that Section 337 was designed to
redress by way of a cease-and-desist
order.
Congress specifically envisioned that
Section 337 would prevent infringers
from building inventory of imported,
infringing products in the United States.

its

869a
Congress amended Section 337 again in
1988 to allow the Commission to issue
exclusion orders and cease-and-desist
orders as to the same Respondent, such
that the cease-and-desist order would
apply to products that have been
“stockpiled,” and the exclusion order
would apply to products that have yet to
be imported. Id.; H.R. Rep. No. 40, 100th
Cong., 1st Sess. at 59-60. That is the
circumstance here: Rovi seeks an
exclusion order as to X1 and Legacy
Products that have yet to be imported,
and a cease-and-desist order as to those
products that were stockpiled in
inventory.
Rovi Br. at 14-16.
The 2010 Patent License, JX-0050C, permits
Comcast (and authorized third parties) to “make and
have made” and to “use, sell, offer for sale, lease, offer
for lease, import, deploy, distribute or otherwise
commercialize” products that practice Rovi’s Patents.
JX-0050C at 5 (§ 1(b)). Thus, the license expressly
allows Comcast, along with its suppliers, to import
products before April 1, 2016.161 Accordingly, the
administrative law judge has determined that
products imported before April 1, 2016 are not
unlawful imports, and there has been no an unfair act
which would constitute a violation Section 337 for
The evidence shows that Comcast paid [
] for the 12-year
license, along with significant additional payments following the
2010 restatement. See RX-0001C (Marcus WS) at Q/A 17-18, 35
(over [ ], based on Mr. Marcus’s approximation of [ ] per year
in fees); Tr. 156-157.

161

870a
these products. The administrative law judge makes
no determination on whether a subsequent domestic
activity connected to products imported before April 1,
2016 (e.g., any use or sale, completed on or after April
1, 2016, of a set-top box imported before April 1, 2016)
infringes the asserted patents.
3. Implied License
Comcast argues:
. . . [ ] By licensing to Comcast [
] to
the Legacy guides’ software, the CLA
provides Comcast an implied license to
any Rovi patent implicated by that
software. Rovi is estopped from
derogating from the rights that it
granted to Comcast in the CLA by
pursuing patent infringement claims
based on the very same software [
].
Wang, 103 F.3d at 1581-82.
...
Comcast entered into a JV with Rovi to
develop IPGs—in large part at Comcast’s
expense—and sensibly contracted from
the outset [
] to the fruits of that
development effort. See id. It would
make no sense to agree to a deal that
would permit Rovi to later assert patents
against the very software that Comcast
and Rovi developed in collaboration and
largely at Comcast’s expense.
Resps. Br. at 22-26. Comcast’s implied license
arguments are directed toward the Legacy guide and
do not mention the X1 guide. See generally id., Section
III(C).

871a
Rovi argues that the software licenses do not grant
implied rights because the 2010 cross license
disavowed any implied rights, because the patent
rights were expressly conveyed in a separate
document—the patent license, and because granting
“the right to ‘use’ software, without more, does not
convey a patent license.” See Rovi Br. at 383-85.
a) Disavowal
Rovi argues:
First, the clear language of the 2010
Software License clearly disavowed any
implied rights: [
] JX-0052C (2010
Software License) at §2.03. As patent
rights were not expressly granted, they
were by definition, expressly reserved
Comcast’s “implied license” defense fails
for this reason alone.
Rovi. Br. at 383. Section 2.03 follows:
[

]

JX-0052C at 9 (§ 2.03).
Comcast argues:
Rovi contends that Section 2.03 of the
CLA forecloses implied patent rights.
That is not so. [
] But Section 2.03
nowhere states that it was reserving
rights necessary for Comcast to realize
the rights that were expressly granted,
including the right to use the licensed
software. Id. (CLA § 2.01) at .000008.
Resps. Br. at 22-23. Comcast then points to the
drafting history and subsequent emails to argue that

872a
the agreement does not
disavowal.162 Id. at 23-24.

include

an

express

The administrative law judge has determined that
§ 2.03 disavows an implied license to Rovi’s patents.
Section 2.03 provides that all rights “to the extent not
expressly granted herein, are hereby expressly
reserved by RoviGuides and its Affiliates.” The cross
license does not expressly grant a license to Rovi’s
patents. Accordingly, the cross license does not provide
Comcast with an implied license to practice Rovi’s
patents.
b) Separate Documents
Rovi argues:
Second, the very structure of the
agreements defeats Comcast’s claim:
patent rights were expressly conveyed in
the 2004 Patent License, as amended in
2010, to cover the software of the joint
venture, and software rights (source code
and copyright) were expressly conveyed
in the Software License of 2004, as
amended in 2010. . . .
Because patent rights were expressly
granted by the Patent License as to the
software to be developed by the joint
venture, including derivative software,
they could not also have been impliedly
Comcast has not explained why it is necessary to go beyond the
agreement, which is an integrated document. See JX-0052C at 1819 (§12.12 provides, [
]). See Inv’rs Ins. Co. of Am. v. Dorinco
Reinsurance Co., 917 F.2d 100, 104 (2d Cir. 1990) (“Parol evidence
may be admitted to explain a writing only when the terms of the
writing itself are ambiguous.”).

162

873a
conveyed by the Software License at the
same time. An implied license to patent
rights cannot co-exist with an express
license to those same rights.
Comcast itself has recognized that the
Patent License granted a (now-expired)
express license as to Comcast’s Legacy
Products. . . . If the 2004 Software
License conveyed those same rights, as
Comcast and Mr. Marcus now suggest,
then the Patent License—and the [
]
payment
thereunder—would
be
redundant. . . .
Rovi Br. at 384-85. Rovi then distinguishes cases that
Comcast cited “for the proposition that an implied
license can coexist with an express grant[.]” Id. at 385.
Rovi argues:
These cases stand for the mere
proposition that a license to a
continuation or reissue patent will
implicitly include a license to the parent
patent, if such a license is necessary to
practice
the
expressly
licensed
continuation or reissue patents. Not one
of these cases renounces black letter law
that an express and implied license
cannot coexist as to the same subject.
Atlas, 895 F.2d at 754-55.
Rovi Br. at 385.
Comcast argues:

874a
. . . the Federal Circuit has regularly
found that an implied license may coexist with an express patent license. See,
e.g., Gen. Protecht Grp., Inc. v. Leviton
Mfg. Co., 651 F.3d 1355, 1361-62 (Fed.
Cir. 2011); see also, e.g., Intel Corp. v.
Negotiated Data Solutions, Inc., 703 F.3d
1360, 1366-67 (Fed. Cir. 2012);
TransCore, LP v. Elec. Transaction
Consultants Corp., 563 F.3d 1271, 127980 (Fed. Cir. 2009). That is particularly
true where, as here, the express license
and the implied license are directed to
different subject matter and serve
different purposes. The 2010 ALDA
expanded the scope of a pre-existing and
term-limited express patent license that
granted Comcast broad rights under all
of Rovi’s patents for a limited term. [ ]
Resps. Br. at 24.
The administrative law judge finds that given the
side-by-side structure of the agreements, the
agreements must be read together, to give meaning to
the patent rights that were addressed in the 2010
Patent License, JX-0050C. The agreements are
governed by New York law, which requires that
agreements executed as part of the same transaction
be read together. See This Is Me, Inc. v. Taylor, 157
F.3d 139, 143 (2d Cir. 1998); Gordon v. Vincent
Youmans, Inc., 358 F.2d 261, 263 (2d Cir. 1965) (“it is
both good sense and good law that these closely
integrated and nearly contemporaneous documents be
construed together”); Paneccasio v. Unisource
Worldwide, Inc., 532 F.3d 101, 111 (2d Cir. 2008) (“The
rules of contract construction require us to adopt an

875a
interpretation which gives meaning to every provision
of the contract.”); Restatement (Second) of Contracts §
202(2) (2008) (“all writings that are part of the same
transaction are interpreted together”). 163 As explained
above, the patent license permits Comcast (and
authorized third parties) to “make and have made”
and to “use, sell, offer for sale, lease, offer for lease,
import, deploy, distribute or otherwise commercialize”
products that infringe Rovi’s Patents. JX-0050C at 5 (§
1(b)). Reading the software license to grant an implied
license to Rovi’s patents would undercut the import of
the patent license, which was signed on the same day
as the software license.
c) Right to “Use” Software
Comcast argues:
At least since 2004, the parties
addressed the JV and their respective
rights to the fruits of that JV separate
from any general license for Comcast to
Rovi’s entire patent portfolio. The 2010
CLA implemented the parties’ 2004
agreement that, in the event one party
later purchased the other’s interest, Rovi
would grant Comcast a perpetual
license to that software, including the
right to, among other things, perpetually
use the IPG software created by the JV.
JX-0052C (CLA §2.01) at .000008;
JX0046C (2004 License Agmt. § 2.05) at
.000085. If Rovi were permitted to assert
patent infringement based on the Legacy
The license itself says it should be read with the corresponding
documents. See JX-0052C at 18-19 [ ]

163

876a
guides now that the ALDA’s broader
license to Rovi’s entire patent portfolio
has expired, Comcast’s perpetual license
to use the Legacy guides would not be
perpetual at all. The parties clearly did
not intend that unreasonable result, as
evidenced by the fact that the CLA
expressly grants Comcast a right to “use”
the licensed software—a right under the
Patent Act. 35 U.S.C. § 271(a). Where,
as here, a grantor confers “a right to ‘use’
. . . software,” it is understood that the
grant “carries with it a license to utilize
the grantor’s intellectual property rights
as needed for such use.” Mark G.
Malven, Technology Transactions: A
Practical Guide to Drafting and
Negotiating Commercial Agreements 1-4
n.1 (Paul Matsumoto ed., 2015).
Resps. Br. at 25 (footnotes omitted).
Rovi argues:
Third, it is well established that the
right to “use” software, without more,
does not convey a patent license. Mr.
Marcus proclaimed that the right to
“use” Rovi’s software as conveyed in the
2004 and 2010 Software Licenses
constitutes an express or implied patent
right. Marcus Tr. 524. Not so. The
Federal Circuit has rejected such an
argument. In State Contracting & Eng’g
Corp. v. Florida, the Federal Circuit held
that a grant of “all rights to use,
duplicate or disclose [data], in whole or

877a
in part, in any manner and for any
purpose whatsoever, and to have or
permit others to do so” did not impart a
license to patent rights. 258 F.3d 1329,
1339, 1339-40 (Fed. Cir. 2001) (emphasis
omitted); see also Intel Corp., 173 F.
Supp. 2d at 213 (finding no implied
license where a contract bestows
intellectual
property
other
than
patents).
Here, too, the word “use” in the Software
Licenses falls squarely within the
copyright context in which it appears. [ ]
To show infringement under copyright
law, a plaintiff must show that the
defendant has “used her property.”
Chamberlain Group, Inc. v. Skylink
Techs, Inc., 381 F.3d 1178, 1193, 1202
(Fed. Cir. 2004) (emphasis added). “Use,”
as it appears in the Software Licenses,
then, plainly refers to copyrights—not
patent rights, which are not mentioned
and were expressly granted by the
Patent License.
...
Indeed, Comcast had patent rights that
covered derivative software—for a term
that has now expired. The 2004 Patent
License explicitly covered the IPG
software [
] JX-0047C, Ex. A (Patent
License) at 3, 5. If Comcast wished to
continue to use derivative software
insulated from infringement liability
beyond the expiration of that license,

878a
Comcast could have either renegotiated
the license or created non-infringing
versions of the software. Comcast was
thus similarly situated to all of its
competitors, all of whom developed IPG
software with a term license to Rovi’s
patents. Each of those competitors has
renewed its patent license to continue to
use its licensed software; Comcast could
have done the same, but has not.
Rovi Br. at 386 (emphasis in original).
In reply, Comcast argues that two cases Rovi relies
on, State Contracting & Eng’g Corp. v. Florida, 258
F.3d 1329 (Fed. Cir. 2001) and Hilgraeve Corp. v.
Symantec Corp., 265 F.3d 1336 (Fed. Cir. 2001) are
distinguishable. See Resps. Reply at 10.
The administrative law judge finds that the § 2.03
does not convey a “right to use” under 35 U.S.C. § 271;
§ 1(b) of the patent license conveys that right. Further,
Comcast has not cited any legal authority to support
its argument.
Accordingly, the administrative law judge has
determined that Comcast does not have an implied
license to infringe Rovi’s patents through the Legacy
guide. Further, Comcast has not shown that it has an
implied license to infringe Rovi’s patents through the
X1 guide, particularly as it has presented no separate
argument or evidence pertaining to the X1 guide.
B. Comcast’s Exhaustion Defense
“[P]atent exhaustion is an affirmative defense for
which the alleged infringer has the burden of proof.”
SanDisk Corp. v. Mobile Media Ideas LLC, No. C 11-

879a
00597 CW, 2011 WL 1990662, at *3 (N.D. Cal. May 23,
2011).
Comcast argues:
The “authorized sale of an article that
substantially
embodies
a
patent
exhausts the patent holder’s rights and
prevents the patent holder from invoking
patent law to control postsale use of the
article” because the patent holder
licensed the licensee “to practice any of
its patents and to sell products
practicing those patents.” Quanta
Computer, Inc. v. LG Elecs., Inc., 553
U.S. 617, 638 (2008); see also Keurig, Inc.
v. Sturm Foods, Inc., 132 F.3d 1370, 1375
(Fed. Cir. 2013). In accusing the
Legacy STBs of infringement, Rovi
has in substance alleged that the
asserted patent claims are substantially
(if not entirely) embodied in the very
software that Rovi licensed to Comcast
under the CLA. RX-0002C (Radloff WS)
at QA 17, 25, 30, 32, 35, 37. Thus, Rovi’s
grant of the perpetual software license in
the CLA bars Rovi’s claims.
While Rovi has contended that patent
exhaustion cannot occur without a
formal transfer of title, the case on which
it has relied expressly observed that the
“authorized acquirers” protected by the
exhaustion doctrine include “those who
acquire possession and operational
control, as by lease, from [the patentee].”
Helferich Patent Licensing, LLC v. N.Y.

880a
Times Co., 778 F.3d 1293, 1297 n.1 (Fed.
Cir. 2015) (emphasis added) (citations
omitted). Here, Comcast acquired
“possession and operational control” of
the Legacy guide software through the
CLA and the Master Agreement, which
gave Comcast unencumbered perpetual
rights to use and reproduce the
Guideworks software as Comcast saw fit.
See, e.g., JX-0053C (Master Agreement §
6.2(a)) at .000012-000013; JX-0052C
(CLA §§2.01, 5.01) at .000008, .000011.
Rovi cannot now invoke patent law to
control postsale use of the Legacy guides.
Quanta Computer, Inc., 553 U.S. at 638.
Resps. Br. at 26-27 (emphasis added).
Rovi argues:
Comcast also argues that the Asserted
Patents are exhausted by the Software
License as to Comcast’s Legacy Products.
Comcast’s exhaustion argument fails for
two reasons: (1) patent exhaustion, as
judicially fashioned and narrowly
applied, may only be triggered by the
sale of an infringing article; and (2)
exhaustion
does
not
apply
to
reproductions. . . .
First, patent exhaustion has historically
been construed narrowly. Helferich
Patent Licensing, LLC v. New York
Times Co., 778 F.3d 1293, 1301-07 (Fed.
Cir. 2015). It is triggered only by the
authorized sale, by the patent holder or
licensee, of an article that embodies the

881a
exhausted patent. Quanta Computer,
Inc. v. LG Elecs., Inc., 553 U.S. 617, 636
(2008); Helferich, 778 F.3d at 1297 n.1
(exhaustion
protects
“authorized
acquirer[s],” which are “those who
acquire title to the article at issue from
the patentee or from a licensee
authorized to sell”).
Here, Comcast’s exhaustion defense is
based on a software license granting
Comcast limited rights to use certain
software under the 2010 Software
License—not the sale of any article.
Resps P.H. Br. at 57-58. Comcast has
cited no authority for the proposition
that the exhaustion doctrine should be
expanded to apply in the context of a
software license. Comcast points to LG
Elects., Inc. v. Hitachi, Ltd. to
purportedly support its contention that a
“license” can constitute a sale for
exhaustion purposes, but that lone
district court case, which pre-dates the
Federal Circuit’s Helfrich opinion by six
years, is not about software. LG
Electronics stands for the unremarkable
proposition that a patent license may
authorize foreign sales of patented
articles to which exhaustion would then
attach. 655 F. Supp. 2d 1036, 1044 (N.D.
Cal. 2009).
Comcast also asserts that the perpetual
rights
to
the
software
are
“unencumbered” and therefore exhaust
Rovi’s patent rights. But this is merely a

882a
repackaging of Comcast’s implied rights
argument. See Section XI(A)(3), supra.
The 2010 Software License is not a
patent license—it conveyed no patent
rights. Patent rights as to joint venture
software (including in the event of
dissolution) were conveyed by the
contemporaneous but separate Patent
License, which expired on March 31,
2016. JX-0047C, Ex. A (Patent License)
at 3, 5.
Second,
and
equally
important,
exhaustion attaches only to the
particular patent-authorized article that
was sold, and not to any reproduction
thereof. Bowman v. Monsanto Co., 133 S.
Ct. 1761, 1764 (2013). “That is because,
once again, if simple copying were a
protected use, a patent would plummet
in value after the first sale of the item
containing the invention. The undiluted
patent monopoly, it might be said, would
extend not for 20 years (as the Patent Act
promises), but only for one transaction.”
Id. at 1768. Thus, even if title to a copy of
the Rovi Software passed to Comcast in
2010 (no such event occurred),
exhaustion would potentially attach to
that particular copy only, such that
Comcast would be free to dispose of only
that
particular
copy.
Comcast’s
argument that a right to reproduce
software intrinsically includes the right
to practice patents long after such a
license has expired is unsupported.

883a
Under controlling Supreme Court
precedent, exhaustion does not reach
copies of Comcast’s Legacy Guide
resident on the set-top boxes provided to
its subscribers—the focus of Rovi’s
infringement allegations for the patents
that implicate Legacy Products. Id.
Rovi Br. at 387-89.
Neither party presents a reply. See generally Rovi
Reply, Section XI Resps. Reply, Section III.
The administrative law judge has determined that
Comcast has not shown its acquisition of ‘“possession
and operational control’ of the Legacy guide software
through the CLA and the Master Agreement”
constitutes a sale for purposes of patent exhaustion. 164
As Rovi correctly notes, the 2010 software license was
encumbered, as Rovi reserved ownership and control
of its patent rights (which were simultaneously
licensed for a fixed term). Further, even if the software
cross license is considered an authorized sale of an
article, that sale does not give Comcast infinite rights
to reproduce the Legacy guide. See Bowman v.
Monsanto Co., 133 S. Ct. 1761, 1764 (2013). Finally,
for the avoidance of doubt, the administrative law
judge notes that Comcast has not shown exhaustion
pertains to the X1 guide.
Accordingly, the administrative law judge has
determined that Comcast’s exhaustion defense fails.

Comcast does not address § 2.04 (“Authorized Sales”) of the
Software License. See JX-0052C at 9 (identifying limits on
authorized sales).

164

884a
C. ARRIS’s Forum Selection, Estoppel and
Waiver Defenses
[

]
1. Overview of License (JX-0068C)

[

]

At the hearing, witnesses from both parties also
testified that the contract was not ambiguous. Mr.
Armaly, Rovi’s Executive Vice President of Intellectual
Property and Licensing, testified, as follows:
Q. . . . You’re a lawyer, aren’t you, by
training?
A. I am.
Q.
And you’re aware of the parol
evidence rule?
A. I’m generally aware of it.
Q. You probably learned about that in
law school. Do you think this agreement
is ambiguous?
A. I don’t think it’s ambiguous.
Q. So Rovi’s position is this agreement is
not ambiguous, it’s clear?
A. Correct.
Q. And that’s your position too?
A. That’s my position.
Tr. 140-141. Mr. Van Aacken, ARRIS’s VP and lead
counsel for ARRIS group, testified, as follows:
Q. In your witness statement, you
testified about a certain license

885a
agreement between Rovi and ARRIS;
right?
A. I did.
Q. Now, let me just ask you this first. Is
that agreement ambiguous in any way?
A. Not to me.
Tr. 490.
ARRIS’s witnesses confirmed that the set-top boxes
in this investigation do not carry ARRIS IPGs. Mr.
Van Aacken also testified about the products it sells to
Comcast, as follows:
Q. Now, I want to be clear up front about
your arguments about this agreement.
ARRIS doesn’t argue that it has an
express license that covers the accused
products in this investigation on account
of that license, does it?
A. We do not argue that the license
covers the products we sell to Comcast.
Q. And that’s because you just heard
testimony — or maybe you didn’t hear,
but your colleague just testified that the
accused set-top boxes do not have any
IPGs that are ARRIS IPGs; is that right?
A. That’s right. The boxes don’t have any
IPGs on them.
Tr. 490-491. Robert Folk, Vice President of Product
Management for ARRIS, testified, as follows:
Q. I just want to be clear about the
ARRIS software. The ARRIS software

886a
that’s loaded onto the device is not an
ARRIS interactive program guide, is it?
A. No.
Tr. 486.
2. Enforcement
Selection

Action

and

Forum

ARRIS argues that the investigation should be
terminated with respect to ARRIS because the [
]
limits the forum for any proceedings arising out of or
otherwise related to the parties’ agreement to courts
within the state and city of New York.” Resps. Br. at
27.
With regard to the enforcement action, ARRIS
argues:
[

]

This action was filed as a direct result of
the failed licensing discussions between
Comcast and Rovi. See Amended
Complaint, at ¶ 2. As Mr. Armaly
testified, Rovi had sought to negotiate
directly with Comcast regarding Rovi’s
IPG patents for over two years. CX0001C at Q/A 118. Those negotiations
failed, and upon expiration of Comcast’s
prior license agreement, Rovi filed this
action—and other actions in U.S. district
court—against Comcast and ARRIS. See,
e.g, Amended Complaint, at ¶2; RX-0698
at 4. This action concerns six of the Rovi
IPG patents that were discussed by Rovi
and Comcast during their negotiations
(see CX-0001C at Q/A 118-132), each of

887a
which is subject to the ARRIS-Rovi
Agmt. See Amended Complaint, at ¶ 5.
Resps. Br. at 33. ARRIS relies upon “the plain
language of [19 U.S.C. § 1337(c)], Supreme Court
precedent, the deference given by the courts, and the
Semiconductor Chips investigation,” to argue that the
forum selection clause “has the same impact as an
arbitration clause under Section 337(c).” Id. at 28-30.
Rovi argues:
The ARRIS IPG License, however, has
nothing to do with Rovi’s claims against
the Accused Products here, which are
ARRIS set-top boxes designed for
Comcast IPGs. Both ARRIS corporate
witnesses testified that the Accused
Products do not involve IPGs developed
by or for ARRIS and are therefore not
licensed by the ARRIS IPG License. Folk
Tr. 486, Van Aacken Tr. 490.
Rovi Br. at 389. Rovi also argues that ARRIS’s
arguments about the forum selection clause are
breach-of-contract claims, and that those claims
should be adjudicated in New York. Id. at 391-93.
ARRIS replies that in the ARRIS-Rovi IPG License,
[ ] Resps. Reply at 11.
The administrative law judge has determined that
the ARRIS-Rovi IPG License does not preclude this
investigation with respect to ARRIS, as ARRIS urges.
The ARRIS-Rovi IPG License’s grant is limited to [ ]
IPGs. JX-0068C at 1, 5 (RECITALS; ¶2.1). [
]
Comcast’s X1 and Legacy guides are not [
] IPGs,
and the ARRIS-Rovi IPG License says nothing about
ARRIS’s ability to sell hardware to Comcast.

888a
Accordingly, even if the investigation constitutes an
[
] under the ARRIS-Rovi IPG License, the dispute
does not arise out of, or relate to, the ARRIS-Rovi IPG
License, because the License pertains to [
] IPGs,
not the hardware ARRIS sold to Comcast.
In addition, with respect to ARRIS’s argument that
termination is appropriate under § 337(c) because its
forum selection clause is equivalent to a settlement
agreement or an arbitration clause, the administrative
law judge finds that ARRIS has not shown that
termination is warranted. In effect, ARRIS argues that
the Commission cannot investigate unfair trade
practices and their effect on domestic industries based
on an agreement between private parties. ARRIS,
however, has not addressed its failure to obtain an
injunction barring the action in light of the forum
selection clause. As mentioned in Order No. 31, the
Commission has terminated investigations under
Commission Rule 210.21 after a complainant moved to
terminate the investigation and withdraw the
complaint in light of a district court’s injunction
barring the Commission action due to a forum
selection clause. See, e.g., Certain Network Commc’ns
Sys. For Optical Networks and Components Thereof,
Inv. No. 337-TA-535, Initial Determination (Order No.
6) (June 7, 2005); Certain Ground Fault Circuit
Interrupters and Prods. Containing Same, Inv. No.
337-TA-739, Initial Determination (Order 19) (Jan. 19,
2011).
ARRIS’s arguments are breach-of-contract claims,
which are not a defense the Commission’s statutory
directive to investigate unfair trade practices (or to
patent infringement). 165 See 19 U.S.C. § 1337(c);
165

During the Hearing, ARRIS characterized its claims as a

889a
General Protecht Group, Inc. v. Leviton Mfg. Co., 651
F.3d 1355, 1359 (Fed. Cir. 2011). Whether or not Rovi
has, in fact, breached the ARRIS-Rovi IPG License by
filing a complaint with the Commission is for the New
York court to determine and to remedy, if needed.
Accordingly, the administrative law judge finds that
ARRIS has not shown that termination is warranted.
3. Implied License
For implied license, ARRIS argues:
. . . Rovi’s promises in the ARRIS-Rovi
Agmt. give rise to at least an implied
license to ARRIS that operates as a
defense to Rovi’s infringement claims
against ARRIS in this Investigation. JX0068C at 7729-30; RX-0782C at Q/A 17;
Tr. 499:2-12; see General Protecht, 651
F.3d at 1359-60. [
] This promise by
Rovi amounts to an implied license to
ARRIS
of
equal
scope.
See,
Carborundum Co. v. Molten Metal
Equip. Innovations, Inc., 72 F.3d 872,
878 (Fed. Cir. 1995) (noting that a
license, “which may be express or
implied,” is “in essence nothing more
than a promise by the licensor not to sue
the licensee”).
breach of contract. See Tr. 79 (“And the two promises — the two
promises that are in that private party agreement. [
]. The
second promise was that if there were disputes arising under our
agreement with Rovi, they were to be resolved in New York by
New York courts, not in the ITC. That promise was breached
too, and we think the remedy is dismissal of Arris.” (emphasis
added)).

890a
Indeed, the closing sentence of [
]—
confirms that such an implied license to
ARRIS arose from Rovi’s promise, in
contrast to any such implied license
passing through to the [ ] JX-0068C at
7729-30 (emphasis added); see Tr.
497:18-498:7,
499:2-500:1.
Rovi’s
interpretation of this sentence, on the
other hand, so as to carve out any
implied license to ARRIS itself, cannot be
reconciled with the plain language of the
parties’ agreement in the earlier
sentence of [
] JX-0068C at 7729; see
TransCore, LP v. Elec. Transaction
Consultants Corp., 563 F.3d 1271, 127879 (Fed. Cir. 2009) (finding an implied
license to continuation patents arose
from a settlement agreement despite
statements therein that “[n]o express or
implied license” was being granted in the
release and that the “Covenant Not To
Sue shall not apply to any other patents
. . . to be issued in the future”).
...
Independent of Section 337(c), should the
ALJ find that one or more of the asserted
claims is infringed by ARRIS, ARRIS’s
affirmative defenses preclude the entry
of any limited exclusion order against
ARRIS for similar reasons as set forth
above. For example, as discussed above,
Rovi’s promises in the ARRIS-Rovi
Agmt. give rise to an implied license to
ARRIS, which operates as a defense to
Rovi’s infringement claims against

891a
ARRIS in this Investigation. JX-0068C
at 7729-30; RX-0782C at Q/A 17; see Tr.
499:2-12; see General Protecht, 651 F.3d
at 1359-60; see also Carborundum, 72
F.3d at 878.
Resps. Br. at 39-40, 44-45.
The license contains numerous clauses curtailing
the scope of the license and any unintended grant of
rights. Paragraph 2.4 provides:
[

]

JX-0068C at 6. [
] Accordingly, the administrative
law judge has determined that the ARRIS-Rovi IPG
License does not give ARRIS an implied license “that
operates as a defense to Rovi’s infringement claims
against ARRIS,” as ARRIS argues.
4. Equitable Estoppel
For equitable estoppel, ARRIS’s entire argument is:
Rovi’s infringement claims are likewise
barred by the doctrine of equitable
estoppel. Radio Sys. Corp. v. Lalor, 709
F.3d 1124, 1130 (Fed. Cir, 2013) (listing
required
elements
for
equitable
estoppel). Through Sections 2.2 and 2.3
of the ARRIS-Rovi Agmt., and Rovi’s
statements and conduct in the related
negotiations, Rovi led ARRIS to
reasonably infer that Rovi did not intend
to enforce its patent rights against
ARRIS so long as ARRIS [ ] JX-0068C
at 7729-30; RX-0782C at Q/A 17. ARRIS
relied on Rovi’s promises, statements,
and conduct in thereafter continuing to

892a
supply Comcast with set-top box
products for use in Comcast’s network
and services. Additionally, ARRIS is [not
seeking to indemnify Comcast against
any claim by Rovi] in this Investigation.
See, e.g., RX-0782C at Q/A 31-32. ARRIS
will be materially prejudiced if Rovi’s
infringement claims are permitted.
Resps. Br. at 45.
Rovi replies:
As Rovi has explained, Compls. Br. at
389-91, ARRIS has no reasonable
affirmative defense that arises out of the
ARRIS IPG License, a limited patent
license that covers only particular,
software—”IPGs developed by or for
ARRIS.” The parties have long agreed—
and affirmed in several rounds of
briefing in New York state court, in the
Eastern District of Texas, before the
Commission, and in live testimony—that
the
Accused
Products
in
this
Investigation are not “IPGs developed by
or for ARRIS.” Id. ARRIS insists,
however, that the ARRIS IPG License
must extend to hardware provided to
Comcast—accused set-top boxes that
have nothing to do with ARRIS IPGs—
under doctrines of implied license,
equitable estoppel, or waiver. Resps. Br.
45. Having spent only a few lines per
theory, ARRIS can hardly contend that it
meets its burden to establish any one of
these
alleged
defenses
by
a

893a
preponderance of the evidence. Jazz
Photo Corp. v. Int’l Trade v. Comm’n, 264
F.3d 1094, 1102 (Fed. Cir. 2001).
Rovi Reply at 142.
Radio Systems Corporation v. Lalor provides:
three elements are required for equitable
estoppel to bar a patentee’s suit: (1) the
patentee, through misleading conduct
(or silence), leads the alleged infringer to
reasonably infer that the patentee does
not intend to enforce its patent against
the alleged infringer; (2) the alleged
infringer relies on that conduct; and (3)
the alleged infringer will be materially
prejudiced if the patentee is allowed to
proceed with its claim.
709 F.3d 1124, 1130 (Fed. Cir. 2013).
The administrative law judge has determined that
ARRIS has not shown that equitable estoppel applies.
Paragraph 2.4 of the ARRIS-Rovi IPG License
explicitly curtails estoppel, and paragraphs 2.2 and 2.3
curtail any covenant-not-to-assert or “any similar
right” to ARRIS. Further, ARRIS has not cited any
evidence of material prejudice. See generally Resps.
Br., Section IV. Accordingly, equitable estoppel does
not apply.
5. Waiver
For waiver, ARRIS’s entire argument is:
Waiver
similarly
applies.
Rovi
intentionally relinquished the right to
involve ARRIS in an [
] against
Comcast so long as [
] JX-0068C at

894a
7729-30; see U.S. v. Olano, 507 U.S. 725,
733 (1993) (“[W]aiver is the ‘intentional
relinquishment or abandonment of a
known right.’”).
Resps. Br. at 45.
Rovi replies:
As Rovi has explained, Compls. Br. at
389-91, ARRIS has no reasonable
affirmative defense that arises out of the
ARRIS IPG License, a limited patent
license that covers only particular
software—”IPGs developed by or for
ARRIS.” The parties have long agreed—
and affirmed in several rounds of
briefing in New York state court, in the
Eastern District of Texas, before the
Commission, and in live testimony—that
the
Accused
Products
in
this
Investigation are not “IPGs developed by
or for ARRIS.” Id. ARRIS insists,
however, that the ARRIS IPG License
must extend to hardware provided to
Comcast—accused set-top boxes that
have nothing to do with ARRIS IPGs—
under doctrines of implied license,
equitable estoppel, or waiver. Resps. Br.
45. Having spent only a few lines per
theory, ARRIS can hardly contend that it
meets its burden to establish any one of
these
alleged
defenses
by
a
preponderance of the evidence. Jazz
Photo Corp. v. Int’l Trade Comm’n, 264
F.3d 1094, 1102 (Fed. Cir. 2001).
Rovi Reply at 142.

895a
ARRIS’s entire argument for a case-dispositive
issue is 30 words. It cites no evidence beyond the text
of the ARRIS-Rovi IPG License, and the only case it
cites addressed waiver in the context of “whether the
presence of alternate jurors during jury deliberations
was a ‘plain error’ that the Court of Appeals was
authorized to correct under Federal Rule of Criminal
Procedure 52(b).” United States v. Olano, 507 U.S. 725,
727 (1993).
Paragraph 2.4 of the ARRIS-Rovi IPG License
explicitly [ ] JX-0068C at 6. Further, ARRIS has not
shown that any relinquishment was intentional, as the
ARRIS-Rovi IPG License states that [ ] Accordingly,
waiver does not apply.
6. Issue Preclusion
Rovi contends ARRIS’s contract arguments are
barred by issue preclusion.166 Rovi argues:
The ITC and the Federal Circuit have
long recognized that “those who have
contested an issue shall be bound by the
result of the contest, and that matters
once tried shall be considered forever
settled as between the parties.” Young
Eng’rs, Inc. v. Int’l Trade Comm’n, 721
F.2d 1305, 1315 (Fed. Cir. 1983). Issue
preclusion requires that an identical
issue was actually litigated and decided
in a prior action, the party against whom
estoppel is invoked had a full and fair
opportunity to litigate the issue, and the
The prior decision is: Rovi Guides, Inc. v. Comcast Corp., No.
2:16-CV-00322-JRG-RSP (Dkt. 182), 2016 WL 6217201, (E.D.
Tex. Oct. 25, 2016).
166

896a
resolution of the issue was essential to a
final judgment. Certain Integrated
Circuits, Chipsets, & Prods. Containing
Same, Inv. No. 337-TA-786, Initial
Determination, 2012 ITC LEXIS 1891, at
*110-11 (July 12, 2012) (quoting Innovad
Inc. v. Microsoft Corp., 260 F.3d 1326,
1334 (Fed. Cir. 2001)). A finding as to the
enforcement of a forum selection clause
upon a motion to transfer is a “final
judgment” for purposes of issue
preclusion. Morgan Tire of Sacramento v.
Goodyear Tire, No. 2:15-cv-00133-KJMAC, 2015 U.S. Dist. LEXIS 51778, *15-16
(E.D. Cal. Apr. 20, 2015). A party who
has litigated a forum selection clause
against an opposing party in one forum
may not then litigate the same clause
against the same party in another forum.
Surgical Orthomedics, Inc. v. Brown
Rudnick LLP, No. 12-6652, 2013 U.S.
Dist. LEXIS 87418, at *4-7 (D.N.J. June
21, 2013).
Rovi Br. at 390. Rovi further argues that although the
Eastern District of Texas “transferred the action for
judicial economy reasons, this determination is
‘essential’ to the judgment for purposes of issue
preclusion.” Id. at 391.
ARRIS argues:
. . . Judge Payne plainly did not decide
the issue of termination of this
Investigation under Section 337(c) in
view of the ARRIS-Rovi Agmt., let alone
in a final judgment. Moreover, and most

897a
tellingly, Magistrate Judge Payne’s
remarks regarding the ARRIS-Rovi
Agmt. were not “essential” to his
decision—the granting of ARRIS’s
motion.
. . . Moreover, the lynchpin in Judge
Payne’s remarks—“breach of contract is
not a defense to patent infringement”—
ignores ARRIS’s affirmative defenses in
this Investigation, which are recognized
defenses to patent infringement. See
Anton/Bauer, Inc. v. PAG, Ltd., 329 F.3d
1343, 1350 (Fed. Cir. 2003) (“An implied
license is a defense to patent
infringement.”). As set forth above and
below, ARRIS’s affirmative defenses in
this Investigation are based on the [
]
clauses of the ARRIS-Rovi Agmt., and
thereby raise “a non-frivolous dispute
regarding the scope of a patent license,”
triggering the broad forum selection
clause of the ARRIS-Rovi Agmt. General
Protecht, 651 F.3d at 1359.
Resps. Br. at 43-44.
In Innovad Inc. v. Microsoft Corp., the Federal
Circuit explained
Under the doctrine of issue preclusion,
also called collateral estoppel, a
judgment on the merits in a first suit
precludes relitigation in a second suit of
issues actually litigated and determined
in the first suit. In re Freeman, 30 F.3d
1459, 1465 (Fed. Cir. 1994) (citing
Lawlor v. Nat’l Screen Serv. Corp., 349

898a
U.S. 322, 326 (1955)). Issue preclusion
operates only if: (1) the issue is identical
to one decided in the first action; (2) the
issue was actually litigated in the first
action; (3) resolution of the issue was
essential to a final judgment in the first
action; and (4) the party against whom
estoppel is invoked had a full and fair
opportunity to litigate the issue in the
first action.
260 F.3d 1326, 1334 (Fed. Cir. 2001).
The administrative law judge has determined that
Rovi has not shown that issue preclusion applies. As
the parties note, issue preclusion requires the
“identical issue” to be litigated. The Eastern District of
Texas granted ARRIS’s motion to change venue
pursuant to a forum selection clause. Here, ARRIS
seeks to terminate the investigation altogether, under
19 U.S.C. § 1337(c), as if the forum selection clause is
equivalent to a settlement agreement or arbitration
clause. As discussed above, terminating an
investigation under § 337(c) differs from transferring
venue pursuant to a forum selection clause.
Accordingly, issue preclusion does not apply.
VI. DOMESTIC
PRONG

INDUSTRY

–

ECONOMIC

As argued with regard to the technical prong, Rovi
has identified the following domestic industry
products: Rovi i-Guide, Rovi Passport, Rovi
TotalGuide xD system, Verizon FiOS system, and
SuddenLink. Rovi generally does not contend the
Verizon system (apart from licensing, for instance)
constitutes a portion of its domestic industry. See Rovi
Br. at 334-36.

899a
A. Rovi’s Investment in Plant and Equipment
Rovi contends it has invested [
] in informationtechnology (“IT”) and facilities related to its Passport
product “which included hardware, software, and
associated infrastructure investments, all necessary to
develop Passport.” CX-0007C (Putnam WS) at Q/A 8889; CX 1456C (DI Product Financials); CX-0006C
(Bright WS) at Q/A 53-57. Rovi also contends it
invested [ ] in IT and facilities related to i-Guide and
[
] for TotalGuide xD. See CX-0007C (Putnam WS)
at Q/A 90-93; CX-1456C (DI Product Financials); CX0006C (Bright WS) at Q/A 53-57.
Comcast argues that Rovi’s investments do not
count “under Prong A because they relate to R&D or
sales and marketing.” Resps. Br. at 361. Comcast
argues:
For iGuide, of the [
] relate to R&D, [
] relate to sales, and [
] relate to
marketing. See RDX-1501C (citing RPX0004C). For Passport, of the [
] relate
to R&D, [
] relate to sales, and [
]
relate to marketing. See id. For
TotalGuide xD, of the [ ] relate to R&D
and [ ] relate to sales. See id.
Id. at n.97.
Rovi responds that R&D expenses have been used
to satisfy prong A:
[T]he Commission has long found it
appropriate to independently account for
the same domestic industry investment
under separate domestic industry
categories. See, e.g, Certain Table Saws
Incorporating Active Injury Mitigation

900a
Tech. & Components Thereof, Inv. No.
337-TA-965, Initial Determination, at
16-17 (Mar. 22, 2016) (unreviewed)
(including the complainant’s R&D
facility and unspecified “office space” in
a 337(a)(3)(A) analysis and “R&D,”
“engineering,” and “technical service” as
relevant
labor
expenses
under
337(a)(3)(B)); Certain Modified Vaccina
Ankara (“MVA”) Viruses and Vaccines
and Pharmaceutical Compositions Based
Thereon, Inv. No. 337-TA-550, Initial
Determination, at 95-96 (Sept. 6, 2006)
(unreviewed) (complainant’s lease of
“research facility” significant under
337(a)(3)(A); Certain Multiple Mode
Outdoor Grills and Parts Thereof, Inv.
No. 337-TA-895, Initial Determination,
at 89-91 (Sept. 26, 2014) (unreviewed in
relevant part) (finding satisfaction of
subsection (B) based in part on labor
relating to engineering and R&D).
Rovi Reply at 126-27.
Rovi has nine U.S. facilities that support sales,
marketing, technical support activities, product
development, and activities related to the DI Products.
CX-0007C (Putnam WS) at Q/A 95-98; JX-0039 (Rovi
2015 10-K); CX-0006C (Bright WS) at Q/A 23, 29 32.
Rovi’s Burbank, California office provides significant
support for Passport; Rovi’s Golden, Colorado office is
primarily associated with the development and
support of i-Guide; Rovi’s Tulsa, Oklahoma office is
associated with support for all of Rovi’s DI Products
(including post-sales activities such as customer
support); and Rovi’s Wayne, Pennsylvania office

901a
employs multiple management and administrative
employees who contribute to the development and
management of Rovi’s DI Products. See CX-0007C
(Putnam WS) at Q/A 99-100; CX-0006C (Bright WS) at
Q/A 29-32; CX-1455C (Condensed Guide - Patent
Category List). Dr. Putnam also opined that Rovi’s
investments are significant. CX-0007C (Putnam WS)
at Q/A 108-10, 113-14.
The administrative law judge finds that Rovi’s R&D
expenses, along with its IT and facility expenses, are a
significant investment in plant and equipment. See
CX-0007C (Putnam WS) at Q/A 88-93; CX-1456C (DI
Product Financials); CX-0006C (Bright WS) at Q/A 5357. Further, even if R&D expenses are excluded, Rovi
has still shown that its facilities in Burbank,
California, Golden, Colorado, Tulsa, Oklahoma, and
Wayne, Pennsylvania are a significant investment in
plant and equipment.
Accordingly, the administrative law judge has
determined that the evidence shows Rovi satisfies the
economic prong of the domestic industry requirement
under § 337(a)(3)(A).
B. Rovi’s Employment of Labor or Capital
1. Labor
Rovi argues:
. . . Each year from 2012 to 2015, an
average of the full-time equivalent of [ ]
U.S. Rovi employees worked on Passport
and an average of the full-time
equivalent of [
] U.S. Rovi employees
worked on i-Guide; in 2014, the full-time
equivalent of [
] U.S. Rovi employees
worked on TotalGuide xD; and in 2015,

902a
the full-time equivalent of [ ] U.S. Rovi
employees worked on TotalGuide xD.
CX-0007C (Putnam WS) at Q/A 118-20;
CX-0006C (Bright WS) at Q/A 58.
. . . from 2012 to 2015, Rovi spent more
than [
] on labor associated with
Passport, and more than [
] on labor
associated with i-Guide, all in the U.S.
CX-0007C (Putnam WS) at Q/A 121-24,
Table 4; CX-1456C (DI Product
Financials); CX-0006C (Bright WS) at
Q/A 59-61. And from 2014 to 2015, Rovi
spent more than [
] associated with
TotalGuide xD on U.S. labor. CX-0007C
(Putnam WS) at Q/A 121-22, 125; CX0006C (Bright WS) at Q/A 59-61. Each of
these expenditures includes R&D,
engineering, and tech support; sales and
marketing (licensing); and costs of goods
sold; including compensation, benefits,
and commissions. CX-0007C (Putnam
WS) at Q/A 121-22; CX-1456C (DI
Product Financials); CX-0006C (Bright
WS) at Q/A 60-61.
Rovi Br. at 339-40.
Comcast argues:
• that Rovi’s data are unreliable and that Rovi
engineers have testified that there are only [ ]
employees who work on i-Guide, [ ] employees
who work on Passport, and only [ ] in the U.S.
that works on TotalGuide xD (Resps. Br. at
364);

903a
• that Rovi failed to allocate its labor costs to the
protected articles, because Dr. Putnam “failed
to tie any labor costs for IPGs to any particular
article that satisfies the technical prong”
(Resps. Br. at 365);
• that Rovi’s data improperly includes R&D and
sales and marketing expenses (this is the same
argument made with respect to prong A, above)
(Resps. Br. at 365)
• that Rovi’s labor costs are unreliable, because
Rovi’s witnesses could not explain what
activities employees whose expenses were
reported actually performed (Resps. Br. at 366);
and
• that Rovi’s labor expenses are not significant in
relation to Rovi’s overall expenses (Resps. Br. at
367).
Rovi replies that the law does not require proof that
its employees engage in specific activities. Rovi Reply
at 127-28 (“Such proof is not required—Rovi presented
its domestic industry expenses as they are kept in
Rovi’s ordinary course of business, which is all that the
Commission requires.”).
The administrative law judge finds that Rovi’s
R&D, engineering, and tech support expenses are a
significant investment in labor. See CX-0007C
(Putnam WS) at Q/A 121-36 (Rovi has spent over [ ]
on labor related to Passport; over [ ] on labor related
to i-Guide; over [
] on labor related to TotalGuide
xD); see also Resps. Br. at 366 n.100 (reporting for
“iGuide, of the [
] relate to R&D and [
] relate to
Sales & Marketing. For Passport, of the [ ] relate to
R&D and [
] relate to Sales & Marketing. For

904a
TotalGuide xD, of the [
] relate to R&D and [
]
relate to Sales & Marketing. See RDX-1502C at 2-3).
The cost of goods sold (“COGS”) data are unreliable, as
no Rovi witness could explain how they relate to this
investigation. Tr. 407-410. The magnitude of these
expenditures alone is sufficient to constitute a
significant employment of labor under § 337 (a)(3)(B).
See Lelo Inc. v. Int’l Trade Comm’n, 786 F.3d 879, 883
(Fed. Cir. 2015) (“the terms ‘significant’ and
‘substantial’ refer to an increase in quantity, or to a
benchmark in numbers”).
Accordingly, the administrative law judge has
determined that the evidence shows Rovi satisfies the
economic prong of the domestic industry requirement
under § 337(a)(3)(B).
2. Capital
Rovi argues:
. . . U.S. capital expenditures allocated to
the DI Products totaled approximately
[ ] from 2012-2015. CX-0007C (Putnam
WS) at Q/A 138-39. Of this total, [
] is
allocated to Passport, [ ] is allocated to
i-Guide, and [
] is allocated to
TotalGuide xD. Id. at Q/A 139, Table 5;
CX-0006C (Bright WS) at Q/A 52-57; CX1456C (DI Product Financials). Rovi’s
capital expenditures with respect to
Passport, and with respect to i-Guide,
are each significant in relation to Rovi’s
overall capital expenditures and relative
to each product. CX-0007C (Putnam WS)
at
Q/A
140-41.
Rovi’s
capital
expenditures with respect to Total Guide

905a
xD, limited to 2014-15, are likewise
significant. Id. at Q/A 142.
Rovi Br. at 341-42.
Comcast argues:
No evidence shows Rovi made capital
expenditures with respect to its IPGs.
Dr. Putnam claims [Rovi spent [
]
(2013), and [
] (2014) on capital
expenditures and that Rovi anticipates
spending [
] more in 2016. CX-0007C
at Q/A 137. These figures are total
companywide capital expenditures from
Rovi’s annual reports. See JX-0036 (Rovi
2012 Form 10-K) at JX-0036.000048, JX0037 (Rovi 2013 Form 10-K) at JX0037.000046, and JX-0038 (Rovi 2014
Form 10-K) at JX-0038.000049. But
these investments are not limited to the
U.S. RX-0852C (Schoettelkotte WS) at
Q/A 64. Nor are they investments in
protected articles. Id. These capital
expenditures do not even represent
investments in Rovi’s IPGs. Id.
Therefore, these investments are of little
relevance, especially given that Rovi
does not even rely on these
investments.
Resps. Br. at 367-68 (emphasis in original).
The administrative law judge finds that Rovi has
shown its claimed capital expenditures were made
with respect to its IPGs and that the investment was
made in the United States, as shown in Dr. Putnam’s
testimony:

906a
139. Q: And, in particular, what were
Rovi’s capital expenditures made in
relation the Domestic Industry
Products?
A: Rovi allocates its expenditures on
facilities and information technology
(“overhead”) to the Domestic Industry
Products, based on an annual review of
its expenditures. Using that method,
Rovi spent about [ ] million from 20122015 on the Domestic Industry Products,
as shown in Table 5.
[

]

CX-0007C (Putnam WS) at Q/A 139-44. In particular,
the [
] expense for Passport products and the [
]
expense for i-Guide products are each individually
significant for a company of Rovi’s size, and the sum
for all three products is also significant for a company
of Rovi’s size. See JX-0039 at 37 (reporting annual
revenues of approximately $500M for 2011, 2012,
2013, 2014, and 2015).
Accordingly, administrative law judge has
determined that the capital expenses cited are
significant under § 337(a)(3)(B).
C. Rovi’s Investment in Exploitation of the
Patents, Based on Engineering, Research
and Development
Rovi argues:
. . . Rovi tracks its expenses by “cost
centers” associated with R&D and
engineering activities, and regularly
performs a “Product P&L” process to

907a
allocate these expenses to certain
products. See CX-0006C (Bright WS) at
Q/A 16-17; Bright Tr. 379, 385. Based on
these ordinary course allocations, since
2012 Rovi has invested at least
approximately [
] on U.S. R&D
activities
related
to
Passport
(approximately [
] annually), and
approximately [
] on U.S. R&D
activities
related
to
i-Guide
(approximately [
] annually). . . . And
since 2014, Rovi has invested at least
approximately [
] on U.S. R&D
activities related to TotalGuide xD
(approximately [ ] annually).
Rovi Br. at 343.
Rovi reports its U.S. R&D expenses for the DI
products for 2015, as follows:
[

]

Rovi Br. at 344.
Comcast argues:
• Rovi did not allocate its investments to
protected articles (Resps. Br. at 368);
• Rovi’s expenditures are unreliable, because no
Rovi witness could explain the activities
performed in its R&D cost centers (Resps. Br. at
369-70);
• Rovi has not established a nexus between its
R&D and the asserted patents, because its
expenses are tied to its IPGs, not the patented
features of those products (Resps. Br. at 370);
and

908a
• Rovi’s expenses are not substantial in context,
because “Rovi’s declining IPG business and its
shifting of investments from those products
undermine any suggestion that Rovi’s R&D
investments for its IPG products are
‘substantial.’” (Resps. Br. at 370-73).
The Commission does not adhere to a rigid formula
in determining the scope of the domestic industry.
Certain Printing and. Imaging Devices and
Components Thereof, Inv. No. 337-TA-690, Comm’n
Op. at 27 (Feb. 17, 2011) (citing Certain Male
Prophylactic Devices, Inv. No. 337-TA-546, Comm’n
Op. at 39 (Aug. 1, 2007) (“Male Prophylactics”). The
Commission explained that the domestic industry
“determination entails ‘an examination of the facts in
each investigation, the article of commerce, and the
realities of the marketplace.’ . . . The determination
takes into account the nature of the investment and/or
employment activities, ‘the industry in question, and
the complainant’s relative size.’” Id. (quoting Male
Prophylactics and Certain Stringed Musical
Instruments and Components Thereof, Inv. No. 337TA-586, Comm’n Op. at 26 (May 16, 2008)).
The administrative law judge finds that Rovi has
shown that its investment in research and
development is substantial. For example, since 2012,
Rovi has spent about [
] million on R&D related to
Passport and about [
] million on R&D related to iGuide. Since 2014, Rovi has spent [ ] million on R&D
related to Total Guide xD. See CX-0007C (Putnam WS)
at Q/A 150-53. These expenses have supported [
]
jobs. Id. at Q/A 155-57; CX-1456C (DI Product
Financials). Further, Rovi has shown that its
expenditures relate to its IPGs, which practice certain
of the asserted patents, as discussed above.

909a
Accordingly, the administrative law judge has
determined that the evidence shows Rovi satisfies the
economic prong of the domestic industry requirement
under § 337(a)(3)(C) based on its substantial
investment in engineering and research and
development.
D. Rovi’s Investment in Exploitation of the
Patents, Based on Licensing
When a complainant relies on licensing to
demonstrate the existence of a domestic industry
pursuant to section 337(a)(3)(C) based on licensing,
the Commission has explained the showing required of
the complainant, as follows:
Complainants who seek to satisfy the
domestic industry requirement by their
investments in patent licensing must
establish that their asserted investment
activities satisfy three requirements of
section 337(a)(3)(C). First, the statute
requires that the investment in licensing
relate to “its exploitation,” meaning an
investment in the exploitation of the
asserted
patent.
19
U.S.C.
§
1337(a)(3)(C) . . . . Second, the statute
requires that the investment relate to
“licensing.” 19 U.S.C. § 1337(a)(3)(C) . . .
. Third, any alleged investment must be
domestic, i.e., it must occur in the United
States. 19 U.S.C. § 1337(a)(2), (a)(3).
Investments
meeting
these
requirements merit consideration in our
evaluation of whether a complainant has
satisfied
the
domestic
industry
requirement. Only after determining the

910a
extent to which the complainant’s
investments fall within these statutory
parameters can we evaluate whether
complainant’s qualifying investments
are “substantial,” as required by the
statute. 19 U.S.C. § 1337(a)(3)(C). If a
complainant’s activity is only partially
related to licensing the asserted patent
in the United States, the Commission
examines the strength of the nexus
between the activity and licensing the
asserted patent in the United States.
Navigation Devices, Inv. No. 337-TA-694, Corrected
Comm’n Op. at 7-8 (Aug. 8, 2011). One “potentially
important consideration is whether the licensee’s
efforts relate to ‘an article protected by’ the asserted
patent under section 337(a)(2)-(3).” Id. at 10. In
addition, the Commission has explained it
may also consider other factors
including, but not limited to, (1) the
number of patents in the portfolio, (2) the
relative value contributed by the
asserted patent to the portfolio, (3) the
prominence of the asserted patent in
licensing discussions, negotiations and
any resulting license agreement, and (4)
the scope of the technology covered by
the portfolio compared to the scope of the
asserted patent.
Id. In assessing an asserted patent’s value within a
portfolio, the Commission looks for evidence that
(1) it was discussed during the licensing
negotiation process, (2) it has been
successfully
litigated
before
by

911a
complainant, (3) it relates to a
technology industry standard, (4) it is a
base or pioneering patent, (5) it is
infringed or practiced in the United
States, or (6) the market recognizes its
value in some other way.
Id. at 10-11.
1. Licensing Investment
Assuming that the nexus requirement has been
met, the administrative law judge finds that Rovi has
invested in licensing the guidance portfolio through
labor costs in the U.S. for its licensing team and for
overhead expenditures for these employees.
Rovi explains that it has calculated its investment
in three ways: the “ordinary course,” which involves
data from Kevin Bright, Rovi’s Senior Director of
Financial Planning & Analysis, the “Armaly
allocation,” and the “Putnam expert analysis.” Rovi Br.
at 350-53. Rovi reports its expenses, as follows:
1. Bright
Data

2. Armaly
Allocation

3. Putnam
Allocation

Time
Frame

2011-2Q2016

20152Q2016

2012-2015

Total $

[

Avg $

]

See id. at 353.
Comcast argues that Rovi’s “claimed licensing
expenditures have changed dramatically, resulting in
readily apparent inconsistencies, and are therefore

912a
unreliable and cannot establish a DI.” Resps. Br. at
375.
a) Bright Data
Rovi argues:
First, Kevin Bright, Rovi’s Senior
Director of Financial Planning &
Analysis, testified that Rovi’s patent
licensing expenses are kept in the
ordinary course of Rovi’s business. CX0006C (Bright WS) at Q/A 17, 18, 31, 53.
While Comcast and its expert dispute
whether it was appropriate for Rovi to
count litigation and patent prosecution
expenses in its licensing expenses, see
RX-0852C (Schoettelkotte RWS) at Q/A
153, such activities are part and parcel of
Rovi’s patent licensing business, and
Rovi counts them as licensing expenses
in the ordinary course of Rovi’s business.
See Bright Tr. 393. The Commission has
repeatedly found that such expenses
may be appropriately counted under
prong (C) when, as here, they are paired
with other licensing-related investments
and activities. . . .
According to Mr. Bright, from 2011
through 2Q of 2016, Rovi has incurred a
total of [
] in U.S. licensing
expenditures, of which approximately
[
] was for individuals who are
dedicated full-time to patent licensing
and [ ] in allocated overhead expenses.
CX-0006C (Bright WS) at Q/A 89-90; CX1480C (Licensing Financials). Rovi’s

913a
licensing expenses have increased
materially, from [ ] in 2011 to [
] in
2015 (and [
] for the first half of 2016).
CX-1480C (Licensing Financials). [
]
CX-0006C (Bright WS) at Q/A 90; CX1480C (Licensing Financials). This large
number of individuals who are
categorized by Rovi in the ordinary
course of business as dedicated to or
supported by patent licensing—as well of
the expenses related thereto—directly
lead to the patent licensing royalties
which make up more than [
] of Rovi’s
overall revenues.
Rovi Br. at 350-51.
The administrative law judge finds that the Bright
Data shows that Rovi invests in licensing the guidance
portfolio. [
] See CX-0006C (Bright WS) at Q/A 8990; CX-1480C (Licensing Financials). The data also
show that Rovi has spent [
] in allocated overhead
expenses. See id.
b) Armaly Allocation
Rovi argues:
Second, Samir Armaly, Rovi’s Executive
Vice President of Intellectual Property
and Licensing, provided an alternative,
conservative allocation of employee time
spent on patent licensing based on his
personal
experience,
discounting
activities such as litigation or patent
prosecution (which, as noted above, is
not required by Commission precedent).
CX-0001C (Armaly WS) at Q/A 53; CX-

914a
0900C (Armaly Estimate of Patent
Licensing Activity); see also CX-0006C
(Bright WS) at Q/A 95-99. Since 2008, Mr
Armaly has led Rovi’s patent licensing
organization and manages Rovi’s patent
licensing business through which Rovi
offers for license to third parties its
patented
technology
innovations
developed over the last several decades.
CX-0001C (Armaly WS) at Q/A 5, 6, 18.
Mr. Armaly’s responsibilities include all
aspects related to Rovi’s patent licensing
business, including (1) development and
management of the patent portfolio (both
through
internal
research
and
development and, where appropriate,
acquiring
patents
from
other
companies), (2) monetizing Rovi’s patent
portfolio through third-party licenses,
and (3) if necessary, litigation associated
with Rovi’s patent portfolio when
commercial
negotiations
are
not
successful, and he is responsible for the
overall P&L of Rovi’s patent licensing
business and also advises Rovi’s
management on legal and strategic
issues related to Rovi’s patent business.
CX-0001C (Armaly WS) at Q/A 5.
Based on Mr. Armaly’s calculations,
approximately [ ] Rovi employees spent
on average [
] of their time on U.S.
patent licensing. CX-0900C (Armaly
Estimate of Patent Licensing Activity
Allocation); CX-0001C (Armaly WS) at
Q/A 53; see also CX-0007C (Putnam WS)

915a
at Q/A 203, 206-08. Mr. Bright then
provided compensation information,
kept in the ordinary course of Rovi’s
business, for these individuals for 2015
and the first half of 2016—noting that
over these 18 months, these individuals
were paid a total of [
], approximately
[
] of which was attributable to
domestic patent licensing activities
based on Mr. Armaly’s estimates. CX0006C (Bright WS) at Q/A 99.
Rovi Br. at 351-52.
The administrative law judge finds that the Armaly
allocation shows that Rovi invests in licensing the
guidance portfolio. In particular, the data show that
Rovi employed about [
] full-time employees [
]
employees who spent [ ] of their time on U.S. patent
licensing) in 2015-16, and it spent approximately [ ]
in compensating those employees. See CX-0006C
(Bright WS) at Q/A 99; CX-0900C (Armaly Estimate of
Patent Licensing Activity Allocation); CX-0001C
(Armaly WS) at Q/A 53.
c) Putnam Allocation
Rovi argues:
[

]

Rovi Br. at 352-53.
Comcast argues that Dr. Putnam’s testimony is
unreliable because he “failed to account for Mr.
Armaly’s (or Mr. Bright’s) testimony or explain how he
de-allocated from Rovi’s initial or updated claimed
expenditures.” Resps. Br. at 374-75. Comcast also
points to inconsistencies between figures and analysis

916a
provided at different
investigation. Id.

points

throughout

the

The administrative law judge finds that the Putnam
allocation shows that Rovi invests in licensing the
guidance portfolio. In particular, the data show that
Rovi employed [ ]
2. Substantiality of Licensing Investment
In assessing substantiality of a licensing
investment, the Commission considers: (1) the nature
of the industry and the resources of the complainant;
(2) the existence of other types of exploitation
activities; (3) the existence of license-related
“ancillary” activities; (4) whether complainant’s
licensing activities are continuing; (5) whether
complainant’s licensing activities are the type of
activities that are referenced favorably in the
legislative history of section 337(a)(3)(C); and (6) the
complainant’s return on its licensing investment. See
Navigation Devices, Comm’n Op. at 15-16. There is no
minimum monetary expenditure that a complainant
must demonstrate to qualify as a domestic industry
under the ‘substantial investment’ requirement” of
section
337(a)(3)(C).
See
Stringed
Musical
Instruments, Comm2008 WL 2139143 at *14.
This is Rovi’s argument:
[

]

However measured, Rovi’s investments
in licensing its guidance patent portfolio
are at least [ ] million dollars per year.
Any alleged weakness in the nexus of
these licensing investments to the
Asserted Patents is far outweighed by
these investments’ clear substantiality.

917a
Navigation Devices, Inv. No. 337-TA694, Comm’n Op. at 25.
Whether measured by (1) Rovi’s ordinary
course documents [the Bright data], (2)
Mr. Armaly’s alternative estimates, or
(3) Dr. Putnam’s independent analysis
based on (1) and (2), these licensing
activities and related investments are
indisputably of a large magnitude,
generate more than half of Rovi’s
revenues, and are substantial within the
meaning of Section 337(a)(2)-(3).
Rovi Br. at 362-63.
Within the Navigation Devices framework, Comcast
argues that Rovi has not shown the investments are
substantial. Resps. Br. at 387-90.
a) Nature
of
the
Industry
Complainant’s Resources;

and

In
Liquid
Crystal
Display
Devices,
the
administrative law judge found the complainant’s
investments were significant in part because they had
successfully licensed the portfolio at issue to “a large
portion of the industry.” Liquid Crystal Display
Devices, Comm’n Op. at 123.
Comcast argues that Rovi’s expense are not
substantial in relation to its total expenses and
because Mr. Armaly has split time between different
licensing efforts. See Resps. Br. at 388.
Here, the evidence shows that Rovi has licensed its
portfolio to a nearly the entire pay-TV industry. See
CX-0896C; CX-0001C at Q/A 30; CX-0007C (Putnam
WS) at Q/A 196. Accordingly, the administrative law

918a
judge has determined that this factor supports a
finding that the investments are substantial, as nearly
the entire industry has licensed Rovi’s portfolio.
b) Other
Types
Activities;

of

Exploitation

In addition to Rovi’s expenditures on compensation
and overhead related to licensing the guidance
portfolio, described above, Rovi makes investments in
plant and equipment and employs labor and capital to
exploit the asserted patents through research and
development for various products, including the
TotalGuide products.
This factor favors finding that Rovi’s investment is
substantial.
c) Existence
of
License-related
“Ancillary” Activities;
Rovi has not addressed ancillary activities. See
generally Rovi Br., Section IX(C)(4)(e). Accordingly,
this factor does not support a finding that Rovi’s
investment is substantial.
d) Continuing Licensing Activities
Comcast argues:
Considering that Rovi has licenses with
nearly all of the other major Pay-TV
providers (besides Comcast), whether
Rovi’s continuing domestic licensingrelated activities will be substantial
remains unclear, especially given the
declining market for Rovi’s IPG
products.
Resps. Br. at 389.

919a
Rovi has not addressed this factor, although the
administrative law judge is aware of parallel litigation
pending in district court. See generally Rovi Br.,
Section IX(C)(4)(e). There is no indication that Rovi
has stopped filing IPG patent applications. Further,
given that Rovi has licensed almost all of the industry,
this factor does not necessarily carry much
significance as it might for licensors who have licensed
only a minority of the industry.
This factor does not support a finding that Rovi’s
licensing investment is substantial.
e) Referenced
Favorably
Legislative History

in

Comcast argues:
The Commission has identified two types
of “licensing” activities: (1) productiondriven activities and (2) revenue-driven
activities, the latter which are accorded
less weight. See Navigation Devices,
Comm’n Op. at 25 n.20 (citation
omitted). Rovi’s licensing activities are
revenue-driven. Dr. Putnam admits
“some of Rovi’s licensing is, of course,
‘revenue-oriented[.]” CX-0007C (Putnam
WS) at Q/A 306. Dr. Putnam also admits
Rovi’s licensing program is primarily
targeted at “Tier One” subscription-TV
service providers, which are Rovi’s most
profitable negotiations. See id. at 231.
Rovi’s Tier One program targets the
renewal of agreements, reflecting that
Rovi’s activities are revenue-driven
because Tier One providers’ “production”
already exists. For example, in June

the

920a
2015, Rovi explained that renewals
represented the largest opportunity for
the company. RX-0017C (IP & Licensing
Presentation) at RX-0017C.0021. Thus,
the evidence shows Rovi’s activities are
revenue-driven and therefore should be
given less weight. See Navigation
Devices, Comm’n Op. at 25.
Resps. Br. at 389-90.
As shown in the domestic industry and the reviews
of Rovi’s licensing revenue, the administrative law
judge has determined that Rovi is engaged in both
production-driven and revenue-driven licensing.
Accordingly, the administrative law judge finds that
factor is neutral.
f) Return on Licensing Investment
Comcast argues that Rovi’s revenue is due to the
portfolio, not the asserted patents. Resps. Br. at 39091 (“Rovi’s revenue is derived from its portfolio as a
whole rather than any individual patents.”).
The evidence shows that between “2010 and 2015,
Rovi’s patent licenses generated Rovi close to [
] in
revenue.” Rovi Br. at 3 (citing CX-0007C (Putnam WS)
at Q/A 86; CX-0828C (Rovi Income Statement Charts)
at 4).
Although the royalties received under a license “do
not constitute the investment itself,” they do
constitute circumstantial evidence that a substantial
investment was made. Navigation Devices, Comm’n
Op. at 24.
This factor favors finding that Rovi’s investment is
substantial.

921a
g) Conclusion
Assuming that the nexus requirement is met, the
administrative law judge finds that, taken as a whole,
Rovi’s investment in licensing the asserted patents is
substantial.
3. Nexus Requirement
a) The Number
Portfolio

of

Patents

in

the

Comcast argues:
Dr. Putnam has no opinion on this factor,
Tr. 422:20-423:4, which he completely
failed to evaluate. See RX-0852C
(Schoettelkotte RWS) at Q/A 95. Yet the
large number of patents in the portfolio
weighs against a nexus. “All things being
equal, the nexus between licensing
activities and an asserted patent may be
stronger when the asserted patent is
among a relatively small group of
licensed patents.” Navigation Devices,
Comm’n Op. at 11. The Asserted Patents
are part of a huge portfolio [
] This
factor weighs strongly against a nexus.
Resps. Br. at 376-77.
The evidence shows that Rovi licenses its patents on
a portfolio basis. CX-0001C at Q/A 28, 31 (Rovi and
licensees “negotiate a portfolio-wide license that
includes all patents in the guidance portfolio”). [ ]
Assuming all other factors are equal, the large
number of patents in the portfolio, compared to the
relatively minute number of asserted patents,
suggests that the asserted patents do not have a nexus

922a
to
the
asserted
patents.
Accordingly,
the
administrative law judge finds that this factor weighs
against finding a nexus.
b) The Relative Value Contributed by
the Asserted Patents to the Portfolio
Rovi generally does not address each patent
individually. See Rovi Br. at 355-61 (Section
IX(C)(4)(d)(iii)). Nonetheless, Rovi argues that it
discussed the asserted patents during licensing
negotiations, Rovi’s portfolio is a “de facto” standard,
that patent citation data indicates the patents are
“base or pioneering” patents, and that the market has
recognized the patents’ value in other ways. Id.
Likewise, Comcast also does not address each
patent individually. See generally Resps. Br. at 375
(Section (E)(2)(a)(ii)).
(1) Discussed
Negotiations

During

Licensing

In general, each of the asserted patents was
discussed during prior negotiations with [
]—
prominent entities in the pay-TV market. See CX0001C (Armaly WS) at Q/A 74-88; CX-0896C (Rovi
Patents Identified to Licenses Chart). Rovi illustrates
its point with the following table:
[

]

See Rovi Br. at 356 (citing CX-0001C (Armaly WS) at
Q/A 74-88; CX-0896C (Rovi Patents Identified to
Licenses Chart)).
Comcast argues that the asserted patents “were not
featured prominently in negotiations.” Resps. Br. at
377. Comcast argues that the asserted patents were
not presented to numerous other licensees.

923a
The administrative law judge has determined that
Rovi has shown the accused patents were presented in
licensing negotiations. See CX-0896C. Accordingly,
this factor weighs in Rovi’s favor.
(2) Prior Successful Litigation
None of the asserted patents have been asserted in
prior litigations. See CX-0007C (Putnam WS) at Q/A
243. This factor carries a little weight against finding
any particular patent has value, particularly where
Rovi has engaged in IPG-related litigation prior to this
lawsuit. E.g., Netflix v. Rovi, 114 F. Supp. 3d 927 (N.D.
Cal. 2015); IPGs and Parental Controls, Inv. No. 337TA-845.
(3) Relation to
Standard

Technology/Industry

Rovi argues that its portfolio is a “de facto”
standard in the pay-TV industry, and that this reflects
“widespread appreciation of the Asserted Patents’
importance and value.” Rovi Br. at 359. Comcast
argues that Dr. Putnam and Mr. Armaly admitted that
there is no standard for IPGs. See Resps. Br. at 379-80
(citing CX-0007C (Putnam WS) at Q/A 247 (“[T]he
Asserted Patents themselves are not ‘standardessential patents.’”); Tr. 426; Tr. 105-106; JX-0087C
(Armaly Dep. Tr.) at 224).
The administrative law judge finds that Rovi has
not shown the asserted patents have any nexus to an
industry standard. Indeed, Rovi’s argument relates its
portfolio, not the asserted patents, to an imaginary
standard. Accordingly, this factor weighs against
finding that the asserted patents have significant
relative value.
(4) Base or Pioneering Patent

924a
Rovi relies on testimony from Mr. Armaly and a
patent-citation analysis from Dr. Putnam to argue
that the asserted patents are base or pioneering
patents. Rovi Br. at 359 (citing CX-0001C (Armaly WS)
at Q/A 11-13, 17; CX-0007C (Putnam WS) at Q/A 24956).
Mr. Armaly testified in general terms that IPGs
were first developed in the late 1980’s:
Q12. You described the evolution
from printed program guides to
IPGs on the consumer electronics
device. When were IPGs first
developed?
A. IPG technology was first developed in
the late 1980s and early 1990s and has
continued to evolve to provide users with
access to program information, and in
some cases, other features and
functionality that facilitate the use and
enjoyment of video programming. An
early type of IPG was a full-screen “grid
guide” that displayed television program
listings by time and channel in a twodimensional grid. The features and
functions available through IPGs today
are far more extensive and sophisticated.
CX-0002C at Q/A 12. The cited testimony (Q/A 11-13,
17) does not refer to the asserted patents, and it does
not explain how those patents were base or pioneering
over predecessor technology. At the hearing, Mr.
Armaly admitted that no documents or industry
statements support his claim that the Asserted
Patents are “foundational” in nature. See Tr. 105.

925a
Dr. Putnam’s citation analysis is limited to three
patents, the ’556, ’801, and ’263 Patents. See CX-0007C
(Putnam WS) at Q/A 254. The ’801 Patent shares
“essentially the same specification” as the ’263 Patent.
See Resps. Br. at 63; see also Rovi Br. at 41 (explaining
the patents “stem from a common, parent application
filed on July 16, 1999”). Further, accepting Dr.
Putnam’s analysis would require the administrative
law judge to agree with the analysis’s definition of
“base” and how it is measured (with patent citation
data alone). See CX-0007C (Putnam WS) at Q/A 25153, 263. Rovi does not point to any tribunals that have
accepted patent-citation analysis testimony as an
indicator of value, and during cross examination Dr.
Putnam testified that he did not address one article
because it involved a particular assumption about
innovation and weighted patent counts. See Tr. 12561257 (discussing RX-0794, Abrams et al.,
Understanding the Link Between Patent Value and
Citations).
The lack of technical testimony and the lack of other
extrinsic, objective evidence relevant to the base or
pioneering nature of any of the asserted patents is a
significant obstacle to Rovi’s argument. Dr. Putnam’s
patent-citation analysis, while interesting, does not
provide a sufficient basis to conclude that the patents
are “base or pioneering” given the lack of
corresponding technical testimony and extrinsic
evidence. Accordingly, the administrative law judge
has determined that Rovi has not shown that any of
the asserted patents are base or pioneering patents for
purposes of the Navigation Devices analysis.
(5) Infringed or Practiced in the United
States

926a
Rovi argues:
A wide variety of set-top boxes used
throughout the industry—not just those
imported by Respondents—practice the
Asserted Patents. CX-0007C (Putnam
WS) at Q/A 245; CX-0001C (Armaly WS)
at Q/A 24 27. As the vast majority of the
U.S. Pay-TV industry has taken a license
to the Asserted Patents, it is reasonable
to conclude that a large number of Rovi’s
licensees practice the Asserted Patents.
CX-0007C (Putnam WS) at Q/A 245. Due
to the widespread licensing of Rovi’s
guidance portfolio, and the desirability of
the features claimed in the Asserted
Patents, widespread use of the Asserted
Patents is very likely, supporting the
finding of a nexus here. Id.
Rovi Br. at 361.
Comcast argues that no party has been found to
infringe the asserted patents and that Rovi has only
attempted to show that three licensees practice the
asserted patents. See Resps. Br. at 380.
The administrative law judge has determined that
the ’263, ’413, and ’512 Patents are infringed or
practiced in the United States. See Sections V(B), V(E),
V(F). Accordingly, this factor weighs in favor of finding
that the ’263, ’413, and ’512 Patents have relative
value within the portfolio.
(6) Other Recognition of Value
Rovi argues that its patent-citation analysis also
shows that the market recognizes the value of the
asserted patents. Rovi Br. at 360. Rovi argues “Dr.

927a
Putnam factored in citation data and other economic
considerations, such as mentions in licensing
negotiations, to determine that the Asserted Patents
fall in the [
] Id. Dr. Putnam’s analysis comments
that the [ ]. Id.
Comcast argues that “Mr. Schoettelkotte identifies
multiple flaws with Dr. Putnam’s methodology and
results.” Resps. Br. at 381 (citing RX-0852C
(Schoettelkotte RWS) at Q/A 123-130). Comcast
critiques Dr. Putnam’s methodology insofar as it relies
“heavily” on self-citations and also notes that Dr.
Putnam only ranked three of the asserted patents. Id.
Comcast further notes that “a patent Dr. Putnam
ranked seventh highest was found in Inv. No. 337-TA845 to have a weak nexus to Rovi’s licensing
activities.” Id. (emphasis added by Comcast). Further,
Comcast has pointed to statements by Mr. Armaly
commenting that Rovi’s portfolio is not as susceptible
to challenges given its size:
Ultimately one of the advantages that
Rovi has in this area [of Alice challenges]
is the size and the state of our patent
portfolio. Companies with only handful
of patents or with only issued patents
without pending applications would
likely have more risk under the new
Alice test. This is simply not the position
that Rovi is in.
…
[in commenting on a litigation involving
Netflix, Mr. Armaly said:] As quick
reminder only 5 patents in our portfolio
are at issue in this case and Rovi’s
portfolio includes more than 5,000 issued

928a
patents and pending applications around
the world. Please remember that it only
takes claim of patent to survive for us to
be able to prevail in this litigation. And
we have an extensive portfolio of
additional patents that we can litigate on
should that be necessary to drive an
acceptable resolution.
RX-0611 at 8. These statements indicate that Rovi
itself believes the market recognizes the value of its
portfolio, not the value of a handful of particular
patents.
Dr. Putnam’s analysis does not sufficiently separate
value of the asserted patents from the value of the
portfolio because there is no assessment of whether
other patents (or sub portfolios) in the portfolio are
driving the value that is reflected in the royalties paid.
For example, Dr. Putnam’s analysis approaches an
invention about tuner conflicts (the ’512 Patent) in the
same way it approaches an invention about remote
access functionality (e.g., the ’263 and ’413 Patents)
when these patents are clearly of different value.
Further, Dr. Putnam’s analysis does not analyze three
of the asserted patents.
Accordingly, the administrative law judge has
determined that Rovi has not shown that the asserted
patents have recognized relative value apart from the
portfolio.
(7) Conclusion on the Relative Value
While the asserted patents were discussed during
licensing negotiations and three of the patents were
found infringed or practiced, the remaining factors
either are neutral, and do not support Rovi’s

929a
argument, or weigh against finding that the asserted
patents have a significant relative value. Accordingly,
this factor does not support a nexus.
c) The Prominence of the Asserted
Patent in Licensing Discussions,
Negotiations and any Resulting
License Agreement
Rovi argues that the asserted patents were featured
prominently in negotiations:
[

]

Rovi Br. at 358. Rovi also relies on “call outs” (i.e.,
high-level infringement charts) involving the asserted
patents. See id. (citing CX-0001C (Armaly WS) at Q/A
80; CX-0739C (Roadmap for Verizon).
Comcast argues that Rovi should have examined all
of its negotiations and that doing so would have
“reached quite reached quite a different conclusion.”
Resps. Br. at 377 (citing RX-0852C (Schoettelkotte
RWS) at Q/A 101-111). Comcast also notes that:
[
] Rovi attempts to explain the value
of its portfolio as opposed to the value of
individual patents and believes that the
breadth and depth of Rovi’s portfolio as a
whole puts Rovi in a good position. See
id.; see also Tr. 102:25-104:22. Comcast’s
Mr. Marcus confirmed no individual Rovi
patent or group of patents was presented
to Comcast as more valuable than any
other. See RX-0001C (Marcus WS) at Q/A
36-51.
Id. at 378 (emphasis in original, footnote omitted).

930a
The administrative law judge has determined that
the evidence does not show the asserted patents were
particularly prominent in discussions, negotiations, or
in any subsequent licenses. Simply put, the frequency
that Rovi selected a given patent alone is not enough
to conclude that stood out in a meaningful way,
particularly in light of Mr. Armaly’s comments about
the value of Rovi’s portfolio. See RX-0611 at 8.
Accordingly, this factor does not support finding a
nexus.
d) The Scope of the Technology Covered
by the Portfolio Compared to the
Scope of the Asserted Patents
Comcast argues that the scope of the patents is
narrow in relation to the scope of the portfolio: “Rovi’s
portfolio covers all different types of devices, including
televisions, STBs, mobile devices, tablets, PCs, as well
as different types of technologies, including linear
programming,
DVRs,
video-on-demand,
TV
Everywhere, and over-the-top streaming.” Resps. Br.
at 383 (citing RX-0609 (2014 Shareholder Call) at 8).
Rovi has not addressed the scope of its portfolio in
relation to the scope of the asserted patents. See
generally Rovi Br., Section IX(C)(4) (“scope” is not
discussed), Rovi Reply, Section X (same).
The administrative law judge has determined that
the scope of the asserted patents is narrow relative to
the scope of the portfolio, which includes diverse
technologies such as televisions, STBs, mobile devices,
tablets, PCs, as well as different types of technologies,
including linear programming, DVRs, video-ondemand, TV Everywhere, and over-the-top streaming.
Accordingly, this factor does not support a nexus.

931a
e) Conclusion on Nexus
The administrative law judge has determined that
Rovi has not shown a nexus between its activities and
licensing the asserted patent in the United States. The
high number of patents in Rovi’s portfolio, the lack of
relative value of the asserted patents, and the lack of
a showing pertaining to the scope of the patents in
comparison to the portfolio are significant obstacles to
finding a nexus.
Accordingly, the administrative law judge has
determined that Rovi has not shown a domestic
industry based on licensing under section 337(a)(3)(C).
E. Rovi’s Domestic Industry
Verizon Investments

Based

on

Rovi argues that Verizon has made significant
domestic investments in plant and equipment and
significantly employed labor and capital relating to
products that practice the asserted patents that
independently satisfy the economic prong of the
domestic industry requirement. See Rovi Br. at 363.
1. Investment in Plant and Equipment
For Verizon plant and equipment, Rovi argues:
Verizon has invested at least $23 billion
in development of the FiOS service in the
U.S. since 2004, and in 2016 announced
its plan to continue capital expenditures
on FiOS. CX-0249 (Verizon 2015 10-K);
CX-0007C (Putnam WS) at Q/A 321; CX1937C (2nd Errata to Putnam WS). As of
July 2016, Verizon had invested an
average of [
] in equipment costs per
home passed over the last year between

932a
the New England, New York, and MidAtlantic regions alone. CX-0221C (FiOS
Profitability Analysis); CX-0249 (Verizon
2015 10-K); CX-0007C (Putnam WS) at
Q/A 322; CX-1937C (2nd Errata to
Putnam
WS).
These
massive
investments in equipment relating to
products and services which practice
each of the Asserted Patents are clearly
significant in relation to Verizon’s
business and product lines, satisfying
the economic prong of the, domestic
industry
requirement
under
§
337(a)(3)(A). CX-0007C (Putnam WS) at
Q/A 326 27.
Rovi Br. at 364.
For Verizon plant and equipment, Comcast argues:
Rovi failed to show that Verizon made
investments under Prongs A or B. Rovi
failed to show how Verizon’s alleged
overall investments relate to protected
articles. Dr. Putnam claims that “Rovi
contends that certain Verizon STBs used
in the provision of Verizon’s FiOS PayTV services practice certain claims of
each of the Asserted Patents.” CX-0007C
(Putnam WS) at QA 319. Dr. Putnam
identified certain Verizon STBs as “DI
products,” (Id. at QA 73), but none of
Verizon’s investments are tied to those
(or any) particular products. The only
financial document Dr. Putnam cites in
his discussion is a Verizon 2015 Annual
Report. See id. at QA 318-327 (citing CX-

933a
0249 (Verizon 2015 Form 10-K) in QA
325).
Dr. Putnam simply concludes that
Verizon’s average investment of [ ] per
subscribing home over the last year
ending July 2016 satisfies Prong A. Id. at
QA 327. Dr. Putnam provides no
evidentiary support or analysis for his
claim. For example, Dr. Putnam fails to
determine what portion of Verizon’s
alleged investments could be allocated to
the Verizon STB products he identifies.
See id. at QA 73; see also Tr. 402:7-18
(Dr. Putnam admitting he did not know
which particular Verizon STBs actually
implement the Rovi IPG products, nor
did he determine “set-top-specific
investments” but instead relied upon
“ecosystem-level investments”).
Resps. Br. at 390-91.
The administrative law judge finds that the
evidence Rovi relies upon does not establish a domestic
industry for purposes of § 337(a)(3)(A). Rovi’s
suggestion of attributing $23 billion in investment for
the Verizon FiOS network—a number that captures
Verizon’s fiber optic network and corporate acquisition
funds, see CX-0007C (Putnam WS) at Q/A 321—to the
asserted patents (i.e., program guides and set-top
boxes) is simply not supported, as Rovi has not shown
a plausible basis for concluding that the six asserted
patents are responsible for investment of this type.
Further, Rovi’s arguments and evidence are not
sufficiently tied to the protected articles. For instance,
Dr. Putnam testified that his analysis was tied to

934a
“ecosystem-level investments.” See Tr. (Putnam) at
402. On the whole, the evidence is too weak to support
a finding that the above Verizon investments
constitute an independent domestic industry.
2. Employment of Labor or Capital
For Verizon labor or capital, Rovi argues:
In addition to the above investments in
plant and equipment, Verizon has made
additional significant investments in
labor and capital to support its patentpracticing FiOS products and services.
Between January 2016 and July 2016,
Verizon spent about [
]. These
represent significant investments in the
employment of labor capital relating to
the patent-practicing FiOS products
under § 337(a)(3)(B), such that Verizon’s
activities satisfy the economic prong of
the domestic industry requirement. CX0007C (Putnam WS) at Q/A 326-27.
Rovi Br. at 364.
For Verizon labor or capital, Comcast argues:
. . . Similarly, Dr. Putnam simply
concludes
that
Verizon’s
$23B
investment in the development of FiOS
since 2004 [
] Dr. Putnam provides no
evidentiary support or analysis for his
claim. For example, Dr. Putnam fails to
determine what portion of the alleged
investments could be allocated to the
Verizon STBs he identifies. See id. at QA
73; see also Tr. 402:7-18 (admitting he
did not know which particular Verizon

935a
STBs actually implement the Rovi IPG
products, nor did he determine “set-topspecific investments” but instead relied
upon “ecosystem-level investments”).
Resps. Br. at 390-91.
The administrative law judge finds that the
evidence Rovi relies upon does not establish a domestic
industry for purposes of § 337(a)(3)(B). Rovi’s
suggestion of attributing large amounts of
“construction labor per home” from the Verizon FiOS
network to the asserted patents (i.e., program guides
and set-top boxes) is simply not supported, as Rovi has
not shown a plausible basis for concluding that the six
asserted patents are responsible for investment of this
type. Further, Rovi’s arguments and evidence are not
sufficiently tied to the protected articles. For instance,
Dr. Putnam testified that his analysis was tied to
“ecosystem-level investments.” See Tr. (Putnam) at
402. On the whole, the evidence is too weak to support
a finding that the above Verizon investments
constitute an independent domestic industry.
F. Rovi’s Domestic Industry
SuddenLink Investments

Based

on

Rovi argues that SuddenLink has made significant
domestic investments in plant and equipment and
significantly employed labor and capital relating to
products that practice the asserted patents that
independently satisfy the economic prong of the
domestic industry requirement. See Rovi Br. at 364-65.
1. Investment in Plant and Equipment
For SuddenLink plant and equipment, Rovi argues:

936a
Suddenlink invests heavily in its Pay-TV
services and equipment, which use the
Asserted Patents to deliver content to
Suddenlink’s customers. At least [
]
set-top boxes have utilized Rovi’s A28 or
Firefly i-Guide interactive program
guides, each of which practice each of the
Asserted Patents. CX-0007C (Putnam
WS) at Q/A 330. These purchases
indisputably relate to “equipment”
within
the
meaning of Section
337(a)(3)(A). See Schoettelkotte Tr. 60102. This significant investment by
Suddenlink in equipment embodying the
Asserted Patents satisfies the economic
prong of the domestic industry
requirement under § 337(a)(3)(A). CX0007C (Putnam WS) at Q/A 334-35.
Rovi Br. at 365.
For SuddenLink plant and equipment, Comcast
argues:
Rovi failed to show that Suddenlink
made investments under Prongs A or B.
Rovi failed to show how Suddenlink’s
overall investments relate to protected
articles. Dr. Putnam claims that “Rovi
contends that certain STBs used in the
provision of SuddenLink’s Pay-TV
services utilize Rovi’s i-Guide software,
and therefore practice certain claims of
certain of the Asserted Patents.” CX0007C (Putnam WS) at QA 330. Dr.
Putnam identified certain STBs as “DI
products,” (Id. at QA 73), but none of the

937a
Suddenlink investments are directed to
those or other products. Dr. Putnam only
cites are annual or quarterly reports of
Cequel Communications (Suddenlink’s
parent). See id. at QA 328-336 (citing CX0235 (Cequel 2011 Annual Report), CX0236 (Cequel 2012 Annual Report), CX0237 (Cequel 2013 Annual Report), CX0238 (Cequel 2014 Annual Report), and
CX-0250 (Suddenlink Q3 and YTD 2015
Results)).
Dr.
Putnam
claims
Suddenlink’s
purchase of at least [ ] allegedly using
Rovi’s i-Guide satisfies Prong A. See CX0007C (Putnam WS) at QA 330 and 335.
Dr. Putnam provides no evidentiary
support for this figure, nor provides an
actual monetary amount of Suddenlink’s
alleged investment. See id. And, for
example, Dr. Putnam fails to determine
what portion of the alleged investments
could be allocated to the Suddenlink
STBs he identifies. See id. at QA 73; see
also Tr. 402:9-18 (Dr. Putnam admitting
he did not know which particular
Suddenlink STBs actually implement
the Rovi IPG products, nor did he
determine “set-top-specific investments”
but instead relied upon “ecosystem-level
investments”).
Resps. Br. at 392.
The administrative law judge finds that the
evidence Rovi relies upon does not establish a domestic
industry for purposes of § 337(a)(3)(A). Rovi has not

938a
provided evidentiary support to establish the sales of
the set-top boxes or financial data to demonstrate the
investment was significant. See, e.g., Tr. at 401-403
(Dr. Putnam did not “associate any investment of any
kind whatsoever to any specific Suddenlink set-top
box”). On the whole, the evidence is too weak to
support a finding that the above SuddenLink
investments constitute an independent domestic
industry.
2. Employment of Labor or Capital
For SuddenLink labor or capital, Rovi argues:
In addition to its significant investments
in plant and equipment, Suddenlink
employs signficiant labor and capital to
support its Pay-TV products and services
embodying the Asserted Patents. First,
SuddenLink’s purchases of its [
] settop boxes utilizing Rovi’s A28 or Firefly
i-Guide IPGs constitute significant
capital expenditures relating to patentpracticing products, satistfying the
economic prong of the domestic industry
requirement. See Schoettelkotte Tr. 60203. Furthermore, in the past five years,
SuddenLink has invested at least $2.9
billion in programming costs, which
represent
capital
investments
contributing to the development of its
television and video products. CX-0007C
(Putnam WS) at Q/A 331-32. These
products are used to provide cable and
streaming services exclusively to
customers located within the U.S.,
including basic, digital, premium, video-

939a
on-demand
and
pay-per-view
programming
provided
to
both
residential and commercial customers.
Id. SuddenLink also launched its
SuddenLink2GO mobile app in early
2014, which allows customers to access
live TV and on-demand TV shows from
their mobile devices. Id. From 2011
through 2015, approximately 1.1 million
customers subscribed to SuddenLink’s
television and video services, generating
an average of $1.1 billion per year in
revenues.
Id.
at
Q/A
331-32.
Suddenlink’s
$2.9
billion
capital
investment in products and services
practicing the Asserted Patents clearly
qualifies as significant employment of
capital under § 337(a)(3)(B), such that
Suddenlink’s activities satisfy the
economic prong of the domestic industry
requirement. Id. at Q/A 334-35.
Rovi Br. at 365-66.
For SuddenLink labor or capital, Comcast argues:
For Prong B, Dr. Putnam claims that in
the past five years, Suddenlink has
invested at least $2.9B in programming
costs, which contributed to the
development of its television and video
products. See id. at QA 331. However,
Suddenlink’s programming costs consist
primarily of costs paid to programmers
for basic, digital, premium, video on
demand and pay-per-view programming.
See CX-0239 (Cequel 2015 Annual

940a
Report) at CX-0239.000051. As such,
these expenses are not directed to any
Suddenlink investment (significant or
otherwise) in labor or capital. Moreover,
Dr. Putnam fails to determine what
portion of the alleged investments could
be allocated to the Suddenlink STBs he
identifies. See CX-0007C (Putnam WS)
at QA 73; see also Tr. 402:9-18 (Dr.
Putnam admitting he did not know
which particular Suddenlink STBs
actually implement the Rovi IPG
products, nor did he determine “set-topspecific investments” but instead relied
upon “ecosystem-level investments”).
Resps. Br. at 392-93.
The administrative law judge finds that the
evidence Rovi relies upon does not establish a domestic
industry for purposes of § 337(a)(3)(B). Rovi’s
suggestion of attributing $2.9 billion of costs that
primarily relate to programming (basic, digital,
premium, video-on-demand and pay-per-view) to the
asserted patents (i.e., program guides and set-top
boxes) is simply not supported, as Rovi has not shown
a plausible basis for concluding that the six asserted
patents are responsible for investment of this type.
Further, Rovi’s arguments and evidence are not
sufficiently tied to the protected articles. For instance,
Dr. Putnam testified that his analysis was tied to
“ecosystem-level investments.” See Tr. (Putnam) at
402. On the whole, the evidence is too weak to support
a finding that the above SuddenLink investments
constitute an independent domestic industry.
***

941a
VII.

CONCLUSIONS OF FACT AND LAW
Jurisdiction and Importation

1)

The Commission has personal jurisdiction in
this investigation.

2)

The Commission has subject
jurisdiction in this investigation.

3)

The Commission has in rem jurisdiction in
this investigation.

4)

ARRIS is an importer of the accused products
that it manufactures, under 19 U.S.C. §
1337(a)(1)(B).

5)

Technicolor is an importer of the accused
products that it manufactures, under 19
U.S.C. § 1337(a)(1)(B).

6)

Comcast is sufficiently involved in the
importation of the accused products that it
satisfies the importation requirement, under
19 U.S.C. § 1337(a)(1)(B). Comcast does not
sell the accused products for importation, and
it does not sell the accused products after
importation, under 19 U.S.C. § 1337(a)(1)(B).

7)

Rovi possesses all substantial rights in the
asserted patents and has standing to bring its
complaint before the Commission.

matter

X1 Products
8)

The ARRIS XG1v3 (X1) AX013ANC is a
representative product (DVR-enabled) for all
of the asserted patents.

9)

The Pace XiD (PXD01ANI) is a representative
of the non-DVR X1 set-top boxes analyzed for
U.S. Patent No. 8,566,871.

942a
10) The accused X1 products have been imported
into the United States.
11) The accused X1 products infringe claims 1, 2,
14, and 17 of U.S. Patent No. 8,006,263 and
claims 1, 3, 5, 9, 10, 14, and 18 of U.S. Patent
No. 8,578,413 under 35 U.S.C. § 271(a).
12) The accused X1 products do not infringe any
asserted claim of U.S. Patent Nos. 6,418,556,
8,046,801, 8,566,871, and 8,621,512.
13) With respect to the accused X1 products,
Comcast has induced its customers to infringe
claims 1, 2, 14, and 17 of U.S. Patent No.
8,006,263 and claims 1, 3, 5, 9, 10, 14, and 18
of U.S. Patent No. 8,578,413 under 35 U.S.C.
§ 271(b).
14) With respect to the accused X1 products,
Comcast has not induced its customers to
infringe any asserted claim of U.S. Patent
Nos. 6,418,556, 8,046,801, 8,566,871, and
8,621,512.
15) With respect to the accused X1 products,
Comcast has not induced ARRIS or
Technicolor to infringe under 35 U.S.C. §
271(b).
16) With respect to the accused X1 products,
ARRIS and Technicolor are not contributory
infringers under 35 U.S.C. § 271(c).
Legacy Products
17) The Motorola DCX3501/M is a representative
product for all of the patents it is alleged to
infringe.

943a
18) The accused Legacy products have been
imported into the United States.
19) The accused Legacy products infringe claims
1, 2, 14, and 17 of U.S. Patent No. 8,006,263;
claims 1, 3, 5, 9, 10, 14, and 18 of U.S. Patent
No. 8,578,413; and claims 1, 10, 13, and 22 of
U.S. Patent No. 8,621,512 under 35 U.S.C. §
271(a).
20) The accused Legacy products do not infringe
any asserted claim of U.S. Patent Nos.
6,418,556 and 8,046,801. (Rovi has not
accused the Legacy products of infringing U.S.
Patent No. 8,566,871.)
21) With respect to the accused Legacy products,
Comcast has induced its customers to infringe
claims 1, 2, 14, and 17 of U.S. Patent No.
8,006,263 and claims 1, 3, 5, 9, 10, 14, and 18
of U.S. Patent No. 8,578,413.
22) With respect to the accused Legacy products,
Comcast has not induced its customers to
infringe any asserted claim of U.S. Patent
Nos. 6,418,556, 8,046,801, and 8,621,512.
(Rovi has not accused the Legacy products of
infringing U.S. Patent No. 8,566,871.)
23) With respect to the accused Legacy products,
Comcast has not induced ARRIS or
Technicolor to infringe under 35 U.S.C. §
271(b).
24) With respect to the accused Legacy products,
ARRIS and Technicolor are not contributory
infringers under 35 U.S.C. § 271(c).

944a
Design Arounds and Additional NonInfringement Arguments
25) Comcast’s proposed design arounds for U.S.
Patent Nos. 6,418,556 and 8,566,871 are too
hypothetical to adjudicate.
26) Comcast’s proposed design around for the X1
system, for U.S. Patent No. 8,621,512, does
not infringe the Patent.
27) Comcast’s proposed design around for the
Legacy system, for U.S. Patent No. 8,621,512,
is too hypothetical to adjudicate.
28) Comcast’s proposed design arounds for the X1
and Legacy systems, for U.S. Patent Nos.
8,006,263, 8,046,801, and 8,578,413, infringe
those patents.
Patent Eligibility and Validity
29) Comcast has not shown by a preponderance of
the evidence, or through clear and convincing
evidence, that the asserted claims of the
patents in suit are ineligible for patenting
under 35 U.S.C. § 101.
30) Comcast has not shown, through clear and
convincing evidence, that the asserted claims
of the U.S. Patent Nos. 6,418,556; 8,006,263;
8,046,801; 8,566,871; and 8,578,413 are
invalid under 35 U.S.C. §§ 102, 103, or 112.
31) Comcast has shown, through clear and
convincing evidence, that claims 1, 10, 13, and
22 U.S. Patent No. 8,621,512 are invalid under
35 U.S.C. § 103, in light of Nagano (RX-0153),
in view of the general knowledge of a person of
ordinary skill in the art, and/or Sano (RX-

945a
0152) or Chun (RX-0158). The proffered
objective evidence of non-obviousness does not
support a finding that the Patent is not
obvious.
32) Comcast has not shown, through clear and
convincing evidence, that the asserted claims
of U.S. Patent No. 8,621,512 are invalid under
35 U.S.C. § 103, in light of Sano (RX-0152) et
al., Prevue et al., and Alexander et al.
33) Comcast has not shown, through clear and
convincing evidence, that the asserted claims
of the U.S. Patent Nos. 8,621,512 are invalid
under 35 U.S.C. § 112.
Domestic Industry
34) The domestic industry’s technical prong
requirement has been satisfied with respect to
the infringed patents, U.S. Patent Nos.
8,006,263, 8,578,413, and 8,621,512.
35) The domestic industry’s technical prong
requirement has not been satisfied with
respect to U.S. Patent Nos. 6,418,556,
8,046,801, and 8,566,871.
36) The domestic industry’s economic prong
requirement has been satisfied under §
337(a)(3)(A), as there is a significant
investment in plant and equipment with
respect to the articles protected by the
asserted patents.
37) The domestic industry’s economic prong
requirement has been satisfied under §
337(a)(3)(B), as there is a significant

946a
employment of labor or capital with respect to
the articles protected by the asserted patents.
38) The domestic industry’s economic prong
requirement has been satisfied under §
337(a)(3)(C), as there is a substantial
investment in engineering and research and
development with respect to the articles
protected by the asserted patents.
39) Rovi has not shown that it has satisfied the
domestic industry’s economic prong through a
substantial investment in patent licensing, as
Rovi has not satisfied the nexus requirement.
Licensing and Additional Defenses
40) Comcast had an express license to “make and
have made” and to import and otherwise
commercialize products imported before April
1, 2016; products imported before April 1,
2016 are not unlawful imports, and there has
been no an unfair act which would constitute
a violation Section 337 for these products. No
determination has been made on whether a
subsequent domestic activity connected to
products imported before April 1, 2016 (e.g.,
any use or sale, completed on or after April 1,
2016, of a set-top box imported before April 1,
2016) infringes the asserted patents.
41) Comcast’s express license expired on March
31, 2016. See JX-0050C at 34.
42) Comcast does not have an implied patent
license to Rovi’s guidance portfolio, including
the asserted patents.

947a
43) Comcast has not shown the asserted patents
are exhausted, as Comcast has not identified
a sale for purposes of patent exhaustion or
that Comcast has infinite rights to reproduce
the Legacy guide.
44) Comcast has not shown that exhaustion
pertains to the X1 guide.
45) ARRIS has not shown that the ARRIS-Rovi
IPG License mandates terminating this
investigation with respect to the ARRIS
respondents.
46) ARRIS has not shown that the ARRIS-Rovi
IPG License gives ARRIS an implied license
that operates as a defense to Rovi’s claims.
47) ARRIS has not shown that equitable estoppel
applies to bar Rovi’s claims.
48) ARRIS has not shown that waiver applies to
bar Rovi’s claims.
49) ARRIS’s arguments about the ARRIS-Rovi
IPG License are not barred by issue
preclusion,
because
terminating
an
investigation under § 337(c) differs from
transferring venue pursuant to a forum
selection clause.
VIII. INITIAL
VIOLATION

DETERMINATION

ON

Accordingly, it is the initial determination of the
undersigned that a violation of section 337 (19 U.S.C.
§ 1337) has occurred in the importation into the United
States, the sale for importation, or the sale within the
United States after importation of certain digital video
receivers and hardware and software components

948a
thereof, with respect to U.S. Patent Nos. 8,006,263 and
8,578,413.
It is held that a violation has not occurred with
respect to U.S. Patent Nos. 6,418,556, 8,046,801,
8,566,871, and 8,621,512.
Further, this initial determination, together with
the record of the hearing in this investigation
consisting of (1) the transcript of the hearing, with
appropriate corrections as may hereafter be ordered,
and (2) the exhibits received into evidence in this
investigation, is hereby certified to the Commission.
In accordance with 19 C.F.R. § 210.39(c), all
material found to be confidential by the undersigned
under 19 C.F.R. § 210.5 is to be given in camera
treatment.
The Secretary shall serve a public version of this
initial determination upon all parties of record and the
confidential version upon counsel who are signatories
to the Protective Order, as amended, issued in this
investigation.
Pursuant to 19 C.F.R. § 210.42(h), this initial
determination shall become the determination of the
Commission unless a party files a petition for review
pursuant to § 210.43(a) or the Commission, pursuant
to § 210.44, orders on its own motion a review of the
initial determination or certain issues herein.
IX.

ORDER

To expedite service of the public version, the parties
are hereby ordered to file with the Commission
Secretary no later than June 5, 2017, a jointly marked
copy of this initial determination that includes bold,
red brackets to show any portion considered by the

949a
parties (or their suppliers of information) to be
confidential. The parties shall simultaneously file a
joint list indicating each page on which such a bracket
is to be found and which party contends the
corresponding information is confidential. At least one
copy of such a filing shall be served upon the office of
the undersigned, and the brackets shall be formatted
in bold, red text. If a party (including any supplier of
information) considers nothing in the initial
determination to be confidential, and thus makes no
request that any portion be redacted from the public
version, then a statement to that effect shall be filed.
/s/ David P. Shaw
David P. Shaw
Administrative Law Judge
Issued: May 26, 2017
[CERTIFICATES OF SERVICE OMITTED]

950a
APPENDIX D
UNITED STATES INTERNATIONAL TRADE
COMMISSION
Investigation No. 337-TA-1001
In the Matter of CERTAIN DIGITAL VIDEO
RECEIVERS AND HARDWARE AND SOFTWARE
COMPONENTS THEREOF
CEASE AND DESIST ORDER
IT
IS
HEREBY
ORDERED
THAT
RESPONDENT
Comcast
Business
Communications, LLC, One Comcast Center, 1701
John F. Kennedy Blvd., Philadelphia, Pennsylvania
19103 (“Respondent”), cease and desist from
conducting any of the following activities in the United
States: importing, selling, offering for sale, leasing,
offering for lease, renting, offering for rent, marketing,
advertising, distributing, transferring (except for
exportation), and soliciting U.S. agents or distributors
for, certain digital video receivers and hardware and
software components thereof covered by (1) one or
more of claims 1, 2, 14, and 17 of U.S. Patent No.
8,006,263; or (2) one or more of claims 1, 3, 5, 9, 10, 14,
and 18 of U.S. Patent No. 8,578,413; (“the Asserted
Patents”) in violation of section 337 of the Tariff Act of
1930, as amended (19 U.S.C. 1337).
I.
Definitions
As used in this order:
(A) “Commission” shall mean the United
States
International
Trade
Commission.

951a
(B) “Complainants” shall mean Rovi
Corporation and Rovi Guides, Inc.,
both of San Carlos, CA.
(C) “Respondent” shall mean Comcast
Business Communications, LLC,
One Comcast Center, 1701 John F.
Kennedy
Blvd.,
Philadelphia,
Pennsylvania 19103.
(D) “Person” shall mean an individual,
or
any
non-governmental
partnership,
firm,
association,
corporation, or other legal or
business
entity
other
than
Respondent or its majority owned or
controlled subsidiaries, successors,
or assigns.
(E) “United States” shall mean the fifty
States, the District of Columbia, and
Puerto Rico.
(F) The
terms
“import”
and
“importation” refer to importation
for entry for consumption under the
Customs laws of the United States.
(G) The term “covered products” shall
mean digital video receivers and
hardware and software components
thereof covered by one or more of (1)
claims 1, 2, 14, and 17 of U.S. Patent
No. 8,006,263; or (2) claims 1, 3, 5, 9,
10, 14, and 18 of U.S. Patent No.
8,578,413. Covered products shall
not include articles for which a
provision of law or license avoids

952a
liability for infringement of certain
claims of the Asserted Patents.
II.
Applicability
The provisions of this Cease and Desist Order shall
apply to Respondent and to any of its principals,
stockholders, officers, directors, employees, agents,
distributors, controlled (whether by stock ownership
or otherwise) and majority-owned business entities,
successors, and assigns, and to each of them insofar as
they are engaging in conduct prohibited by section III,
infra, for, with, or otherwise on behalf of, Respondent.
III.
Conduct Prohibited
The following conduct of Respondent in the United
States is prohibited by this Order. For the remaining
terms of the Asserted Patents, Respondent shall not:
(A) import or sell for importation into
the United States covered products;
(B) market, distribute, sell, offer to sell,
lease, offer to lease, rent, offer to
rent, or otherwise transfer (except
for exportation), in the United States
imported covered products;
(C) advertise imported covered products;
(D) solicit U.S. agents or distributors for
imported covered products; or
(E) aid or abet other entities in the
importation, sale for importation,
sale after importation, lease after
importation, rent after importation,

953a
transfer, or distribution of covered
products.
IV.
Conduct Permitted
Notwithstanding any other provision of this Order.
Respondent shall be permitted:
(A) to engage in specific conduct
otherwise prohibited by the terms of
this Order if, in a written
instrument, the owner of the
Asserted
Patents
licenses
or
authorizes such specific conduct,
including but not limited to conduct
involving covered products that the
Commission found were previously
imported into the United States
under license;
(B) to engage in specific conduct
otherwise prohibited by the terms of
this Order if such specific conduct is
related to the importation or sale of
covered products by or for the United
States; or
(C) to engage in such specific conduct
related to service or repair articles
imported for use in servicing or
repairing digital video receivers that
were imported before the effective
date of this Order. Exception (C)
does not permit the importation of
digital video receivers to replace
digital video receivers that were

954a
imported before the effective date of
this Order.
V.
Reporting
For purposes of this requirement, the reporting
periods shall commence on January 1 of each year and
shall end on the subsequent December 31. The first
report required under this section shall cover the
period from the date of issuance of this order through
December 31, 2017. This reporting requirement shall
continue in force until such time as Respondent has
truthfully reported, in two consecutive timely filed
reports, that it has no inventory (whether held in
warehouses or at customer sites) of covered products
in the United States.
Within thirty (30) days of the last day of the
reporting period, Respondent shall report to the
Commission: (a) the quantity in units and the value in
dollars of covered products that it has (i) imported
and/or (ii) sold in the United States after importation
during the reporting period, and (b) the quantity in
units and value in dollars of reported covered products
that remain in inventory in the United States at the
end of the reporting period. When filing written
submissions, Respondent must file the original
document electronically on or before the deadlines
stated above and submit eight (8) true paper copies to
the Office of the Secretary by noon the next day
pursuant to section 210.4(f) of the Commission’s Rules
of Practice and Procedure (19 CFR 210.4(f)).
Submissions should refer to the investigation number
(“Inv. No. 337-TA-1001”) in a prominent place on the
cover pages and/or the first page. (See Handbook for
Electronic Filing Procedures, https://www.usitc.gov/

955a
secretary/documents/handbook_on_filing_procedu
res.pdf). Persons with questions regarding filing
should contact the Office of the Secretary (202-2052000). If Respondent desires to submit a document to
the Commission in confidence, it must file the original
and a public version of the original with the Office of
the Secretary and must serve a copy of the confidential
version on Complainants’ counsel. 1
Any failure to make the required report or the filing
of any false or inaccurate report shall constitute a
violation of this Order, and the submission of a false or
inaccurate report may be referred to the U.S.
Department of Justice as a possible criminal violation
of 18 U.S.C. 1001.
VI.
Recordkeeping and Inspection
(A) For the purpose of securing
compliance
with
this
Order,
Respondent shall retain any and all
records relating to the sale, offer for
sale, lease, offer to lease, rent, offer
to rent, marketing, or distribution in
the United States of covered
products, made and received in the
usual and ordinary course of
business, whether in detail or in
summary form, for a period of three
(3) years from the close of the fiscal
year to which they pertain.
Complainants must file a letter with the Secretary identifying
the attorney to receive reports associated with this order. The
designated attorney must be on the protective order entered in
the investigation.
1

956a
(B) For the purposes of determining or
securing compliance with this Order
and for no other purpose, subject to
any privilege recognized by the
federal courts of the United States,
and upon reasonable written notice
by the Commission or its staff, duly
authorized representatives of the
Commission shall be permitted
access and the right to inspect and
copy, in Respondent’s principal office
during office hours, and in the
presence of counsel or other
representatives if Respondent so
chooses, all books, ledgers, accounts,
correspondence, memoranda, and
other records and documents, in
detail and in summary form, that
must
be
retained
under
subparagraph VI(A) of this Order.
VII.
Service of Cease and Desist Order
Respondent is ordered and directed to:
(A) Serve, within fifteen days after the
effective date of this Order, a copy of
this Order upon each of its respective
officers, directors, managing agents,
agents, and employees who have any
responsibility for the importation,
marketing, distribution, sale, lease,
or rent of imported covered products
in the United States;
(B) Serve, within fifteen days after the
succession of any persons referred to

957a
in subparagraph VII(A) of this order,
a copy of the order upon each
successor; and
(C) Maintain such records as will show
the name, title, and address of each
person upon whom the order has
been served, as described in
subparagraphs VII(A) and VII(B) of
this order, together with the date on
which service was made.
The obligations set forth in subparagraphs VII(B) and
VII(C) shall remain in effect until the Asserted
Patents expire.
VIII.
Confidentiality
Any request for confidential treatment of
information obtained by the Commission pursuant to
section V - VI of this order should be made in
accordance with section 201.6 of the Commission’s
Rules of Practice and Procedure (19 CFR 201.6). For
all reports for which confidential treatment is sought,
Respondent must provide a public version of such
report with confidential information redacted.
IX.
Enforcement
Violation of this order may result in any of the
actions specified in section 210.75 of the Commission’s
Rules of Practice and Procedure (19 CFR 210.75),
including an action for civil penalties under section
337(f) of the Tariff Act of 1930 (19 U.S.C. 1337(f)), as
well as any other action that the Commission deems
appropriate. In determining whether Respondent is in
violation of this order, the Commission may infer facts

958a
adverse to Respondent if it fails to provide adequate or
timely information.
X.
Modification
The Commission may amend this order on its own
motion or in accordance with the procedure described
in section 210.76 of the Commission’s Rules of Practice
and Procedure (19 CFR 210.76).
XI.
Bonding
The conduct prohibited by Section III of this Order
may be continued during the sixty-day period in which
this Order is under review by the United States Trade
Representative, as delegated by the President (70 Fed.
Reg. 43,251 (Jul. 21, 2005)) subject to the Respondent’s
posting of a bond in the amount of zero percent of the
entered value of the covered products (i.e., no bond).
This bond provision does not apply to conduct that is
otherwise permitted by section IV of this order.
Covered products imported on or after the date of
issuance of this order are subject to the entry bond set
forth in the exclusion order issued by the Commission,
and are not subject to this bond provision.
The bond is to be posted in accordance with the
procedures established by the Commission for the
posting of bonds by complainants in connection with
the issuance of temporary exclusion orders. See 19
CFR 210.68. The bond and any accompanying
documentation are to be provided to and approved by
the Commission prior to the commencement of conduct
that is otherwise prohibited by section III of this
Order. Upon the Secretary’s acceptance of the bond, (a)
the Secretary will serve an acceptance letter on all

959a
parties, and (b) Respondent must serve a copy of the
bond and any accompanying documentation on
Complainants’ counsel. 2
The bond is to be forfeited in the event that the
United States Trade Representative approves this
Order (or does not disapprove it within the review
period), unless the U.S. Court of Appeals for the
Federal Circuit, in a final judgment, reverses any
Commission final determination and order as to
Respondent on appeal, or unless Respondent exports
or destroys the products subject to this bond and
provides certification to that effect that is satisfactory
to the Commission.
The bond is to be released in the event the United
States Trade Representative disapproves this order
and no subsequent order is issued by the Commission
and approved (or not disapproved) by the United
States Trade Representative, upon service on
Respondent of an order issued by the Commission
based upon application therefore made by Respondent
to the Commission.
By order of the Commission.
/s/ Lisa R. Barton
Lisa R. Barton
Secretary to the Commission
Issued: November 21, 2017

2

See Footnote 1.

960a
UNITED STATES INTERNATIONAL TRADE
COMMISSION
Investigation No. 337-TA-1001
In the Matter of CERTAIN DIGITAL VIDEO
RECEIVERS AND HARDWARE AND SOFTWARE
COMPONENTS THEREOF
CEASE AND DESIST ORDER
IT
IS
HEREBY
ORDERED
THAT
RESPONDENT Comcast Cable Communications,
LLC, One Comcast Center, 1701 John F. Kennedy
Blvd.,
Philadelphia,
Pennsylvania
19103
(“Respondent”), cease and desist from conducting any
of the following activities in the United States:
importing, selling, offering for sale, leasing, offering
for lease, renting, offering for rent, marketing,
advertising, distributing, transferring (except for
exportation), and soliciting U.S. agents or distributors
for, certain digital video receivers and hardware and
software components thereof covered by (1) one or
more of claims 1, 2 ,14, and 17 of U.S. Patent No.
8,006,263; or (2) one or more of claims 1, 3, 5, 9, 10, 14,
and 18 of U.S. Patent No. 8,578,413; (“the Asserted
Patents”) in violation of section 337 of the Tariff Act of
1930, as amended (19 U.S.C. 1337).
I.
Definitions
As used in this order:
(A) “Commission” shall mean the United
States
International
Trade
Commission.

961a
(B) “Complainants” shall mean Rovi
Corporation and Rovi Guides, Inc.,
both of San Carlos, CA.
(C) “Respondent” shall mean Comcast
Cable Communications, LLC, One
Comcast Center, 1701 John F.
Kennedy
Blvd.,
Philadelphia,
Pennsylvania 19103.
(D) “Person” shall mean an individual,
or
any
non-governmental
partnership,
firm,
association,
corporation, or other legal or
business
entity
other
than
Respondent or its majority owned or
controlled subsidiaries, successors,
or assigns.
(E) “United States” shall mean the fifty
States, the District of Columbia, and
Puerto Rico.
(F) The
terms
“import”
and
“importation” refer to importation
for entry for consumption under the
Customs laws of the United States.
(G) The term “covered products” shall
mean digital video receivers and
hardware and software components
thereof covered by one or more of (1)
claims 1, 2, 14, and 17 of U.S. Patent
No. 8,006,263; or (2) claims 1, 3, 5, 9,
10, 14, and 18 of U.S. Patent No.
8,578,413. Covered products shall
not include articles for which a
provision of law or license avoids

962a
liability for infringement of certain
claims of the Asserted Patents.
II.
Applicability
The provisions of this Cease and Desist Order shall
apply to Respondent and to any of its principals,
stockholders, officers, directors, employees, agents,
distributors, controlled (whether by stock ownership
or otherwise) and majority-owned business entities,
successors, and assigns, and to each of them insofar as
they are engaging in conduct prohibited by section III,
infra, for, with, or otherwise on behalf of, Respondent.
III.
Conduct Prohibited
The following conduct of Respondent in the United
States is prohibited by this Order. For the remaining
terms of the Asserted Patents, Respondent shall not:
(A) import or sell for importation into
the United States covered products;
(B) market, distribute, sell, offer to sell,
lease, offer to lease, rent, offer to
rent, or otherwise transfer (except
for exportation), in the United States
imported covered products;
(C) advertise imported covered products;
(D) solicit U.S. agents or distributors for
imported covered products; or
(E) aid or abet other entities in the
importation, sale for importation,
sale after importation, lease after
importation, rent after importation,

963a
transfer, or distribution of covered
products.
IV.
Conduct Permitted
Notwithstanding any other provision of this Order.
Respondent shall be permitted:
(A) to engage in specific conduct
otherwise prohibited by the terms of
this Order if, in a written
instrument, the owner of the
Asserted
Patents
licenses
or
authorizes such specific conduct,
including but not limited to conduct
involving covered products that the
Commission found were previously
imported into the United States
under license;
(B) to engage in specific conduct
otherwise prohibited by the terms of
this Order if such specific conduct is
related to the importation or sale of
covered products by or for the United
States; or
(C) to engage in such specific conduct
related to service or repair articles
imported for use in servicing or
repairing digital video receivers that
were imported before the effective
date of this Order. Exception (C)
does not permit the importation of
digital video receivers to replace
digital video receivers that were

964a
imported before the effective date of
this Order.
V.
Reporting
For purposes of this requirement, the reporting
periods shall commence on January 1 of each year and
shall end on the subsequent December 31. The first
report required under this section shall cover the
period from the date of issuance of this order through
December 31, 2017. This reporting requirement shall
continue in force until such time as Respondent has
truthfully reported, in two consecutive timely filed
reports, that it has no inventory (whether held in
warehouses or at customer sites) of covered products
in the United States.
Within thirty (30) days of the last day of the
reporting period. Respondent shall report to the
Commission: (a) the quantity in units and the value in
dollars of covered products that it has (i) imported
and/or (ii) sold in the United States after importation
during the reporting period, and (b) the quantity in
units and value in dollars of reported covered products
that remain in inventory in the United States at the
end of the reporting period. When filing written
submissions, Respondent must file the original
document electronically on or before the deadlines
stated above and submit eight (8) true paper copies to
the Office of the Secretary by noon the next day
pursuant to section 210.4(f) of the Commission’s Rules
of Practice and Procedure (19 CFR 210.4(f)).
Submissions should refer to the investigation number
(“Inv. No. 337-TA-1001”) in a prominent place on the
cover pages and/or the first page. (See Handbook for
Electronic Filing Procedures, https://www.usitc.gov/

965a
secretary/documents/handbook_on_filing_proced
ures.pdf). Persons with questions regarding filing
should contact the Office of the Secretary (202-2052000). If Respondent desires to submit a document to
the Commission in confidence, it must file the original
and a public version of the original with the Office of
the Secretary and must serve a copy of the confidential
version on Complainants’ counsel. 1
Any failure to make the required report or the filing
of any false or inaccurate report shall constitute a
violation of this Order, and the submission of a false or
inaccurate report may be referred to the U.S.
Department of Justice as a possible criminal violation
of 18 U.S.C. 1001.
VI.
Recordkeeping and Inspection
(A) For the purpose of securing
compliance
with
this
Order,
Respondent shall retain any and all
records relating to the sale, offer for
sale, lease, offer to lease, rent, offer
to rent, marketing, or distribution in
the United States of covered
products, made and received in the
usual and ordinary course of
business, whether in detail or in
summary form, for a period of three
(3) years from the close of the fiscal
year to which they pertain.
Complainants must file a letter with the Secretary identifying
the attorney to receive reports associated with this order. The
designated attorney must on the protective order entered in the
investigation.
1

966a
(B) For the purposes of determining or
securing compliance with this Order
and for no other purpose, subject to
any privilege recognized by the
federal courts of the United States,
and upon reasonable written notice
by the Commission or its staff, duly
authorized representatives of the
Commission shall be permitted
access and the right to inspect and
copy, in Respondent’s principal office
during office hours, and in the
presence of counsel or other
representatives if Respondent so
chooses, all books, ledgers, accounts,
correspondence, memoranda, and
other records and documents, in
detail and in summary form, that
must
be
retained
under
subparagraph VI(A) of this Order.
VII.
Service of Cease and Desist Order
Respondent is ordered and directed to:
(A) Serve, within fifteen days after the
effective date of this Order, a copy of
this Order upon each of its respective
officers, directors, managing agents,
agents, and employees who have any
responsibility for the importation,
marketing, distribution, sale, lease,
or rent of imported covered products
in the United States;
(B) Serve, within fifteen days after the
succession of any persons referred to

967a
in subparagraph VII(A) of this order,
a copy of the order upon each
successor; and
(C) Maintain such records as will show
the name, title, and address of each
person upon whom the order has
been served, as described in
subparagraphs VII(A) and VII(B) of
this order, together with the date on
which service was made.
The obligations set forth in subparagraphs VII(B) and
VII(C) shall remain in effect until the Asserted
Patents expire.
VIII.
Confidentiality
Any request for confidential treatment of
information obtained by the Commission pursuant to
section V - VI of this order should be made in
accordance with section 201.6 of the Commission’s
Rules of Practice and Procedure (19 CFR 201.6). For
all reports for which confidential treatment is sought,
Respondent must provide a public version of such
report with confidential information redacted.
IX.
Enforcement
Violation of this order may result in any of the
actions specified in section 210.75 of the Commission’s
Rules of Practice and Procedure (19 CFR 210.75),
including an action for civil penalties under section
337(f) of the Tariff Act of 1930 (19 U.S.C. 1337(f)), as
well as any other action that the Commission deems
appropriate. In determining whether Respondent is in
violation of this order, the Commission may infer facts

968a
adverse to Respondent if it fails to provide adequate or
timely information.
X.
Modification
The Commission may amend this order on its own
motion or in accordance with the procedure described
in section 210.76 of the Commission’s Rules of Practice
and Procedure (19 CFR 210.76).
XI.
Bonding
The conduct prohibited by Section III of this Order
may be continued during the sixty-day period in which
this Order is under review by the United States Trade
Representative, as delegated by the President (70 Fed
Reg. 43,251 (Jul. 21, 2005)) subject to the Respondent’s
posting of a bond in the amount of zero percent of the
entered value of the covered products (i.e., no bond).
This bond provision does not apply to conduct that is
otherwise permitted by section IV of this order.
Covered products imported on or after the date of
issuance of this order are subject to the entry bond set
forth in the exclusion order issued by the Commission,
and are not subject to this bond provision.
The bond is to be posted in accordance with the
procedures established by the Commission for the
posting of bonds by complainants in connection with
the issuance of temporary exclusion orders. See 19
CFR 210.68. The bond and any accompanying
documentation are to be provided to and approved by
the Commission prior to the commencement of conduct
that is otherwise prohibited by section III of this
Order. Upon the Secretary’s acceptance of the bond, (a)
the Secretary will serve an acceptance letter on all

969a
parties, and (b) Respondent must serve a copy of the
bond and any accompanying documentation on
Complainants’ counsel. 2
The bond is to be forfeited in the event that the
United States Trade Representative approves this
Order (or does not disapprove it within the review
period), unless the U.S. Court of Appeals for the
Federal Circuit, in a final judgment, reverses any
Commission final determination and order as to
Respondent on appeal, or unless Respondent exports
or destroys the products subject to this bond and
provides certification to that effect that is satisfactory
to the Commission.
The bond is to be released in the event the United
States Trade Representative disapproves this order
and no subsequent order is issued by the Commission
and approved (or not disapproved) by the United
States Trade Representative, upon service on
Respondent of an order issued by the Commission
based upon application therefore made by Respondent
to the Commission.
By order of the Commission.
/s/ Lisa R. Barton
Lisa R. Barton
Secretary to the Commission
Issued: November 21, 2017

2

See Footnote 1.

970a
UNITED STATES INTERNATIONAL TRADE
COMMISSION
Investigation No. 337-TA-1001
In the Matter of CERTAIN DIGITAL VIDEO
RECEIVERS AND HARDWARE AND SOFTWARE
COMPONENTS THEREOF
CEASE AND DESIST ORDER
IT
IS
HEREBY
ORDERED
THAT
RESPONDENT Comcast Cable Communications
Management, LLC, One Comcast Center, 1701 John
F. Kennedy Blvd., Philadelphia, Pennsylvania 19103
(“Respondent”), cease and desist from conducting any
of the following activities in the United States:
importing, selling, offering for sale, leasing, offering
for lease, renting, offering for rent, marketing,
advertising, distributing, transferring (except for
exportation), and soliciting U.S. agents or distributors
for, certain digital video receivers and hardware and
software components thereof covered by (1) one or
more of claims 1, 2, 14, and 17 of U.S. Patent No.
8,006,263; or (2) one or more of claims 1, 3, 5, 9, 10, 14,
and 18 of U.S. Patent No. 8,578,413; (“the Asserted
Patents”) in violation of section 337 of the Tariff Act of
1930, as amended (19 U.S.C. 1337).
I.
Definitions
As used in this order:
(A) “Commission” shall mean the United
States
International
Trade
Commission.

971a
(B) “Complainants” shall mean Rovi
Corporation and Rovi Guides, Inc.,
both of San Carlos, CA.
(C) “Respondent” shall mean Comcast
Cable
Communications
Management, LLC, One Comcast
Center, 1701 John F. Kennedy Blvd.,
Philadelphia, Pennsylvania 19103.
(D) “Person” shall mean an individual,
or
any
non-governmental
partnership,
firm,
association,
corporation, or other legal or
business
entity
other
than
Respondent or its majority owned or
controlled subsidiaries, successors,
or assigns.
(E) “United States” shall mean the fifty
States, the District of Columbia, and
Puerto Rico.
(F) The
terms
“import”
and
“importation” refer to importation
for entry for consumption under the
Customs laws of the United States.
(G) The term “covered products” shall
mean digital video receivers and
hardware and software components
thereof covered by one or more of (1)
claims 1, 2, 14, and 17 of U.S. Patent
No. 8,006,263; or (2) claims 1, 3, 5, 9,
10, 14, and 18 of U.S. Patent No.
8,578,413. Covered products shall
not include articles for which a
provision of law or license avoids

972a
liability for infringement of certain
claims of the Asserted Patents.
II.
Applicability
The provisions of this Cease and Desist Order shall
apply to Respondent and to any of its principals,
stockholders, officers, directors, employees, agents,
distributors, controlled (whether by stock ownership
or otherwise) and majority-owned business entities,
successors, and assigns, and to each of them insofar as
they are engaging in conduct prohibited by section III,
infra, for, with, or otherwise on behalf of, Respondent.
III.
Conduct Prohibited
The following conduct of Respondent in the United
States is prohibited by this Order.
For the remaining terms of the Asserted Patents,
Respondent shall not:
(A) import or sell for importation into
the United States covered products;
(B) market, distribute, sell, offer to sell,
lease, offer to lease, rent, offer to
rent, or otherwise transfer (except
for exportation), in the United States
imported covered products;
(C) advertise imported covered products;
(D) solicit U.S. agents or distributors for
imported covered products; or
(E) aid or abet other entities in the
importation, sale for importation,
sale after importation, lease after

973a
importation, rent after importation,
transfer, or distribution of covered
products.
IV.
Conduct Permitted
Notwithstanding any other provision of this Order,
Respondent shall be permitted:
(A) to engage in specific conduct
otherwise prohibited by the terms of
this Order if, in a written
instrument, the owner of the
Asserted
Patents
licenses
or
authorizes such specific conduct,
including but not limited to conduct
involving covered products that the
Commission found were previously
imported into the United States
under license;
(B) to engage in specific conduct
otherwise prohibited by the terms of
this Order if such specific conduct is
related to the importation or sale of
covered products by or for the United
States; or
(C) to engage in such specific conduct
related to service or repair articles
imported for use in servicing or
repairing digital video receivers that
were imported before the effective
date of this Order. Exception (C)
does not permit the importation of
digital video receivers to replace
digital video receivers that were

974a
imported before the effective date of
this Order.
V.
Reporting
For purposes of this requirement, the reporting
periods shall commence on January 1 of each year and
shall end on the subsequent December 31. The first
report required under this section shall cover the
period from the date of issuance of this order through
December 31, 2017. This reporting requirement shall
continue in force until such time as Respondent has
truthfully reported, in two consecutive timely filed
reports, that it has no inventory (whether held in
warehouses or at customer sites) of covered products
in the United States.
Within thirty (30) days of the last day of the
reporting period. Respondent shall report to the
Commission: (a) the quantity in units and the value in
dollars of covered products that it has (i) imported
and/or (ii) sold in the United States after importation
during the reporting period, and (b) the quantity in
units and value in dollars of reported covered products
that remain in inventory in the United States at the
end of the reporting period. When filing written
submissions, Respondent must file the original
document electronically on or before the deadlines
stated above and submit eight (8) true paper copies to
the Office of the Secretary by noon the next day
pursuant to section 210.4(f) of the Commission’s Rules
of Practice and Procedure (19 CFR 210.4(f)).
Submissions should refer to the investigation number
(“Inv. No. 337-TA-1001”) in a prominent place on the
cover pages and/or the first page. (See Handbook for
Electronic Filing Procedures, https://www.usitc.gov/

975a
secretary/documents/handbook_on_filing_proced
ures.pdf). Persons with questions regarding filing
should contact the Office of the Secretary (202-2052000). If Respondent desires to submit a document to
the Commission in confidence, it must file the original
and a public version of the original with the Office of
the Secretary and must serve a copy of the confidential
version on Complainants’ counsel. 1
Any failure to make the required report or the filing
of any false or inaccurate report shall constitute a
violation of this Order, and the submission of a false or
inaccurate report may be referred to the U.S.
Department of Justice as a possible criminal violation
of 18 U.S.C. 1001.
VI.
Recordkeeping and Inspection
(A) For the purpose of securing
compliance
with
this
Order,
Respondent shall retain any and all
records relating to the sale, offer for
sale, lease, offer to lease, rent, offer
to rent, marketing, or distribution in
the United States of covered
products, made and received in the
usual and ordinary course of
business, whether in detail or in
summary form, for a period of three
(3) years from the close of the fiscal
year to which they pertain.
Complainants must file a letter with the Secretary identifying
the attorney to receive reports associated with this order. The
designated attorney must be on the protective order entered in
the investigation.

1

976a
(B) For the purposes of determining or
securing compliance with this Order
and for no other purpose, subject to
any privilege recognized by the
federal courts of the United States,
and upon reasonable written notice
by the Commission or its staff, duly
authorized representatives of the
Commission shall be permitted
access and the right to inspect and
copy, in Respondent’s principal office
during office hours, and in the
presence of counsel or other
representatives if Respondent so
chooses, all books, ledgers, accounts,
correspondence, memoranda, and
other records and documents, in
detail and in summary form, that
must
be
retained
under
subparagraph VI(A) of this Order.
VII.
Service of Cease and Desist Order
Respondent is ordered and directed to:
(A) Serve, within fifteen days after the
effective date of this Order, a copy of
this Order upon each of its respective
officers, directors, managing agents,
agents, and employees who have any
responsibility for the importation,
marketing, distribution, sale, lease,
or rent of imported covered products
in the United States;
(B) Serve, within fifteen days after the
succession of any persons referred to

977a
in subparagraph VII(A) of this order,
a copy of the order upon each
successor; and
(C) Maintain such records as will show
the name, title, and address of each
person upon whom the order has
been served, as described in
subparagraphs VII( A) and VII(B) of
this order, together with the date on
which service was made.
The obligations set forth in subparagraphs VII(B) and
VII(C) shall remain in effect until the Asserted
Patents expire.
VIII.
Confidentiality
Any request for confidential treatment of
information obtained by the Commission pursuant to
section V - VI of this order should be made in
accordance with section 201.6 of the Commission’s
Rules of Practice and Procedure (19 CFR 201.6). For
all reports for which confidential treatment is sought,
Respondent must provide a public version of such
report with confidential information redacted.
IX.
Enforcement
Violation of this order may result in any of the
actions specified in section 210.75 of the Commission’s
Rules of Practice and Procedure (19 CFR 210.75),
including an action for civil penalties under section
337(f) of the Tariff Act of 1930 (19 U.S.C. 1337(f)), as
well as any other action that the Commission deems
appropriate. In determining whether Respondent is in
violation of this order, the Commission may infer facts

978a
adverse to Respondent if it fails to provide adequate or
timely information.
X.
Modification
The Commission may amend this order on its own
motion or in accordance with the procedure described
in section 210.76 of the Commission’s Rules of Practice
and Procedure (19 CFR 210.76).
XI.
Bonding
The conduct prohibited by Section III of this Order
may be continued during the sixty-day period in which
this Order is under review by the United States Trade
Representative, as delegated by the President (70 Fed
Reg. 43,251 (Jul. 21, 2005)) subject to the Respondent’s
posting of a bond in the amount of zero percent of the
entered value of the covered products (i.e., no bond).
This bond provision does not apply to conduct that is
otherwise permitted by section IV of this order.
Covered products imported on or after the date of
issuance of this order are subject to the entry bond set
forth in the exclusion order issued by the Commission,
and are not subject to this bond provision.
The bond is to be posted in accordance with the
procedures established by the Commission for the
posting of bonds by complainants in connection with
the issuance of temporary exclusion orders. See 19
CFR 210.68. The bond and any accompanying
documentation are to be provided to and approved by
the Commission prior to the commencement of conduct
that is otherwise prohibited by section III of this
Order. Upon the Secretary’s acceptance of the bond, (a)
the Secretary will serve an acceptance letter on all

979a
parties, and (b) Respondent must serve a copy of the
bond and any accompanying documentation on
Complainants’ counsel. 2
The bond is to be forfeited in the event that the
United States Trade Representative approves this
Order (or does not disapprove it within the review
period), unless the U.S. Court of Appeals for the
Federal Circuit, in a final judgment, reverses any
Commission final determination and order as to
Respondent on appeal, or unless Respondent exports
or destroys the products subject to this bond and
provides certification to that effect that is satisfactory
to the Commission.
The bond is to be released in the event the United
States Trade Representative disapproves this order
and no subsequent order is issued by the Commission
and approved (or not disapproved) by the United
States Trade Representative, upon service on
Respondent of an order issued by the Commission
based upon application therefore made by Respondent
to the Commission.
By order of the Commission.
/s/ Lisa R. Barton
Lisa R. Barton
Secretary to the Commission
Issued: November 21, 2017

2

See Footnote 1.

980a
UNITED STATES INTERNATIONAL TRADE
COMMISSION
Investigation No. 337-TA-1001
In the Matter of CERTAIN DIGITAL VIDEO
RECEIVERS AND HARDWARE AND SOFTWARE
COMPONENTS THEREOF
CEASE AND DESIST ORDER
IT
IS
HEREBY
ORDERED
THAT
RESPONDENT Comcast Corporation, One
Comcast Center, 1701 John F. Kennedy Blvd.,
Philadelphia, Pennsylvania 19103 (“Respondent”),
cease and desist from conducting any of the following
activities in the United States: importing, selling,
offering for sale, leasing, offering for lease, renting,
offering for rent, marketing, advertising, distributing,
transferring (except for exportation), and soliciting
U.S. agents or distributors for, certain digital video
receivers and hardware and software components
thereof covered by (1) one or more of claims 1, 2, 14,
and 17 of U.S. Patent No. 8,006,263; or (2) one or more
of claims 1, 3, 5, 9, 10, 14, and 18 of U.S. Patent No.
8,578,413; (“the Asserted Patents”) in violation of
section 337 of the Tariff Act of 1930, as amended (19
U.S.C. 1337).
I.
Definitions
As used in this order:
(A) “Commission” shall mean the United
States
International
Trade
Commission.

981a
(B) “Complainants” shall mean Rovi
Corporation and Rovi Guides, Inc.,
both of San Carlos, CA.
(C) “Respondent” shall mean Comcast
Corporation. One Comcast Center,
1701 John F. Kennedy Blvd.,
Philadelphia, Pennsylvania 19103.
(D) “Person” shall mean an individual,
or
any
non-governmental
partnership,
firm,
association,
corporation, or other legal or
business
entity
other
than
Respondent or its majority owned or
controlled subsidiaries, successors,
or assigns.
(E) “United States” shall mean the fifty
States, the District of Columbia, and
Puerto Rico.
(F) The
terms
“import”
and
“importation” refer to importation
for entry for consumption under the
Customs laws of the United States.
(G) The term “covered products” shall
mean digital video receivers and
hardware and software components
thereof covered by one or more of (1)
claims 1, 2, 14, and 17 of U.S. Patent
No. 8,006,263; or (2) claims 1, 3, 5, 9,
10, 14, and 18 of U.S. Patent No.
8,578,413. Covered products shall
not include articles for which a
provision of law or license avoids

982a
liability for infringement of certain
claims of the Asserted Patents.
II.
Applicability
The provisions of this Cease and Desist Order shall
apply to Respondent and to any of its principals,
stockholders, officers, directors, employees, agents,
distributors, controlled (whether by stock ownership
or otherwise) and majority-owned business entities,
successors, and assigns, and to each of them insofar as
they are engaging in conduct prohibited by section III,
infra, for, with, or otherwise on behalf of Respondent.
III.
Conduct Prohibited
The following conduct of Respondent in the United
States is prohibited by this Order.
For the remaining terms of the Asserted Patents,
Respondent shall not:
(A) import or sell for importation into
the United States covered products;
(B) market, distribute, sell, offer to sell,
lease, offer to lease, rent, offer to
rent, or otherwise transfer (except
for exportation), in the United States
imported covered products;
(C) advertise imported covered products;
(D) solicit U.S. agents or distributors for
imported covered products; or
(E) aid or abet other entities in the
importation, sale for importation,
sale after importation, lease after

983a
importation, rent after importation,
transfer, or distribution of covered
products.
IV.
Conduct Permitted
Notwithstanding any other provision of this Order,
Respondent shall be permitted:
(A) to engage in specific conduct
otherwise prohibited by the terms of
this Order if, in a written
instrument, the owner of the
Asserted
Patents
licenses
or
authorizes such specific conduct,
including but not limited to conduct
involving covered products that the
Commission found were previously
imported into the United States
under license;
(B) to engage in specific conduct
otherwise prohibited by the terms of
this Order if such specific conduct is
related to the importation or sale of
covered products by or for the United
States; or
(C) to engage in such specific conduct
related to service or repair articles
imported for use in servicing or
repairing digital video receivers that
were imported before the effective
date of this Order. Exception (C)
does not permit the importation of
digital video receivers to replace
digital video receivers that were

984a
imported before the effective date of
this Order.
V.
Reporting
For purposes of this requirement, the reporting
periods shall commence on January 1 of each year and
shall end on the subsequent December 31. The first
report required under this section shall cover the
period from the date of issuance of this order through
December 31, 2017. This reporting requirement shall
continue in force until such time as Respondent has
truthfully reported, in two consecutive timely filed
reports, that it has no inventory (whether held in
warehouses or at customer sites) of covered products
in the United States.
Within thirty (30) days of the last day of the
reporting period. Respondent shall report to the
Commission: (a) the quantity in units and the value in
dollars of covered products that it has (i) imported
and/or (ii) sold in the United States after importation
during the reporting period, and (b) the quantity in
units and value in dollars of reported covered products
that remain in inventory in the United States at the
end of the reporting period. When filing written
submissions, Respondent must file the original
document electronically on or before the deadlines
stated above and submit eight (8) true paper copies to
the Office of the Secretary by noon the next day
pursuant to section 210.4(f) of the Commission’s Rules
of Practice and Procedure (19 CFR 210.4(f)).
Submissions should refer to the investigation number
(“Inv. No. 337-TA-1001”) in a prominent place on the
cover pages and/or the first page. (See Handbook for
Electronic Filing Procedures, https://www.usitc.gov/

985a
secretary/documents/handbook_on_filing_procedu
res.pdf). Persons with questions regarding filing
should contact the Office of the Secretary (202-2052000). If Respondent desires to submit a document to
the Commission in confidence, it must file the original
and a public version of the original with the Office of
the Secretary and must serve a copy of the confidential
version on Complainants’ counsel. 1
Any failure to make the required report or the filing
of any false or inaccurate report shall constitute a
violation of this Order, and the submission of a false or
inaccurate report may be referred to the U.S.
Department of Justice as a possible criminal violation
of 18 U.S.C. 1001.
VI.
Recordkeeping and Inspection
(A) For the purpose of securing
compliance
with
this
Order,
Respondent shall retain any and all
records relating to the sale, offer for
sale, lease, offer to lease, rent, offer
to rent, marketing, or distribution in
the United States of covered
products, made and received in the
usual and ordinary course of
business, whether in detail or in
summary form, for a period of three
(3) years from the close of the fiscal
year to which they pertain.
Complainants must file a letter with the Secretary identifying
the attorney to receive reports associated with this order. The
designated attorney must on the protective order entered in the
investigation.
1

986a
(B) For the purposes of determining or
securing compliance with this Order
and for no other purpose, subject to
any privilege recognized by the
federal courts of the United States,
and upon reasonable written notice
by the Commission or its staff, duly
authorized representatives of the
Commission shall be permitted
access and the right to inspect and
copy, in Respondent’s principal office
during office hours, and in the
presence of counsel or other
representatives if Respondent so
chooses, all books, ledgers, accounts,
correspondence, memoranda, and
other records and documents, in
detail and in summary form, that
must
be
retained
under
subparagraph VI(A) of this Order.
VII.
Service of Cease and Desist Order
Respondent is ordered and directed to:
(A) Serve, within fifteen days after the
effective date of this Order, a copy of
this Order upon each of its respective
officers, directors, managing agents,
agents, and employees who have any
responsibility for the importation,
marketing, distribution, sale, lease,
or rent of imported covered products
in the United States;
(B) Serve, within fifteen days after the
succession of any persons referred to

987a
in subparagraph VII(A) of this order,
a copy of the order upon each
successor; and
(C) Maintain such records as will show
the name, title, and address of each
person upon whom the order has
been served, as described in
subparagraphs VII(A) and VII(B) of
this order, together with the date on
which service was made.
The obligations set forth in subparagraphs VII(B) and
VII(C) shall remain in effect until the Asserted
Patents expire.
VIII.
Confidentiality
Any request for confidential treatment of
information obtained by the Commission pursuant to
section V - VI of this order should be made in
accordance with section 201.6 of the Commission’s
Rules of Practice and Procedure (19 CFR 201.6). For
all reports for which confidential treatment is sought.
Respondent must provide a public version of such
report with confidential information redacted.
IX.
Enforcement
Violation of this order may result in any of the
actions specified in section 210.75 of the Commission’s
Rules of Practice and Procedure (19 CFR 210.75),
including an action for civil penalties under section
337(f) of the Tariff Act of 1930 (19 U.S.C. 1337(f)), as
well as any other action that the Commission deems
appropriate. In determining whether Respondent is in
violation of this order, the Commission may infer facts

988a
adverse to Respondent if it fails to provide adequate or
timely information.
X.
Modification
The Commission may amend this order on its own
motion or in accordance with the procedure described
in section 210.76 of the Commission’s Rules of Practice
and Procedure (19 CFR 210.76).
XI.
Bonding
The conduct prohibited by Section III of this Order
may be continued during the sixty-day period in which
this Order is under review by the United States Trade
Representative, as delegated by the President (70 Fed.
Reg. 43,251 (Jul. 21, 2005)) subject to the Respondent’s
posting of a bond in the amount of zero percent of the
entered value of the covered products (i.e., no bond).
This bond provision does not apply to conduct that is
otherwise permitted by section IV of this order.
Covered products imported on or after the date of
issuance of this order are subject to the entry bond set
forth in the exclusion order issued by the Commission,
and are not subject to this bond provision.
The bond is to be posted in accordance with the
procedures established by the Commission for the
posting of bonds by complainants in connection with
the issuance of temporary exclusion orders. See 19
CFR 210.68. The bond and any accompanying
documentation are to be provided to and approved by
the Commission prior to the commencement of conduct
that is otherwise prohibited by section III of this
Order. Upon the Secretary’s acceptance of the bond, (a)
the Secretary will serve an acceptance letter on all

989a
parties, and (b) Respondent must serve a copy of the
bond and any accompanying documentation on
Complainants’ counsel. 2
The bond is to be forfeited in the event that the
United States Trade Representative approves this
Order (or does not disapprove it within the review
period), unless the U.S. Court of Appeals for the
Federal Circuit, in a final judgment, reverses any
Commission final determination and order as to
Respondent on appeal, or unless Respondent exports
or destroys the products subject to this bond and
provides certification to that effect that is satisfactory
to the Commission.
The bond is to be released in the event the United
States Trade Representative disapproves this order
and no subsequent order is issued by the Commission
and approved (or not disapproved) by the United
States Trade Representative, upon service on
Respondent of an order issued by the Commission
based upon application therefore made by Respondent
to the Commission.
By order of the Commission.
/s/ Lisa R. Barton
Lisa R. Barton
Secretary to the Commission
Issued: November 21, 2017

2

See Footnote 1.

990a
UNITED STATES INTERNATIONAL TRADE
COMMISSION
Investigation No. 337-TA-1001
In the Matter of CERTAIN DIGITAL VIDEO
RECEIVERS AND HARDWARE AND SOFTWARE
COMPONENTS THEREOF
CEASE AND DESIST ORDER
IT
IS
HEREBY
ORDERED
THAT
RESPONDENT Comcast Holdings Corporation,
One Comcast Center, 1701 John F. Kennedy Blvd.,
Philadelphia, Pennsylvania 19103 (“Respondent”),
cease and desist from conducting any of the following
activities in the United States: importing, selling,
offering for sale, leasing, offering for lease, renting,
offering for rent, marketing, advertising, distributing,
transferring (except for exportation), and soliciting
U.S. agents or distributors for, certain digital video
receivers and hardware and software components
thereof covered by (1) one or more of claims 1, 2, 14,
and 17 of U.S. Patent No. 8,006,263; or (2) one or more
of claims 1, 3, 5, 9, 10, 14, and 18 of U.S. Patent No.
8,578,413; (“the Asserted Patents”) in violation of
section 337 of the Tariff Act of 1930, as amended (19
U.S.C. 1337).
I.
Definitions
As used in this order:
(A) “Commission” shall mean the United
States
International
Trade
Commission.

991a
(B) “Complainants” shall mean Rovi
Corporation and Rovi Guides, Inc.,
both of San Carlos, CA.
(C) “Respondent” shall mean Comcast
Holdings Corporation, One Comcast
Center, 1701 John F. Kennedy Blvd.,
Philadelphia, Pennsylvania 19103.
(D) “Person” shall mean an individual,
or
any
non-governmental
partnership,
firm,
association,
corporation, or other legal or
business
entity
other
than
Respondent or its majority owned or
controlled subsidiaries, successors,
or assigns.
(E) “United States” shall mean the fifty
States, the District of Columbia, and
Puerto Rico.
(F) The
terms
“import”
and
“importation” refer to importation
for entry for consumption under the
Customs laws of the United States.
(G) The term “covered products” shall
mean digital video receivers and
hardware and software components
thereof covered by one or more of (1)
claims 1, 2, 14, and 17 of U.S. Patent
No. 8,006,263; or (2) claims 1, 3, 5, 9,
10, 14, and 18 of U.S. Patent No.
8,578,413. Covered products shall
not include articles for which a
provision of law or license avoids

992a
liability for infringement of certain
claims of the Asserted Patents.
II.
Applicability
The provisions of this Cease and Desist Order shall
apply to Respondent and to any of its principals,
stockholders, officers, directors, employees, agents,
distributors, controlled (whether by stock ownership
or otherwise) and majority-owned business entities,
successors, and assigns, and to each of them insofar as
they are engaging in conduct prohibited by section III,
infra, for, with, or otherwise on behalf of, Respondent.
III.
Conduct Prohibited
The following conduct of Respondent in the United
States is prohibited by this Order.
For the remaining terms of the Asserted Patents,
Respondent shall not:
(A) import or sell for importation into
the United States covered products;
(B) market, distribute, sell, offer to sell,
lease, offer to lease, rent, offer to
rent, or otherwise transfer (except
for exportation), in the United States
imported covered products;
(C) advertise imported covered products;
(D) solicit U.S. agents or distributors for
imported covered products; or
(E) aid or abet other entities in the
importation, sale for importation,
sale after importation, lease after

993a
importation, rent after importation,
transfer, or distribution of covered
products.
IV.
Conduct Permitted
Notwithstanding any other provision of this Order,
Respondent shall be permitted:
(A) to engage in specific conduct
otherwise prohibited by the terms of
this Order if, in a written
instrument, the owner of the
Asserted
Patents
licenses
or
authorizes such specific conduct,
including but not limited to conduct
involving covered products that the
Commission found were previously
imported into the United States
under license;
(B) to engage in specific conduct
otherwise prohibited by the terms of
this Order if such specific conduct is
related to the importation or sale of
covered products by or for the United
States; or
(C) to engage in such specific conduct
related to service or repair articles
imported for use in servicing or
repairing digital video receivers that
were imported before the effective
date of this Order. Exception (C)
does not permit the importation of
digital video receivers to replace
digital video receivers that were

994a
imported before the effective date of
this Order.
V.
Reporting
For purposes of this requirement, the reporting
periods shall commence on January 1 of each year and
shall end on the subsequent December 31. The first
report required under this section shall cover the
period from the date of issuance of this order through
December 31, 2017. This reporting requirement shall
continue in force until such time as Respondent has
truthfully reported, in two consecutive timely filed
reports, that it has no inventory (whether held in
warehouses or at customer sites) of covered products
in the United States.
Within thirty (30) days of the last day of the
reporting period, Respondent shall report to the
Commission: (a) the quantity in units and the value in
dollars of covered products that it has (i) imported
and/or (ii) sold in the United States after importation
during the reporting period, and (b) the quantity in
units and value in dollars of reported covered products
that remain in inventory in the United States at the
end of the reporting period. When filing written
submissions, Respondent must file the original
document electronically on or before the deadlines
stated above and submit eight (8) true paper copies to
the Office of the Secretary by noon the next day
pursuant to section 210.4(f) of the Commission’s Rules
of Practice and Procedure (19 CFR 210.4(f)).
Submissions should refer to the investigation number
(“Inv. No. 337-TA-1001”) in a prominent place on the
cover pages and/or the first page. (See Handbook for
Electronic Filing Procedures, https://www.usitc.gov/

995a
secretary/documents/handbook_on_filing_proced
ures.pdf). Persons with questions regarding filing
should contact the Office of the Secretary (202-2052000). If Respondent desires to submit a document to
the Commission in confidence, it must file the original
and a public version of the original with the Office of
the Secretary and must serve a copy of the confidential
version on Complainants’ counsel. 1 Any failure to
make the required report or the filing of any false or
inaccurate report shall constitute a violation of this
Order, and the submission of a false or inaccurate
report may be referred to the U.S. Department of
Justice as a possible criminal violation of 18 U.S.C.
1001
VI.
Recordkeeping and Inspection
(A) For the purpose of securing
compliance
with
this
Order.
Respondent shall retain any and all
records relating to the sale, offer for
sale, lease, offer to lease, rent, offer
to rent, marketing, or distribution in
the United States of covered
products, made and received in the
usual and ordinary course of
business, whether in detail or in
Complainants must file a letter with
the Secretary identifying the
attorney
to
receive
reports
associated with this order. The
Complainants must file a letter with the Secretary identifying
the attorney to receive reports associated with this order. The
designated attorney must be on the protective order entered in
the investigation.
1

996a
designated attorney must be on the
protective order entered in the
investigation, summary form, for a
period of three (3) years from the
close of the fiscal year to which they
pertain.
(B) For the purposes of determining or
securing compliance with this Order
and for no other purpose, subject to
any privilege recognized by the
federal courts of the United States,
and upon reasonable written notice
by the Commission or its staff, duly
authorized representatives of the
Commission shall be permitted
access and the right to inspect and
copy, in Respondent’s principal office
during office hours, and in the
presence of counsel or other
representatives if Respondent so
chooses, all books, ledgers, accounts,
correspondence, memoranda, and
other records and documents, in
detail and in summary form, that
must
be
retained
under
subparagraph VI(A) of this Order.
VII.
Service of Cease and Desist Order
Respondent is ordered and directed to:
(A) Serve, within fifteen days after the
effective date of this Order, a copy of
this Order upon each of its respective
officers, directors, managing agents,
agents, and employees who have any

997a
responsibility for the importation,
marketing, distribution, sale, lease,
or rent of imported covered products
in the United States;
(B) Serve, within fifteen days after the
succession of any persons referred to
in subparagraph VII(A) of this order,
a copy of the order upon each
successor; and
(C) Maintain such records as will show
the name, title, and address of each
person upon whom the order has
been served, as described in
subparagraphs VII(A) and VII(B) of
this order, together with the date on
which service was made.
The obligations set forth in subparagraphs VII(B) and
VII(C) shall remain in effect until the Asserted
Patents expire.
VIII.
Confidentiality
Any request for confidential treatment of
information obtained by the Commission pursuant to
section V - VI of this order should be made in
accordance with section 201.6 of the Commission’s
Rules of Practice and Procedure (19 CFR 201.6). For
all reports for which confidential treatment is sought,
Respondent must provide a public version of such
report with confidential information redacted.

998a
IX.
Enforcement
Violation of this order may result in any of the
actions specified in section 210.75 of the Commission’s
Rules of Practice and Procedure (19 CFR 210.75),
including an action for civil penalties under section
337(f) of the Tariff Act of 1930 (19 U.S.C. 1337(f)), as
well as any other action that the Commission deems
appropriate. In determining whether Respondent is in
violation of this order, the Commission may infer facts
adverse to Respondent if it fails to provide adequate or
timely information.
X.
Modification
The Commission may amend this order on its own
motion or in accordance with the procedure described
in section 210.76 of the Commission’s Rules of Practice
and Procedure (19 CFR 210.76).
XI.
Bonding
The conduct prohibited by Section III of this Order
may be continued during the sixty-day period in which
this Order is under review by the United States Trade
Representative, as delegated by the President (70 Fed.
Reg. 43,251 (Jul. 21,2005)) subject to the Respondent’s
posting of a bond in the amount of zero percent of the
entered value of the covered products (i.e., no bond).
This bond provision does not apply to conduct that is
otherwise permitted by section IV of this order.
Covered products imported on or after the date of
issuance of this order are subject to the entry bond set
forth in the exclusion order issued by the Commission,
and are not subject to this bond provision.

999a
The bond is to be posted in accordance with the
procedures established by the Commission for the
posting of bonds by complainants in connection with
the issuance of temporary exclusion orders. See 19
CFR 210.68. The bond and any accompanying
documentation are to be provided to and approved by
the Commission prior to the commencement of conduct
that is otherwise prohibited by section III of this
Order. Upon the Secretary’s acceptance of the bond, (a)
the Secretary will serve an acceptance letter on all
parties, and (b) Respondent must serve a copy of the
bond and any accompanying documentation on
Complainants’ counsel. 2
The bond is to be forfeited in the event that the
United States Trade Representative approves this
Order (or does not disapprove it within the review
period), unless the U.S. Court of Appeals for the
Federal Circuit, in a final judgment, reverses any
Commission final determination and order as to
Respondent on appeal, or unless Respondent exports
or destroys the products subject to this bond and
provides certification to that effect that is satisfactory
to the Commission.
The bond is to be released in the event the United
States Trade Representative disapproves this order
and no subsequent order is issued by the Commission
and approved (or not disapproved) by the United
States Trade Representative, upon service on
Respondent of an order issued by the Commission
based upon application therefore made by Respondent
to the Commission.

2

See Footnote 1.

1000a
By order of the Commission.
/s/ Lisa R. Barton
Lisa R. Barton
Secretary to the Commission
Issued: November 21, 2017

1001a
UNITED STATES INTERNATIONAL TRADE
COMMISSION
Investigation No. 337-TA-1001
In the Matter of CERTAIN DIGITAL VIDEO
RECEIVERS AND HARDWARE AND SOFTWARE
COMPONENTS THEREOF
CEASE AND DESIST ORDER
IT
IS
HEREBY
ORDERED
THAT
RESPONDENT Comcast Shared Services, LLC,
330 N. Wabash Ave. 22, Chicago, IL 60611-3586
(“Respondent”), cease and desist from conducting any
of the following activities in the United States:
importing, selling, offering for sale, leasing, offering
for lease, renting, offering for rent, marketing,
advertising, distributing, transferring (except for
exportation), and soliciting U.S. agents or distributors
for, certain digital video receivers and hardware and
software components thereof covered by (1) one or
more of claims 1, 2, 14, and 17 of U.S. Patent No.
8,006,263; or (2) one or more of claims 1, 3, 5, 9, 10, 14,
and 18 of U.S. Patent No. 8,578,413; (“the Asserted
Patents”) in violation of section 337 of the Tariff Act of
1930, as amended (19 U.S.C. 1337).
I.
Definitions
As used in this order:
(A) “Commission” shall mean the United
States
International
Trade
Commission.
(B) “Complainants” shall mean Rovi
Corporation and Rovi Guides, Inc.,
both of San Carlos, CA.

1002a
(C) “Respondent” shall mean Comcast
Shared Services, LLC, 330 N.
Wabash Ave. 22, Chicago, IL 606113586.
(D) “Person” shall mean an individual,
or
any
non-governmental
partnership,
firm,
association,
corporation, or other legal or
business
entity
other
than
Respondent or its majority owned or
controlled subsidiaries, successors,
or assigns.
(E) “United States” shall mean the fifty
States, the District of Columbia, and
Puerto Rico.
(F) The
terms
“import”
and
“importation” refer to importation
for entry for consumption under the
Customs laws of the United States.
(G) The term “covered products” shall
mean digital video receivers and
hardware and software components
thereof covered by one or more of (1)
claims 1, 2, 14, and 17 of U.S. Patent
No. 8,006,263; or (2) claims 1, 3, 5, 9,
10, 14, and 18 of U.S. Patent No.
8,578,413. Covered products shall
not include articles for which a
provision of law or license avoids
liability for infringement of certain
claims of the Asserted Patents.

1003a
II.
Applicability
The provisions of this Cease and Desist Order shall
apply to Respondent and to any of its principals,
stockholders, officers, directors, employees, agents,
distributors, controlled (whether by stock ownership
or otherwise) and majority-owned business entities,
successors, and assigns, and to each of them insofar as
they are engaging in conduct prohibited by section III,
infra, for, with, or otherwise on behalf of, Respondent.
III.
Conduct Prohibited
The following conduct of Respondent in the United
States is prohibited by this Order.
For the remaining terms of the Asserted Patents,
Respondent shall not:
(A) import or sell for importation into
the United States covered products;
(B) market, distribute, sell, offer to sell,
lease, offer to lease, rent, offer to
rent, or otherwise transfer (except
for exportation), in the United States
imported covered products;
(C) advertise imported covered products;
(D) solicit U.S. agents or distributors for
imported covered products; or
(E) aid or abet other entities in the
importation, sale for importation,
sale after importation, lease after
importation, rent after importation,
transfer, or distribution of covered
products.

1004a
IV.
Conduct Permitted
Notwithstanding any other provision of this Order,
Respondent shall be permitted:
(A) to engage in specific conduct
otherwise prohibited by the terms of
this Order if, in a written
instrument, the owner of the
Asserted
Patents
licenses
or
authorizes such specific conduct,
including but not limited to conduct
involving covered products that the
Commission found were previously
imported into the United States
under license;
(B) to engage in specific conduct
otherwise prohibited by the terms of
this Order if such specific conduct is
related to the importation or sale of
covered products by or for the United
States; or
(C) to engage in such specific conduct
related to service or repair articles
imported for use in servicing or
repairing digital video receivers that
were imported before the effective
date of this Order. Exception (C)
does not permit the importation of
digital video receivers to replace
digital video receivers that were
imported before the effective date of
this Order.

1005a
V.
Reporting
For purposes of this requirement, the reporting
periods shall commence on January 1 of each year and
shall end on the subsequent December 31. The first
report required under this section shall cover the
period from the date of issuance of this order through
December 31, 2017. This reporting requirement shall
continue in force until such time as Respondent has
truthfully reported, in two consecutive timely filed
reports, that it has no inventory (whether held in
warehouses or at customer sites) of covered products
in the United States.
Within thirty (30) days of the last day of the
reporting period, Respondent shall report to the
Commission: (a) the quantity in units and the value in
dollars of covered products that it has (i) imported
and/or (ii) sold in the United States after importation
during the reporting period, and (b) the quantity in
units and value in dollars of reported covered products
that remain in inventory in the United States at the
end of the reporting period. When filing written
submissions. Respondent must file the original
document electronically on or before the deadlines
stated above and submit eight (8) true paper copies to
the Office of the Secretary by noon the next day
pursuant to section 210.4(f) of the Commission’s Rules
of Practice and Procedure (19 CFR 210.4(f)).
Submissions should refer to the investigation number
(“Inv. No. 337-TA-1001”) in a prominent place on the
cover pages and/or the first page. (See Handbook for
Electronic Filing Procedures, https://www.usitc.gov/
secretary/documents/handbook_on_filing_proced
ures.pdf). Persons with questions regarding filing

1006a
should contact the Office of the Secretary (202-2052000). If Respondent desires to submit a document to
the Commission in confidence, it must file the original
and a public version of the original with the Office of
the Secretary and must serve a copy of the confidential
version on Complainants’ counsel. 1
Any failure to make the required report or the filing
of any false or inaccurate report shall constitute a
violation of this Order, and the submission of a false or
inaccurate report may be referred to the U.S.
Department of Justice as a possible criminal violation
of 18 U.S.C. 1001.
VI.
Recordkeeping and Inspection
(A) For the purpose of securing
compliance
with
this
Order,
Respondent shall retain any and all
records relating to the sale, offer for
sale, lease, offer to lease, rent, offer
to rent, marketing, or distribution in
the United States of covered
products, made and received in the
usual and ordinary course of
business, whether in detail or in
summary form, for a period of three
(3) years from the close of the fiscal
year to which they pertain.
(B) For the purposes of determining or
securing compliance with this Order
Complainants must file a letter with the Secretary identifying
the attorney to receive reports associated with this order. The
designated attorney must be on the protective order entered in
the investigation.
1

1007a
and for no other purpose, subject to
any privilege recognized by the
federal courts of the United States,
and upon reasonable written notice
by the Commission or its staff, duly
authorized representatives of the
Commission shall be permitted
access and the right to inspect and
copy, in Respondent’s principal office
during office hours, and in the
presence of counsel or other
representatives if Respondent so
chooses, all books, ledgers, accounts,
correspondence, memoranda, and
other records and documents, in
detail and in summary form, that
must
be
retained
under
subparagraph VI(A) of this Order.
VII.
Service of Cease and Desist Order
Respondent is ordered and directed to:
(A) Serve, within fifteen days after the
effective date of this Order, a copy of
this Order upon each of its respective
officers, directors, managing agents,
agents, and employees who have any
responsibility for the importation,
marketing, distribution, sale, lease,
or rent of imported covered products
in the United States;
(B) Serve, within fifteen days after the
succession of any persons referred to
in subparagraph VII(A) of this order,

1008a
a copy of the order upon each
successor; and
(C) Maintain such records as will show
the name, title, and address of each
person upon whom the order has
been served, as described in
subparagraphs VII( A) and VII(B) of
this order, together with the date on
which service was made.
The obligations set forth in subparagraphs VII(B) and
VII(C) shall remain in effect until the Asserted
Patents expire.
VIII.
Confidentiality
Any request for confidential treatment of
information obtained by the Commission pursuant to
section V - VI of this order should be made in
accordance with section 201.6 of the Commission’s
Rules of Practice and Procedure (19 CFR 201.6). For
all reports for which confidential treatment is sought.
Respondent must provide a public version of such
report with confidential information redacted.
IX.
Enforcement
Violation of this order may result in any of the
actions specified in section 210.75 of the Commission’s
Rules of Practice and Procedure (19 CFR 210.75),
including an action for civil penalties under section
337(f) of the Tariff Act of 1930 (19 U.S.C. 1337(f)), as
well as any other action that the Commission deems
appropriate. In determining whether Respondent is in
violation of this order, the Commission may infer facts

1009a
adverse to Respondent if it fails to provide adequate or
timely information.
X.
Modification
The Commission may amend this order on its own
motion or in accordance with the procedure described
in section 210.76 of the Commission’s Rules of Practice
and Procedure (19 CFR 210.76).
XI.
Bonding
The conduct prohibited by Section III of this Order
may be continued during the sixty-day period in which
this Order is under review by the United States Trade
Representative, as delegated by the President (70 Fed.
Reg. 43,251 (Jul. 21, 2005)) subject to the Respondent’s
posting of a bond in the amount of zero percent of the
entered value of the covered products (i.e., no bond).
This bond provision does not apply to conduct that is
otherwise permitted by section IV of this order.
Covered products imported on or after the date of
issuance of this order are subject to the entry bond set
forth in the exclusion order issued by the Commission,
and are not subject to this bond provision.
The bond is to be posted in accordance with the
procedures established by the Commission for the
posting of bonds by complainants in connection with
the issuance of temporary exclusion orders. See 19
CFR 210.68. The bond and any accompanying
documentation are to be provided to and approved by
the Commission prior to the commencement of conduct
that is otherwise prohibited by section III of this
Order. Upon the Secretary’s acceptance of the bond, (a)
the Secretary will serve an acceptance letter on all

1010a
parties, and (b) Respondent must serve a copy of the
bond and any accompanying documentation on
Complainants’ counsel. 2
The bond is to be forfeited in the event that the
United States Trade Representative approves this
Order (or docs not disapprove it within the review
period), unless the U.S. Court of Appeals for the
Federal Circuit, in a final judgment, reverses any
Commission final determination and order as to
Respondent on appeal, or unless Respondent exports
or destroys the products subject to this bond and
provides certification to that effect that is satisfactory
to the Commission.
The bond is to be released in the event the United
States Trade Representative disapproves this order
and no subsequent order is issued by the Commission
and approved (or not disapproved) by the United
States Trade Representative, upon service on
Respondent of an order issued by the Commission
based upon application therefore made by Respondent
to the Commission.
By order of the Commission.
/s/ Lisa R. Barton
Lisa R. Barton
Secretary to the Commission
Issued: November 21, 2017

2

See Footnote 1.

1011a
UNITED STATES INTERNATIONAL TRADE
COMMISSION
Investigation No. 337-TA-1001
In the Matter of CERTAIN DIGITAL VIDEO
RECEIVERS AND HARDWARE AND SOFTWARE
COMPONENTS THEREOF
LIMITED EXCLUSION ORDER
The Commission has determined that there is a
violation of section 337 of the Tariff Act of 1930, as
amended (19 U.S.C. 1337), in the unlawful
importation, sale for importation, and/or sale after
importation by respondents Comcast Corporation;
Comcast Cable Communications, LLC; Comcast Cable
Communications Management, LLC; Comcast
Business Communications, LLC; Comcast Holdings
Corporation; and Comcast Shared Services, LLC
(collectively “Respondents’”) of certain digital video
receivers and hardware and software components
thereof covered by one or more of claims 1, 2, 14, and
17 of United States Patent No. 8,006,263 or one or
more of claims 1, 3, 5, 9, 10, 14, and 18 of United States
Patent No. 8,578,413.
Having reviewed the record of this investigation,
including the written submissions of the parties, the
Commission has made its determination on the issues
of remedy, public interest, and bonding. The
Commission has determined that the appropriate form
of relief is a limited exclusion order prohibiting the
unlicensed entry into the United States of covered
digital video receivers and hardware and software
components thereof manufactured by or on behalf of
the Respondents or any of their affiliated companies,

1012a
parents, subsidiaries, or other related business
entities, or their successors or assigns.
The Commission has also determined that the
public interest factors enumerated in 19 U.S.C.
1337(d) do not preclude the issuance of the limited
exclusion order, and that the bond during the
Presidential review period shall be in the amount of
zero percent of the entered value of the infringing
goods (i.e., no bond).
Accordingly, the Commission hereby ORDERS that:
1. Digital video receivers and hardware and
software components thereof that infringe one or
more of claims 1, 2, 14, and 17 of United States
Patent No. 8,006,263 or one or more of claims 1,
3, 5, 9, 10, 14, and 18 of United States Patent No.
8,578,413 that are manufactured by, or on behalf
of, or are imported by or on behalf of the
Respondents or any of their affiliated companies,
parents, subsidiaries, agents, or other related
business entities, or their successors or assigns,
including ARRIS and Technicolor 1 to the extent
they import such products on behalf of
Respondents, are excluded from entry for
consumption into the United States, entry for
consumption from a foreign-trade zone, or
withdrawal from a warehouse for consumption,
for the remaining terms of U.S. Patent Nos.
ARRIS and Technicolor refer to Technicolor SA; Technicolor
USA, Inc.; Technicolor Connected Home USA LLC; ARRIS
International pie; ARRIS Group Inc.; ARRIS Technology, Inc.;
ARRIS Enterprises LLC; ARRIS Solutions, Inc.; ARRIS Global
Ltd.; and Pace Americas; or any of their affiliated companies,
parents, subsidiaries, agents, or other related business entities,
or their successors or assigns.
1

1013a
8,006,263 and 8,578,413, except under license of
the patent owner or as provided by law, and
except for service or repair of digital video
receivers that were imported before the effective
date of this order.
2. Notwithstanding paragraph 1 of this Order, the
aforesaid digital video receivers and hardware
and software components thereof are entitled to
entry into the United States for consumption,
entry for consumption from a foreign trade zone,
or withdrawal from a warehouse for
consumption, under bond in the amount of zero
percent of the entered value (i.e., no bond) of the
imported digital video receivers and hardware
and software components thereof pursuant to
subsection (j) of section 337 of the Tariff Act of
1930, as amended (19 U.S.C. 1337(j)), and the
Presidential Memorandum for the United States
Trade Representative of July 21,2005, (70 FR
43251), from the day after this Order is received
by the United States Trade Representative, and
until such time as the United States Trade
representative notifies the Commission that this
action is approved or disapproved but, in any
event, not later than sixty (60) days after the
issuance of receipt of this action.
3. At the discretion of U.S. Customs and Border
Protection (“CBP”) and pursuant to the
procedures it establishes, persons seeking to
import digital video receivers and hardware and
software components thereof that are potentially
subject to this Order may be required to certify
that they are familiar with the terms of this
Order, that they have made appropriate inquiry,
and thereupon state that, to the best of their

1014a
knowledge and belief, the products being
imported are not capable of being used after
importation in a manner which infringes the
claims of the patents that are the subject of this
Order because one or more elements (such as
software
elements)
of
the
internet
communications path described by the claims of
the patents in paragraph 1 of this Order are
omitted from the internet communications path
that the imported products will use after
importation. At its discretion, CBP may require
persons who have provided the certification
described in this paragraph to furnish such
records or analyses as are necessary to
substantiate this certification.
4. In accordance with 19 U.S.C. 1337 (1), the
provisions of this Order shall not apply to
infringing digital video receivers and hardware
and software components thereof that are
imported by or for the use of the United States,
or imported for and to be used for, the United
States with the authorization or consent of the
Government.
5. The Commission may modify this Order in
accordance with the procedures described in
Rule 210.76 of the Commission’s Rules of
Practice and Procedure (19 CFR 210.76).
6. The Secretary shall serve copies of this Order
upon each party of record in this Investigation
and upon CBP.
7. Notice of this Order shall be published in the
Federal Register.
By order of the Commission.

1015a

/s/ Lisa R. Barton
Lisa R. Barton
Secretary to the Commission
Issued: November 21, 2017
[CERTIFICATE OF SERVICE OMITTED]

1016a
APPENDIX E
STATUTORY PROVISIONS
1. 19 U.S.C.A. § 1337 provides:
Unfair practices in import trade
(a) Unlawful
definitions

activities;

covered

industries;

(1) Subject to paragraph (2), the following are
unlawful, and when found by the Commission to
exist shall be dealt with, in addition to any other
provision of law, as provided in this section:
(A) Unfair methods of competition and unfair
acts in the importation of articles (other than
articles provided for in subparagraphs (B), (C),
(D), and (E)) into the United States, or in the
sale of such articles by the owner, importer, or
consignee, the threat or effect of which is-(i) to destroy or substantially injure an
industry in the United States;
(ii) to prevent the establishment of such an
industry; or
(iii) to restrain or monopolize trade and
commerce in the United States.
(B) The importation into the United States,
the sale for importation, or the sale within the
United States after importation by the owner,
importer, or consignee, of articles that-(i) infringe a valid and enforceable United
States patent or a valid and enforceable
United States copyright registered under
Title 17; or

1017a
(ii) are made, produced, processed, or mined
under, or by means of, a process covered by
the claims of a valid and enforceable United
States patent.
(C) The importation into the United States,
the sale for importation, or the sale within the
United States after importation by the owner,
importer, or consignee, of articles that infringe
a valid and enforceable United States
trademark registered under the Trademark
Act of 1946.
(D) The importation into the United States,
the sale for importation, or the sale within the
United States after importation by the owner,
importer, or consignee, of a semiconductor chip
product in a manner that constitutes
infringement of a mask work registered under
chapter 9 of Title 17.
(E) The importation into the United States,
the sale for importation, or the sale within the
United States after importation by the owner,
importer, or consigner, of an article that
constitutes infringement of the exclusive rights
in a design protected under chapter 13 of Title
17.
(2) Subparagraphs (B), (C), (D), and (E) of
paragraph (1) apply only if an industry in the
United States, relating to the articles protected by
the patent, copyright, trademark, mask work, or
design concerned, exists or is in the process of
being established.
(3) For purposes of paragraph (2), an industry in
the United States shall be considered to exist if

1018a
there is in the United States, with respect to the
articles protected by the patent, copyright,
trademark, mask work, or design concerned-(A) significant
equipment;

investment

in

plant

and

(B) significant employment of labor or capital;
or
(C) substantial investment in its exploitation,
including
engineering,
research
and
development, or licensing.
(4) For the purposes of this section, the phrase
“owner, importer, or consignee” includes any agent
of the owner, importer, or consignee.
(b) Investigation of violations by Commission
(1) The Commission shall investigate any alleged
violation of this section on complaint under oath
or upon its initiative. Upon commencing any such
investigation, the Commission shall publish notice
thereof in the Federal Register. The Commission
shall conclude any such investigation and make
its determination under this section at the earliest
practicable time after the date of publication of
notice of such investigation. To promote
expeditious adjudication, the Commission shall,
within 45 days after an investigation is initiated,
establish a target date for its final determination.
(2) During the course of each investigation under
this section, the Commission shall consult with,
and seek advice and information from, the
Department of Health and Human Services, the
Department of Justice, the Federal Trade
Commission, and such other departments and

1019a
agencies as it considers appropriate.
(3) Whenever, in the course of an investigation
under this section, the Commission has reason to
believe, based on information before it, that a
matter, in whole or in part, may come within the
purview of part II of subtitle IV of this chapter, it
shall promptly notify the Secretary of Commerce
so that such action may be taken as is otherwise
authorized by such part II. If the Commission has
reason to believe that the matter before it (A) is
based solely on alleged acts and effects which are
within the purview of section 1671 or 1673 of this
title, or (B) relates to an alleged copyright
infringement with respect to which action is
prohibited by section 1008 of Title 17, the
Commission shall terminate, or not institute, any
investigation into the matter. If the Commission
has reason to believe the matter before it is based
in part on alleged acts and effects which are
within the purview of section 1671 or 1673 of this
title, and in part on alleged acts and effects which
may, independently from or in conjunction with
those within the purview of such section, establish
a basis for relief under this section, then it may
institute or continue an investigation into the
matter. If the Commission notifies the Secretary
or the administering authority (as defined in
section 1677(1) of this title) with respect to a
matter under this paragraph, the Commission
may suspend its investigation during the time the
matter is before the Secretary or administering
authority for final decision. Any final decision by
the administering authority under section 1671 or
1673 of this title with respect to the matter within
such section 1671 or 1673 of this title of which the

1020a
Commission has notified the Secretary or
administering authority shall be conclusive upon
the Commission with respect to the issue of
less-than-fair-value sales or subsidization and the
matters necessary for such decision.
(c) Determinations; review
The Commission shall determine, with respect to
each investigation conducted by it under this section,
whether or not there is a violation of this section,
except that the Commission may, by issuing a
consent order or on the basis of an agreement
between the private parties to the investigation,
including an agreement to present the matter for
arbitration, terminate any such investigation, in
whole or in part, without making such a
determination. Each determination under subsection
(d) or (e) shall be made on the record after notice and
opportunity for a hearing in conformity with the
provisions of subchapter II of chapter 5 of Title 5. All
legal and equitable defenses may be presented in all
cases. A respondent may raise any counterclaim in a
manner prescribed by the Commission. Immediately
after a counterclaim is received by the Commission,
the respondent raising such counterclaim shall file a
notice of removal with a United States district court
in which venue for any of the counterclaims raised by
the party would exist under section 1391 of Title 28.
Any counterclaim raised pursuant to this section
shall relate back to the date of the original complaint
in the proceeding before the Commission. Action on
such counterclaim shall not delay or affect the
proceeding under this section, including the legal and
equitable defenses that may be raised under this
subsection. Any person adversely affected by a final
determination of the Commission under subsection

1021a
(d), (e), (f), or (g) may appeal such determination,
within 60 days after the determination becomes final,
to the United States Court of Appeals for the Federal
Circuit for review in accordance with chapter 7 of
Title 5. Notwithstanding the foregoing provisions of
this subsection, Commission determinations under
subsections (d), (e), (f), and (g) with respect to its
findings on the public health and welfare, competitive
conditions in the United States economy, the
production of like or directly competitive articles in
the United States, and United States consumers, the
amount and nature of bond, or the appropriate
remedy shall be reviewable in accordance with
section 706 of Title 5. Determinations by the
Commission under subsections (e), (f), and (j) with
respect to forfeiture of bonds and under subsection (h)
with respect to the imposition of sanctions for abuse
of discovery or abuse of process shall also be
reviewable in accordance with section 706 of Title 5.
(d) Exclusion of articles from entry
(1) If the Commission determines, as a result of
an investigation under this section, that there is a
violation of this section, it shall direct that the
articles concerned, imported by any person
violating the provision of this section, be excluded
from entry into the United States, unless, after
considering the effect of such exclusion upon the
public health and welfare, competitive conditions
in the United States economy, the production of
like or directly competitive articles in the United
States, and United States consumers, it finds that
such articles should not be excluded from entry.
The Commission shall notify the Secretary of the
Treasury of its action under this subsection

1022a
directing such exclusion from entry, and upon
receipt of such notice, the Secretary shall, through
the proper officers, refuse such entry.
(2) The authority of the Commission to order an
exclusion from entry of articles shall be limited to
persons determined by the Commission to be
violating this section unless the Commission
determines that-(A) a general exclusion from entry of articles is
necessary to prevent circumvention of an
exclusion order limited to products of named
persons; or
(B) there is a pattern of violation of this
section and it is difficult to identify the source
of infringing products.
(e) Exclusion of articles from entry during
investigation except under bond; procedures
applicable; preliminary relief
(1) If, during the course of an investigation under
this section, the Commission determines that
there is reason to believe that there is a violation
of this section, it may direct that the articles
concerned, imported by any person with respect to
whom there is reason to believe that such person
is violating this section, be excluded from entry
into the United States, unless, after considering
the effect of such exclusion upon the public health
and welfare, competitive conditions in the United
States economy, the production of like or directly
competitive articles in the United States, and
United States consumers, it finds that such
articles should not be excluded from entry. The
Commission shall notify the Secretary of the

1023a
Treasury of its action under this subsection
directing such exclusion from entry, and upon
receipt of such notice, the Secretary shall, through
the proper officers, refuse such entry, except that
such articles shall be entitled to entry under bond
prescribed by the Secretary in an amount
determined by the Commission to be sufficient to
protect the complainant from any injury. If the
Commission later determines that the respondent
has violated the provisions of this section, the
bond may be forfeited to the complainant.
(2) A complainant may petition the Commission
for the issuance of an order under this subsection.
The Commission shall make a determination with
regard to such petition by no later than the 90th
day after the date on which the Commission’s
notice of investigation is published in the Federal
Register. The Commission may extend the 90-day
period for an additional 60 days in a case it
designates as a more complicated case. The
Commission shall publish in the Federal Register
its reasons why it designated the case as being
more complicated. The Commission may require
the complainant to post a bond as a prerequisite to
the issuance of an order under this subsection. If
the Commission later determines that the
respondent has not violated the provisions of this
section, the bond may be forfeited to the
respondent.
(3) The Commission may grant preliminary relief
under this subsection or subsection (f) to the same
extent as preliminary injunctions and temporary
restraining orders may be granted under the
Federal Rules of Civil Procedure.

1024a
(4) The Commission shall prescribe the terms and
conditions under which bonds may be forfeited
under paragraphs (1) and (2).
(f) Cease and desist orders; civil penalty for
violation of orders
(1) In addition to, or in lieu of, taking action under
subsection (d) or (e), the Commission may issue
and cause to be served on any person violating
this section, or believed to be violating this
section, as the case may be, an order directing
such person to cease and desist from engaging in
the unfair methods or acts involved, unless after
considering the effect of such order upon the
public health and welfare, competitive conditions
in the United States economy, the production of
like or directly competitive articles in the United
States, and United States consumers, it finds that
such order should not be issued. The Commission
may at any time, upon such notice and in such
manner as it deems proper, modify or revoke any
such order, and, in the case of a revocation, may
take action under subsection (d) or (e), as the case
may be. If a temporary cease and desist order is
issued in addition to, or in lieu of, an exclusion
order under subsection (e), the Commission may
require the complainant to post a bond, in an
amount determined by the Commission to be
sufficient to protect the respondent from any
injury, as a prerequisite to the issuance of an
order under this subsection. If the Commission
later determines that the respondent has not
violated the provisions of this section, the bond
may be forfeited to the respondent. The
Commission shall prescribe the terms and

1025a
conditions under which the bonds may be forfeited
under this paragraph.
(2) Any person who violates an order issued by the
Commission under paragraph (1) after it has
become final shall forfeit and pay to the United
States a civil penalty for each day on which an
importation of articles, or their sale, occurs in
violation of the order of not more than the greater
of $100,000 or twice the domestic value of the
articles entered or sold on such day in violation of
the order. Such penalty shall accrue to the United
States and may be recovered for the United States
in a civil action brought by the Commission in the
Federal District Court for the District of Columbia
or for the district in which the violation occurs. In
such actions, the United States district courts may
issue mandatory injunctions incorporating the
relief sought by the Commission as they deem
appropriate in the enforcement of such final
orders of the Commission.
(g) Exclusion from entry or cease and desist
order; conditions and procedures applicable
(1) If-(A) a complaint is filed against a person under
this section;
(B) the complaint and a notice of investigation
are served on the person;
(C) the person fails to respond to the complaint
and notice or otherwise fails to appear to
answer the complaint and notice;
(D) the person fails to show good cause why
the person should not be found in default; and

1026a
(E) the complainant seeks relief limited solely
to that person;
the Commission shall presume the facts alleged in
the complaint to be true and shall, upon request,
issue an exclusion from entry or a cease and desist
order, or both, limited to that person unless, after
considering the effect of such exclusion or order
upon the public health and welfare, competitive
conditions in the United States economy, the
production of like or directly competitive articles
in the United States, and United States
consumers, the Commission finds that such
exclusion or order should not be issued.
(2) In addition to the authority of the Commission
to issue a general exclusion from entry of articles
when a respondent appears to contest an
investigation concerning a violation of the
provisions of this section, a general exclusion from
entry of articles, regardless of the source or
importer of the articles, may be issued if-(A) no person appears to contest an
investigation concerning a violation of the
provisions of this section,
(B) such a violation is established by
substantial, reliable, and probative evidence,
and
(C) the requirements of subsection (d)(2) are
met.
(h) Sanctions for abuse of discovery and abuse
of process
The Commission may by rule prescribe sanctions for
abuse of discovery and abuse of process to the extent

1027a
authorized by Rule 11 and Rule 37 of the Federal
Rules of Civil Procedure.
(i) Forfeiture
(1) In addition to taking action under subsection
(d), the Commission may issue an order providing
that any article imported in violation of the
provisions of this section be seized and forfeited to
the United States if-(A) the owner, importer, or consignee of the
article previously attempted to import the
article into the United States;
(B) the article was previously denied entry into
the United States by reason of an order issued
under subsection (d); and
(C) upon such previous denial of entry, the
Secretary of the Treasury provided the owner,
importer, or consignee of the article written
notice of-(i) such order, and
(ii) the seizure and forfeiture that would
result from any further attempt to import
the article into the United States.
(2) The Commission shall notify the Secretary of
the Treasury of any order issued under this
subsection and, upon receipt of such notice, the
Secretary of the Treasury shall enforce such order
in accordance with the provisions of this section.
(3) Upon the attempted entry of articles subject to
an order issued under this subsection, the
Secretary of the Treasury shall immediately notify
all ports of entry of the attempted importation and

1028a
shall identify the
paragraph (1)(C).

persons

notified

under

(4) The Secretary of the Treasury shall provide-(A) the written notice described in paragraph
(1)(C) to the owner, importer, or consignee of
any article that is denied entry into the United
States by reason of an order issued under
subsection (d); and
(B) a copy of such written notice to the
Commission.
(j) Referral to President
(1) If the Commission determines that there is a
violation of this section, or that, for purposes of
subsection (e), there is reason to believe that there
is such a violation, it shall-(A) publish such determination in the Federal
Register, and
(B) transmit to the President a copy of such
determination and the action taken under
subsection (d), (e), (f), (g), or (i), with respect
thereto, together with the record upon which
such determination is based.
(2) If, before the close of the 60-day period
beginning on the day after the day on which he
receives a copy of such determination, the
President, for policy reasons, disapproves such
determination and notifies the Commission of his
disapproval, then, effective on the date of such
notice, such determination and the action taken
under subsection (d), (e), (f), (g), or (i) with respect
thereto shall have no force or effect.

1029a
(3) Subject to the provisions of paragraph (2), such
determination shall, except for purposes of
subsection (c), be effective upon publication
thereof in the Federal Register, and the action
taken under subsection (d), (e), (f), (g), or (i), with
respect thereto shall be effective as provided in
such subsections, except that articles directed to
be excluded from entry under subsection (d) or
subject to a cease and desist order under
subsection (f) shall, until such determination
becomes final, be entitled to entry under bond
prescribed by the Secretary in an amount
determined by the Commission to be sufficient to
protect the complainant from any injury. If the
determination becomes final, the bond may be
forfeited to the complainant. The Commission
shall prescribe the terms and conditions under
which bonds may be forfeited under this
paragraph.
(4) If the President does not disapprove such
determination within such 60-day period, or if he
notifies the Commission before the close of such
period that he approves such determination, then,
for purposes of paragraph (3) and subsection (c)
such determination shall become final on the day
after the close of such period or the day on which
the President notifies the Commission of his
approval, as the case may be.
(k) Period of effectiveness; termination of
violation or modification or rescission of
exclusion or order
(1) Except as provided in subsections (f) and (j),
any exclusion from entry or order under this
section shall continue in effect until the

1030a
Commission finds, and in the case of exclusion
from entry notifies the Secretary of the Treasury,
that the conditions which led to such exclusion
from entry or order no longer exist.
(2) If any person who has previously been found
by the Commission to be in violation of this
section petitions the Commission for a
determination that the petitioner is no longer in
violation of this section or for a modification or
rescission of an exclusion from entry or order
under subsection (d), (e), (f), (g), or (i)-(A) the burden of proof in any proceeding
before the Commission regarding such petition
shall be on the petitioner; and
(B) relief may be granted by the Commission
with respect to such petition-(i) on the basis of new evidence or evidence
that could not have been presented at the
prior proceeding, or
(ii) on grounds which would permit relief
from a judgment or order under the Federal
Rules of Civil Procedure.
(l) Importation by or for United States
Any exclusion from entry or order under subsection
(d), (e), (f), (g), or (i), in cases based on a proceeding
involving a patent, copyright, mask work, or design
under subsection (a)(1), shall not apply to any articles
imported by and for the use of the United States, or
imported for, and to be used for, the United States
with the authorization or consent of the Government.
Whenever any article would have been excluded from
entry or would not have been entered pursuant to the

1031a
provisions of such subsections but for the operation of
this subsection, an owner of the patent, copyright,
mask work, or design adversely affected shall be
entitled to reasonable and entire compensation in an
action before the United States Court of Federal
Claims pursuant to the procedures of section 1498 of
Title 28.
(m) “United States” defined
For purposes of this section and sections 1338 and
1340 of this title, the term “United States” means the
customs territory of the United States as defined in
general note 2 of the Harmonized Tariff Schedule of
the United States.
(n) Disclosure of confidential information
(1) Information submitted to the Commission or
exchanged among the parties in connection with
proceedings under this section which is properly
designated
as
confidential
pursuant
to
Commission rules may not be disclosed (except
under a protective order issued under regulations
of the Commission which authorizes limited
disclosure of such information) to any person
(other than a person described in paragraph (2))
without the consent of the person submitting it.
(2) Notwithstanding the prohibition contained in
paragraph (1), information referred to in that
paragraph may be disclosed to-(A) an officer or employee of the Commission
who is directly concerned with-(i) carrying out the investigation or related
proceeding in connection with which the
information is submitted,

1032a
(ii) the administration of a bond posted
pursuant to subsection (e), (f), or (j),
(iii) the administration or enforcement of
an exclusion order issued pursuant to
subsection (d), (e), or (g), a cease and desist
order issued pursuant to subsection (f), or a
consent order issued pursuant to subsection
(c),
(iv) proceedings for the modification or
rescission of a temporary or permanent
order issued under subsection (d), (e), (f),
(g), or (i), or a consent order issued under
this section, or
(v) maintaining the administrative record
of the investigation or related proceeding,
(B) an officer or employee of the United States
Government who is directly involved in the
review under subsection (j), or
(C) an officer or employee of the United States
Customs Service who is directly involved in
administering an exclusion from entry under
subsection (d), (e), or (g) resulting from the
investigation or related proceeding in
connection with which the information is
submitted.
2. 35 U.S.C.A. § 271 provides:
Infringement of patent
(a) Except as otherwise provided in this title,
whoever without authority makes, uses, offers to sell,
or sells any patented invention, within the United

1033a
States or imports into the United States any patented
invention during the term of the patent therefor,
infringes the patent.
(b) Whoever actively induces infringement of a
patent shall be liable as an infringer.
(c) Whoever offers to sell or sells within the United
States or imports into the United States a component
of a patented machine, manufacture, combination or
composition, or a material or apparatus for use in
practicing a patented process, constituting a material
part of the invention, knowing the same to be
especially made or especially adapted for use in an
infringement of such patent, and not a staple article
or commodity of commerce suitable for substantial
noninfringing use, shall be liable as a contributory
infringer.
(d) No patent owner otherwise entitled to relief for
infringement or contributory infringement of a patent
shall be denied relief or deemed guilty of misuse or
illegal extension of the patent right by reason of his
having done one or more of the following: (1) derived
revenue from acts which if performed by another
without his consent would constitute contributory
infringement of the patent; (2) licensed or authorized
another to perform acts which if performed without
his
consent
would
constitute
contributory
infringement of the patent; (3) sought to enforce his
patent rights against infringement or contributory
infringement; (4) refused to license or use any rights
to the patent; or (5) conditioned the license of any
rights to the patent or the sale of the patented
product on the acquisition of a license to rights in
another patent or purchase of a separate product,
unless, in view of the circumstances, the patent

1034a
owner has market power in the relevant market for
the patent or patented product on which the license
or sale is conditioned.
(e)(1) It shall not be an act of infringement to make,
use, offer to sell, or sell within the United States or
import into the United States a patented invention
(other than a new animal drug or veterinary
biological product (as those terms are used in the
Federal Food, Drug, and Cosmetic Act and the Act of
March 4, 1913) which is primarily manufactured
using recombinant DNA, recombinant RNA,
hybridoma technology, or other processes involving
site specific genetic manipulation techniques) solely
for uses reasonably related to the development and
submission of information under a Federal law which
regulates the manufacture, use, or sale of drugs or
veterinary biological products.
(2) It shall be an act of infringement to submit-(A) an application under section 505(j) of the
Federal Food, Drug, and Cosmetic Act or
described in section 505(b)(2) of such Act for a
drug claimed in a patent or the use of which is
claimed in a patent,
(B) an application under section 512 of such
Act or under the Act of March 4, 1913 (21
U.S.C. 151-158) for a drug or veterinary
biological product which is not primarily
manufactured using
recombinant
DNA,
recombinant RNA, hybridoma technology, or
other processes involving site specific genetic
manipulation techniques and which is claimed
in a patent or the use of which is claimed in a
patent, or

1035a
(C)(i) with respect to a patent that is identified
in the list of patents described in section
351(l)(3) of the Public Health Service Act
(including as provided under section 351(l)(7)
of such Act), an application seeking approval of
a biological product, or
(ii) if the applicant for the application fails
to provide the application and information
required under section 351(l)(2)(A) of such
Act, an application seeking approval of a
biological product for a patent that could be
identified pursuant to section 351(l)(3)(A)(i)
of such Act,
if the purpose of such submission is to obtain
approval under such Act to engage in the
commercial manufacture, use, or sale of a drug,
veterinary biological product, or biological product
claimed in a patent or the use of which is claimed
in a patent before the expiration of such patent.
(3) In any action for patent infringement brought
under this section, no injunctive or other relief
may be granted which would prohibit the making,
using, offering to sell, or selling within the United
States or importing into the United States of a
patented invention under paragraph (1).
(4) For an act of infringement described in
paragraph (2)-(A) the court shall order the effective date of
any approval of the drug or veterinary
biological product involved in the infringement
to be a date which is not earlier than the date
of the expiration of the patent which has been
infringed,

1036a
(B) injunctive relief may be granted against an
infringer
to
prevent
the
commercial
manufacture, use, offer to sell, or sale within
the United States or importation into the
United States of an approved drug, veterinary
biological product, or biological product,
(C) damages or other monetary relief may be
awarded against an infringer only if there has
been commercial manufacture, use, offer to
sell, or sale within the United States or
importation into the United States of an
approved drug, veterinary biological product,
or biological product, and
(D) the court shall order a permanent
injunction prohibiting any infringement of the
patent by the biological product involved in the
infringement until a date which is not earlier
than the date of the expiration of the patent
that has been infringed under paragraph
(2)(C), provided the patent is the subject of a
final court decision, as defined in section
351(k)(6) of the Public Health Service Act, in
an action for infringement of the patent under
section 351(l)(6) of such Act, and the biological
product has not yet been approved because of
section 351(k)(7) of such Act.
The remedies prescribed by subparagraphs (A),
(B), (C), and (D) are the only remedies which may
be granted by a court for an act of infringement
described in paragraph (2), except that a court
may award attorney fees under section 285.
(5) Where a person has filed an application
described in paragraph (2) that includes a
certification under subsection (b)(2)(A)(iv) or

1037a
(j)(2)(A)(vii)(IV) of section 505 of the Federal Food,
Drug, and Cosmetic Act (21 U.S.C. 355), and
neither the owner of the patent that is the subject
of the certification nor the holder of the approved
application under subsection (b) of such section for
the drug that is claimed by the patent or a use of
which is claimed by the patent brought an action
for infringement of such patent before the
expiration of 45 days after the date on which the
notice given under subsection (b)(3) or (j)(2)(B) of
such section was received, the courts of the United
States shall, to the extent consistent with the
Constitution, have subject matter jurisdiction in
any action brought by such person under section
2201 of title 28 for a declaratory judgment that
such patent is invalid or not infringed.
(6)(A) Subparagraph (B) applies, in lieu of
paragraph (4), in the case of a patent-(i) that is identified, as applicable, in the
list of patents described in section 351(l)(4)
of the Public Health Service Act or the lists
of patents described in section 351(l)(5)(B)
of such Act with respect to a biological
product; and
(ii) for which an action for infringement of
the patent with respect to the biological
product-(I) was brought after the expiration of
the
30-day
period
described
in
subparagraph (A) or (B), as applicable,
of section 351(l)(6) of such Act; or
(II) was brought before the expiration of
the 30-day period described in subclause

1038a
(I), but which was dismissed without
prejudice or was not prosecuted to
judgment in good faith.
(B) In an action for infringement of a patent
described in subparagraph (A), the sole and
exclusive remedy that may be granted by a
court, upon a finding that the making, using,
offering to sell, selling, or importation into the
United States of the biological product that is
the subject of the action infringed the patent,
shall be a reasonable royalty.
(C) The owner of a patent that should have
been included in the list described in section
351(l)(3)(A) of the Public Health Service Act,
including as provided under section 351(l)(7) of
such Act for a biological product, but was not
timely included in such list, may not bring an
action under this section for infringement of
the patent with respect to the biological
product.
(f)(1) Whoever without authority supplies or causes
to be supplied in or from the United States all or a
substantial portion of the components of a patented
invention, where such components are uncombined in
whole or in part, in such manner as to actively induce
the combination of such components outside of the
United States in a manner that would infringe the
patent if such combination occurred within the
United States, shall be liable as an infringer.
(2) Whoever without authority supplies or causes
to be supplied in or from the United States any
component of a patented invention that is
especially made or especially adapted for use in
the invention and not a staple article or

1039a
commodity of commerce suitable for substantial
noninfringing use, where such component is
uncombined in whole or in part, knowing that
such component is so made or adapted and
intending that such component will be combined
outside of the United States in a manner that
would infringe the patent if such combination
occurred within the United States, shall be liable
as an infringer.
(g) Whoever without authority imports into the
United States or offers to sell, sells, or uses within
the United States a product which is made by a
process patented in the United States shall be liable
as an infringer, if the importation, offer to sell, sale,
or use of the product occurs during the term of such
process patent. In an action for infringement of a
process patent, no remedy may be granted for
infringement on account of the noncommercial use or
retail sale of a product unless there is no adequate
remedy under this title for infringement on account of
the importation or other use, offer to sell, or sale of
that product. A product which is made by a patented
process will, for purposes of this title, not be
considered to be so made after-(1) it is materially changed by subsequent
processes; or
(2) it becomes a trivial and
component of another product.

nonessential

(h) As used in this section, the term “whoever”
includes any State, any instrumentality of a State,
and any officer or employee of a State or
instrumentality of a State acting in his official
capacity. Any State, and any such instrumentality,
officer, or employee, shall be subject to the provisions

1040a
of this title in the same manner and to the same
extent as any nongovernmental entity.
(i) As used in this section, an “offer for sale” or an
“offer to sell” by a person other than the patentee, or
any designee of the patentee, is that in which the sale
will occur before the expiration of the term of the
patent.

